No. 21-____

In the Supreme Court of the United States
BBBBBBBBBBBBBBBBBB


W. CLARK APOSHIAN,
Petitioner,
v.
MERRICK GARLAND, Attorney General of the
United States; U.S. DEPARTMENT OF JUSTICE;
BUREAU OF ALCOHOL, TOBACCO, FIREARMS,
AND EXPLOSIVES; and MARVIN RICHARDSON,
Acting Director, Bureau of Alcohol, Tobacco,
Firearms, and Explosives,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
U.S. Court of Appeals for the Tenth Circuit
__________________
PETITION FOR A WRIT OF CERTIORARI
__________________
Caleb Kruckenberg
Richard A. Samp
Mark Chenoweth
Harriet Hageman
New Civil Liberties
Alliance
1225 19th St. NW
Suite 450
Washington, DC 20036
(202) 869-5210

Charles Cooper
Counsel of Record
John Tienken
Cooper & Kirk PLLC
1523 New Hampshire Ave.
Washington, DC 20036
(202) 220-9600
ccooper@cooperkirk.com
Counsel for Petitioner

QUESTIONS PRESENTED
Since this Court’s 1984 decision in Chevron
U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984), federal courts have deferred
under certain circumstances to reasonable agency
interpretations of ambiguous statutory terms. The
question of statutory construction at the root of this
case is the meaning of the term “machinegun,” a term
defined at 26 U.S.C. § 5845(b). In 2018, the Bureau of
Alcohol, Tobacco, Firearms, and Explosives (ATF)
reversed course and issued regulations that
reinterpreted “machinegun” more expansively than it
had previously. The court of appeals upheld the
regulations, deferring under Chevron to ATF’s
statutory interpretation despite the fact that (1) the
federal government repeatedly insisted that its
interpretation was not entitled to Chevron deference,
and (2) almost all of Section 5845(b)’s applications call
for criminal sanctions.
The Questions Presented are:
(1) Whether courts should defer under Chevron
to an agency interpretation of federal law when the
federal government affirmatively disavows Chevron
deference.
(2) Whether the Chevron framework applies to
statutes with criminal-law applications.
(3) Whether, if a court determines that a
statute with criminal-law applications is ambiguous,
the rule of lenity requires the court to construe the
statute in favor of the criminal defendant,
notwithstanding
a
contrary
federal
agency
construction.

ii
PARTIES TO THE PROCEEDING
Petitioner W. Clark Aposhian was the plaintiff
in the district court and the plaintiff-appellant in the
court of appeals.
Respondents U.S. Department of Justice and
Bureau of Alcohol, Tobacco, Firearms, and Explosives
(ATF) were defendants in the district court and
defendants-appellees in the court of appeals. Acting
Attorney General Matthew Whitaker was initially a
defendant in the district court but was later replaced
by his successor, William P. Barr. Barr was in turn
replaced as defendant-appellee in the court of appeals
by Acting Attorney General Robert M. Wilkinson.
Respondent Attorney General Merrick Garland has
replaced Wilkinson and is being sued in his official
capacity only. Acting ATF Director Thomas E.
Brandon was initially a defendant in the district court
and a defendant-appellee in the court of appeals but
was replaced as defendant-appellee in the court of
appeals by Acting ATF Director Regina Lombardo.
Respondent Marvin Richardson has replaced
Lombardo and is being sued in his official capacity
only.

iii
STATEMENT OF RELATED PROCEEDINGS
x
Aposhian v. Barr, No. 19-4036 (10th
Cir.) (panel opinion issued May 7, 2020; order
granting petition for rehearing en banc issued
September 4, 2020; order vacating the
September 4 order and reinstating the panel
opinion over four dissents by five judges of the
en banc court issued March 5, 2021).
x
Aposhian v. Barr, No. 19-37 (D. Utah)
(opinion issued and final judgment entered
March 15, 2019).
x
The ATF regulations challenged in these
proceedings are also the subject of challenges
pending in three other federal appeals courts:
Guedes v. Bureau of Alcohol, Tobacco, Firearms
and Explosives, Nos. 19-5042 & 21-5045 (D.C.
Cir.); Cargill v. Garland, No. 20-51016 (5th
Cir.); and Gun Owners of America, Inc. v.
Garland, No. 19-1298 (6th Cir.).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING ........................... ii
STATEMENT OF RELATED PROCEEDINGS .......iii
TABLE OF AUTHORITIES ..................................... vii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISIONS INVOLVED ................. 1
INTRODUCTION ....................................................... 3
STATEMENT.............................................................. 5
REASONS FOR GRANTING THE PETITION ....... 15
I.

THE PANEL’S DECISION TO GRANT
CHEVRON DEFERENCE DESPITE THE
AGENCY’S WAIVER CONFLICTS WITH
DECISIONS OF THIS COURT AND IS
INCONSISTENT
WITH
CHEVRON’S
RATIONALE ...................................................... 15

v

II.

PAGE
THE PANEL’S DECISION TO DEFER TO AN
AGENCY INTERPRETATION OF A STATUTE
WITH CRIMINAL APPLICATIONS RAISES
SERIOUS CONSTITUTIONAL CONCERNS
AND WARRANTS REVIEW .................................. 23
A.

The Panel’s Deference to an
Agency Interpretation of a
Criminal Statute Conflicts with
Decisions from Other Appeals
Courts .................................................. 23

B.

The Circuit Split Results from
This Court’s Conflicting Decisions
on Chevron Deference to Agency
Interpretations
of
Criminal
Statutes ............................................... 26

C.

The Panel Decision Ignores
Important Separation-of-Powers
Principles and Is Fundamentally
Unfair to Defendants .......................... 29

III.

THE LOWER COURTS NEED GUIDANCE
REGARDING THE PROPER INTERPLAY
BETWEEN CHEVRON AND THE RULE OF
LENITY ............................................................ 32

IV.

THIS CASE IS WELL-SUITED FOR
ADDRESSING WHETHER CHEVRON CAN BE
WAIVED AND WHETHER IT APPLIES TO
CRIMINAL STATUTES........................................ 35

CONCLUSION ......................................................... 38

vi
APPENDIX
Appendix A Opinion of the United
States Court of Appeals for
the Tenth Circuit
(May 7, 2020) .............................. App. 1a
Appendix B Opinion of the United
States District Court for
the District of Utah
(March 15, 2019) ....................... App. 59a
Appendix C Order of the United States
Court of Appeals for the
Tenth Circuit granting the
petition for rehearing en
banc
(Sept. 4, 2020) ........................... App. 74a
Appendix D Order of the United States
Court of Appeals for the
Tenth Circuit vacating the
grant of rehearing en banc
as improvidently granted,
reinstating
the
panel
opinion,
and
entering
judgment
(March 5, 2021) ......................... App. 78a
Appendix E Regulatory Provisions ............ App. 116a

vii
TABLE OF AUTHORITIES
Page(s)
Cases
Abramski v. United States,
573 U.S. 169 (2014) ....................................... passim
Am. Wild Horse Pres. Campaign v. Jewell,
847 F.3d 1174 (10th Cir. 2016) ............................. 19
Amaya v. Rosen,
986 F.3d 424 (4th Cir. 2021) ................................. 21
Babb v. Sec’y, Dep’t of Veterans Affairs,
992 F.3d 1193 (11th Cir. 2021) ............................. 21
Babbitt v. Sweet Home Chapter of
Communities for a Great Oregon,
515 U.S. 687 (1995) ....................................... passim
Caperton v. A.T. Massey Coal Co.,
556 U.S. 868 (2009) ............................................... 31
Carter v. Welles–Bowen Realty, Inc.,
736 F.3d 722 (6th Cir. 2013) ................................. 28
Chevron U.S.A., Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837 (1984)................. passim
City of Arlington v. FCC,
569 U.S. 290 (2013) ......................................... 18, 33
Clark v. Martinez,
543 U.S. 371 (2005) ............................................... 30
Commodity Futures Trading Comm’n v. Erskine,
512 F.3d 309 (6th Cir. 2008) ................................. 21
Cty. of Maui v. Hawaii Wildlife Fund,
140 S. Ct. 1462 (2020) ........................................... 18

viii
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) ........................................... 16
Esquivel–Quintana v. Lynch,
810 F.3d 1019 (6th Cir. 2016) ............................... 28
Esquivel–Quintana v. Lynch,
137 S. Ct. 368 (Mem.) (2016)................................. 28
Esquivel–Quintana v. Sessions,
137 S. Ct. 1562 (2017) ........................................... 28
Estate of Cowart v. Nicklos Drilling Co.,
505 U.S. 469 (1992) ......................................... 18, 19
Global Tel*Link v. FCC,
866 F.3d 397 (D.C. Cir. 2017) ............................... 20
Gregg v. Georgia,
428 U.S. 153 (1976) ............................................... 31
Guedes v. Bureau of Alcohol, Tobacco, Firearms
and Explosives, 140 S. Ct. 789 (2020) ........... passim
Guedes v. Bureau of Alcohol, Tobacco, Firearms
and Explosives, 920 F.3d 1 (D.C. Cir. 2019) . passim
Guedes v. Bureau of Alcohol, Tobacco, Firearms,
and Explosives, 18-CV-2988 (DLF),
2021 WL 663183 (D.D.C. Feb. 19, 2021) .............. 37
Gun Owners of America, Inc. v. Garland,
992 F.3d 446 (6th Cir. 2021) ......................... passim
Gun Owners of America, Inc. v. Garland,
2 F.4th 576 (6th Cir. June 25, 2021) ....................... 4
Gutierrez-Brizuela v. Lynch,
834 F.3d 1142 (10th Cir. 2016) ............................. 28
Hays Med. Ctr. v. Azar,
956 F.3d 1247 (10th Cir. 2020) ............................. 19

ix
HollyFrontier Cheyenne Ref., LLC v. Renewable
Fuels Ass’n, 141 S. Ct. 2172 (2021) .................. 18-19
Hydro Res., Inc. v. E.P.A.,
608 F.3d 1131 (10th Cir. 2010) ............................. 19
Judge Rotenberg Educ. Ctr., Inc. v. United States
Food & Drug Admin., 2021 WL 2799891
(D.C. Cir. July 6, 2021) .......................................... 20
Lubow v. U.S. Dep’t of State,
783 F.3d 877 (D.C. Cir. 2017) ............................... 20
Marbury v. Madison,
1 Cranch (5 U.S.) 137 (1804) ................................. 31
Martin v. Soc. Sec. Admin., Comm’r,
903 F.3d 1154 (11th Cir. 2018) ............................. 21
Pension Benefit Guar. Corp. v. LTV Corp.,
496 U.S. 633 (1990) .......................................... 30-31
Sierra Club v. E.P.A.,
252 F.3d 943 (8th Cir. 2001). ................................ 21
Skilling v. United States,
561 U.S. 358 (2010) ............................................... 32
SoundExchange, Inc. v. Copyright Royalty Bd.,
904 F.3d 41 (D.C. Cir. 2018) ................................. 20
State of New York v. Department of Justice,
951 F.3d 84 (2d Cir. 2020) ..................................... 21
Touby v. United States,
500 U.S. 160 (1991) ............................................... 30
United States v. Apel,
571 U.S. 359 (2014) ................................... 12, 27, 29
United States v. Balde,
943 F.3d 73 (2d Cir. 2019) ......................... 23, 24, 27

x
United States v. Davis,
139 S. Ct. 2319 (2019) ........................................... 29
United States v. Gen. Motors Corp.,
323 U.S. 373 (1945) ............................................... 37
United States v. Grimaud,
220 U.S. 506 (1911) ............................................... 30
United States v. Havis,
907 F.3d 439 (6th Cir. 2018) ................................. 28
United States v. Hudson,
7 Cranch (11 U.S.) 32 (1812) ................................. 29
United States v. Kuzma,
967 F.3d 959 (9th Cir. 2020) ........................... 24, 27
United States v. Mead Corp.,
533 U.S. 218 (2001) ......................................... 17, 29
United States v. O’Hagan,
521 U.S. 642 (1997) ............................................... 30
United States v. Olano,
507 U.S. 725 (1993) ............................................... 18
Valenzuela Gallardo v. Barr,
968 F.3d 1053 (9th Cir. 2020) ............................... 28
Whitman v. United States,
135 S. Ct. 352 (2014) ............................................. 28
Statutes
18 U.S.C. § 921(23) ..................................................... 8
18 U.S.C. § 922(o) ................................................. 5, 14
18 U.S.C. § 922(o)(1) ................................................... 2
18 U.S.C. § 924(a)(2) ................................................... 2

xi
18 U.S.C. § 926(a) ..................................................... 30
26 U.S.C. § 5845(b) ........................................... passim
28 U.S.C. § 1254(1) ..................................................... 1
National Firearms Act of 1934, Pub. L. No.
73-474, 48 Stat. 1236 (June 26, 1934) .................... 5
Firearm Owners’ Protection Act of 1986, Pub. L. No.
99-308, 100 Stat. 449 (May 19, 1986) ..................... 5
Regulations
Bump-Stock-Type Devices, 83 Fed. Reg. 66,514
(Dec. 26, 2018) (to be codified at
27 C.F.R. pts. 447, 478, and 479) .................. passim
Application of the Definition of Machinegun to
“Bump Fire” Stocks and Other Similar Devices,
83 Fed. Reg. 7,949 (Feb. 23, 2018) .......................... 8
Notice of Proposed Rulemaking,
Bump-Stock-Type Devices, 83 Fed. Reg. 13,442
(March 29, 2018) ...................................................... 9
Other Authorities
Durling, et al., May Chevron Be Waived?,
71 STAN. L. REV. ONLINE 183, 183 (2019) ............. 19
Shapiro, et al., Supreme Court Practice § 4.18
(11th ed. 2019) ....................................................... 37

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Tenth Circuit.
OPINIONS BELOW
The panel opinion of the court of appeals is
reported at 958 F.3d 969 and is reproduced at App.1a.
The district court’s opinion is reported at 374 F. Supp.
3d 1145 and is reproduced at App.59a. The order of
the court of appeals granting rehearing en banc and
vacating the panel opinion is reported at 973 F.3d
1151 and is reproduced at App.74a. The order of the
court of appeals vacating the grant of rehearing en
banc as improvidently granted, reinstating the panel
opinion, and directing the Clerk to reissue the
judgment as of March 5, 2021, is reported at 989 F.3d
890 and reproduced at App.78a.
JUDGMENT
The court of appeals issued its judgment on
March 5, 2021. This Court has jurisdiction under 28
U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
26 U.S.C. § 5845(b) states:
The term “machinegun” means any
weapon which shoots, is designed to
shoot, or can be readily restored to shoot,
automatically more than one shot,

2
without manual reloading, by a single
function of the trigger. The term shall
also include the frame or receiver of any
such weapon, any part designed and
intended solely and exclusively, or
combination of parts designed and
intended, for use in converting a weapon
into a machinegun, and any combination
of parts from which a machinegun can be
assembled if such parts are in the
possession or under control of a person.
18 U.S.C. § 922(o)(1) states:
Except as provided in paragraph (2), it
shall be unlawful for any person to
transfer or possess a machinegun.
18 U.S.C. § 924(a)(2) states in relevant part:
Whoever knowingly violates subsection
... (o) of section 922 shall be fined as
provided in this title, imprisoned not
more than 10 years, or both.
Relevant regulations are set out in the
Appendix.

3
INTRODUCTION
This Petition raises purely legal issues of
exceptional importance regarding the scope of
deference under Chevron U.S.A., Inc. v. Natural
Resources Defense Council, Inc., 467 U.S. 837 (1984).
Relying on Chevron deference, a sharply divided
Tenth Circuit panel upheld the challenged ATF
regulation at issue here—despite the fact that the
agency itself expressly disavowed such deference and
defended the regulation as the best reading of the
plain language of the statute at issue. In both the
appeals court and the district court, the Government
affirmatively insisted that ATF was not entitled to
Chevron deference because the statute’s language is
unambiguous. App.12a, App.68a n.8. The panel
majority, however, would not take no for an answer
and granted the Government deference over its
protestations. App.13a.
The decision below is all the more startling
since the statute at issue imposes criminal penalties
for violations. The panel majority held that the
agency’s construction of a criminal statute is entitled
to Chevron deference, provided that Congress has
delegated rulemaking authority to the agency and the
agency promulgates its interpretation by means of
formal rulemaking. App.19a–24a. The panel held
further that the rule of lenity is inapplicable in cases
to which Chevron applies. App.20a.
These rulings conflict with decisions from this
Court and from other federal appeals courts. For
instance, in March a divided Sixth Circuit panel
preliminarily enjoined enforcement of the ATF

4
regulation at issue here; it disagreed with the Tenth
Circuit’s rulings in this case on all three issues raised
in this Petition. See Gun Owners of Am., Inc. v.
Garland, 992 F.3d 446 (6th Cir. 2021). The Sixth
Circuit in June granted the federal government’s
petition for rehearing en banc (thereby vacating the
panel decision), 2 F.4th 576 (6th Cir. June 25, 2021),
and has scheduled the en banc argument for October.
The circuit split on the ATF regulation at issue
reflects long-percolating divisions among the circuits.
Review of the decision below is warranted to provide
the lower courts with much-needed guidance on the
scope of Chevron deference.
Moreover, resolution of the legal issues here is
likely outcome determinative. Unlike the district
court, in upholding the ATF’s regulation, the panel
majority below never suggested that ATF’s
construction was the best reading of the statute.
Rather, it simply deferred to ATF’s rule as a
reasonable interpretation of an ambiguous statute.
App.25a. But eight federal appeals court judges have
now issued opinions evaluating ATF’s interpretation
of the statute without placing a Chevron thumb on the
scale in the Government’s favor. Every one of those
judges has concluded ATF’s interpretation is
incorrect.
Petitioners respectfully submit that this Court
should grant this Petition and hold Chevron
inapplicable.

5
STATEMENT
Petitioner is challenging a 2018 ATF regulation
that construes the meaning of “machinegun,” as used
in federal criminal statutes. In an effort to prevent
criminal use of machine guns1 and other highpowered firearms, Congress passed the National
Firearms Act of 1934 (NFA), Pub. L. No. 73-474, 48
Stat. 1236 (June 26, 1934). The NFA imposed a very
steep tax on the purchase of a machine gun. That tax
provision was effectively a criminal statute; Congress
concluded that many gangsters would obtain machine
guns without paying the tax and then could be
prosecuted for tax evasion. Gun Owners of America,
992 F.3d at 450.
In 1986, Congress passed the Firearm Owners’
Protection Act, Pub. L. No. 99-308, 100 Stat. 449 (May
19, 1986), which banned civilian ownership of
machine guns manufactured after May 1986, as well
as any parts used to convert an otherwise legal
semiautomatic firearm into an illegal machine gun.
The ban is codified at 18 U.S.C. § 922(o).
The statutory definition of a “machinegun” has
remained constant since 1986. The definition reads in
pertinent part, “The term ‘machinegun’ means any
weapon which shoots, is designed to shoot, or can be
readily restored to shoot, automatically more than
one shot, without manual reloading, by a single
function of the trigger.” 26 U.S.C. § 5845(b).
Disagreements over the proper construction of the

We use the modern spelling of “machine gun” as two
words, unless quoting sources.
1

6
statute have focused on the word “automatically” and
the phrase “single function of the trigger.”
Bump Stocks. Designed for people with
limited hand mobility (e.g., due to arthritis), a bump
stock replaces the standard stock of a semi-automatic
rifle. To initiate bump firing, the shooter “maintain[s]
constant forward pressure with the non-trigger hand
on the barrel-shroud or fore-grip of the rifle, and
maintain[s] the trigger finger on the device’s
extension ledge with constant rearward pressure.”
Final Rule, Bump-Stock-Type Devices, 83 Fed. Reg.
66,518 (Dec. 26, 2018)(quoting the NPRM). While
keeping his trigger finger stationary in front of the
trigger on the bump stock’s extension ledge, the
shooter also maintains constant rearward pressure
with his trigger hand. The recoil energy from the fired
shot causes the firearm to slide backward; forward
pressure applied by the shooter’s non-trigger hand
must then fight the recoil to initiate the next shot. As
the non-trigger hand pushes the firearm forward, the
trigger “bumps” against the shooter’s stationary
trigger finger, causing the trigger to depress and the
firearm to shoot again.
As with any semi-automatic weapon, the
trigger must be completely depressed, released, and
then reset between each shot. A shooter can neither
bump fire with one hand, nor hold down the trigger to
fire multiple shots. A bump stock’s extension ledge
just helps keep a shooter’s finger stationary in order
to complete the trigger’s depress-release-reset cycle
somewhat faster than is easily done without an
extension ledge.

7
The first patented bump stock used internal
springs to create the “bump”-firing sequence after the
shooter pulled the trigger once. In 2002, ATF
determined that the device fell outside the statutory
definition of a machine gun because it “did not modify
how a semiautomatic rifle’s trigger ‘moves’ with each
shot.” Guedes v. Bureau of Alcohol, Tobacco, Firearms
and Explosives, 920 F.3d 1, 37 (D.C. Cir.
2019)(Henderson, J., dissenting). In 2006, ATF
overruled its prior decision, determining that the
internal spring mechanism in such stocks “made the
device a machine gun.” Gun Owners of America, 992
F.3d at 452. But ATF stated that if “the internal
spring [were removed] from the device, then it ‘would
render the device a non-machinegun under the
statutory definition.’ ” Id. (quoting Final Rule, BumpStock-Type Devices, 83 Fed. Reg. 66,514, 66,517 (Dec.
26, 2018)(to be codified at 27 C.F.R. pts. 447, 478, and
479)). “Between 2008 and 2017, … ATF … issued
classification decisions concluding that other bumpstock-type devices were not machineguns, primarily
because the devices did not rely on internal springs or
similar mechanical parts to channel recoil energy.” 83
Fed. Reg. at 66,514 (emphasis added). Instead, these
devices rely on the shooter’s non-trigger hand to
overcome recoil energy.
The Final Rule. ATF reversed course in 2018,
concluding (via formal regulation) that nonmechanical bump stocks should be reclassified as
machine guns. See Final Rule, Bump-Stock-Type
Devices, 83 Fed. Reg. 66,514 (Dec. 26, 2018). That
reversal followed a horrific tragedy in October 2017,
in which a highly skilled, lone gunman fired semiautomatic rifles equipped with bump stocks from a

8
Las Vegas hotel room, killing 58 people and wounding
more than 500. In response, President Trump
“direct[ed] the Department of Justice to dedicate all
available resources … as expeditiously as possible, to
propose for notice and comment a rule banning all
devices that turn legal weapons into machineguns.”
Presidential Documents, Application of the Definition
of Machinegun to “Bump Fire” Stocks and Other
Similar Devices, 83 Fed. Reg. 7,949 (Feb. 20, 2018).
The Final Rule amended regulations at 27
C.F.R. §§ 447.11, 478.11, and 479.11 to change ATF’s
interpretation of the statutory definition of a machine
gun. Federal law states that a weapon is a
“machinegun” if it “automatically” fires more than one
shot “by a single function of the trigger.” 26 U.S.C.
§ 5845(b); see 18 U.S.C. § 921(23) (incorporating
§ 5845(b)’s definition into the criminal code). The
Final Rule amended the pertinent regulations to
construe “single function of the trigger” as meaning “a
single pull of the trigger and analogous motions” and
to construe “automatically” (as it modifies “shoots, is
designed to shoot, or can be readily restored to shoot”)
as meaning “functioning as the result of a self-acting
or self-regulating mechanism that allows the firing of
multiple rounds through a single function of the
trigger.” See 27 C.F.R. § 447.11. ATF concluded that
§ 5845(b)’s definition of “machinegun” includes nonmechanical bump stocks. 83 Fed. Reg. at 66,515. It
asserted that such devices permit users to initiate an
automatic firing sequence with a single “pull” of the
trigger and “analogous motions”—notwithstanding
that the trigger resets for each shot. Id.

9
ATF’s Final Rule took effect on March 26, 2019.
ATF estimated that Americans possessed up to
520,000 previously legal non-mechanical bump
stocks. Notice of Proposed Rulemaking, Bump-StockType Devices, 83 Fed. Reg. 13,442, 13,451 (March 29,
2018). The Final Rule required those devices to be
destroyed or abandoned by March 26, 2019. 83 Fed.
Reg. at 66,546.
Petitioner Files Suit. Petitioner W. Clark
Aposhian purchased a non-mechanical bump stock at
a time when ATF publicly confirmed that possession
of such devices was entirely legal. In January 2019,
Petitioner challenged the Final Rule by filing suit in
federal district court in Utah against the Attorney
General, the Department of Justice, ATF, and the
ATF’s Director. He argued, among other things, that
ATF lacked statutory authority to issue regulations
with the force of law regarding the scope of the
machine gun ban; that ATF violated the
Constitution’s separation-of-powers mandate by
attempting to exercise such power in the absence of
congressional authorization; that ATF’s construction
of 26 U.S.C. § 5845(b) is contrary to the statute’s
mandate; and that the statute violates the
nondelegation doctrine to the extent that it grants
ATF broad discretion to determine the scope of
criminal law. The next day, Petitioner filed a motion
for a preliminary injunction against enforcement of
the Final Rule.
The district court denied the motion. App.59a–
73a. The court noted that “[t]he parties do not dispute
that Mr. Aposhian will experience irreparable harm if
the injunction is denied.” App.64a. Because the

10
government stipulated to irreparable harm,
Petitioner did not submit evidence in support of his
irreparable-harm claim, and the court did not address
that factor in determining whether to grant a
preliminary injunction. App.64a n.4. Instead, the sole
basis for the district court’s ruling was its conclusion
that Petitioner “has not carried his burden of showing
a substantial likelihood of success on the merits.”
App.64a–65a. Petitioner surrendered his bump stock
to ATF when the injunction was denied. ATF agreed
to keep the device and not destroy it pending the final
resolution of this lawsuit.
The district court noted that the Government
“went out of [its] way to avoid citing Chevron and its
progeny, and repeatedly stressed that [it] neither
request[s], nor believe[s] [its] interpretations [of
Section 5845(b)] are entitled to, any measure of
deference.” App.67a n.8 (citing Defs.’ Mem. in Opp’n
(ECF No. 25 at 29)). The court did not decide whether
the Government’s explicit waiver of Chevron
deference precluded it from applying Chevron. It held
that resort to Chevron was unnecessary “because the
Final Rule’s clarifying definitions reflect the best
interpretation of the statute.” Id.
Tenth Circuit Rulings. A divided Tenth
Circuit panel affirmed. App.1a–58a. The majority
opinion did not address which party’s position
“reflect[s] the best interpretation” of Section 5845(b).
Instead, it held that Congress authorized ATF to
issue binding regulations implementing the NFA,
App.15a, that Section 5845(b) is “ambiguous,”
App.25a–31a, and thus that ATF’s interpretation of
the statute is entitled to Chevron deference. Applying

11
Chevron, the majority concluded that Petitioner failed
to demonstrate a likelihood of success on the merits
because, under Chevron Step Two, “ATF’s Final Rule
sets forth a reasonable interpretation of the statute’s
ambiguous definition of ‘machinegun.’ ” App.33a.
The majority rejected the argument, pressed
by all parties, that because the Government had
disavowed reliance on Chevron, the court should
abide by that waiver. App.16a–18a. It held that
although the Government’s disavowal of Chevron
deference means that a court is not required to apply
Chevron, a court is still permitted to do so. App.16a.
The majority decided that it would exercise that
discretion—reasoning that Petitioner had himself
“invited” the court to apply Chevron deference by
citing the decision in urging its inapplicability.
App.17a–18a. (Petitioner, indeed, cited Chevron but
only to argue that it would be inappropriate to apply
Chevron deference, given that Section 5845(b)
unambiguously supports his position.) The court
added that it might well have applied Chevron even if
Petitioner had not “invited” it to do so. App.18a–19a
n.6.
The appeals court also rejected the argument,
pressed by both Petitioner and the Government, that
“Chevron deference is inapplicable where the
government interprets a statute that imposes
criminal liability.” App.19a. And it held that the rule
of lenity can never trump application of Chevron
deference. App.19a–21a. Relying on this Court’s
decision in Babbitt v. Sweet Home Chapter of
Communities for a Great Oregon, 515 U.S. 687 (1995),
App.19a–20a, the majority stated that where an

12
agency has issued a formal regulation interpreting a
statute over which it “has both civil and criminal
enforcement authority, Babbitt suggests that
Chevron, not the rule of lenity, should apply.”
App.20a–21a.
The court acknowledged that this Court’s
decisions in Abramski v. United States, 573 U.S. 169
(2014), and United States v. Apel, 571 U.S. 359 (2014),
“signaled some wariness about deferring to the
government’s interpretations of criminal statutes.”
App.23a (quoting Guedes, 920 F.3d at 25). But it
agreed with the D.C. Circuit’s Guedes decision that
Babbitt controls over Abramski and Apel when, as
here, a federal agency “has promulgated a regulation
through formal notice-and-comment proceedings.”
App.23a–24a.
The panel majority held alternatively that
Petitioner failed to satisfy the other prerequisites for
obtaining a preliminary injunction. App.34a–38a.
While acknowledging that the Government stipulated
that Petitioner satisfied the irreparable harm
requirement, the majority concluded that the
stipulation did not relieve Petitioner of his burden of
demonstrating irreparable harm—and that he had
failed to satisfy that burden. App.36a.
Judge Carson dissented. App.39a–58a. He
would have held that Section 5845(b)’s definition
of “machineguns” unambiguously excludes nonmechanical bump stocks. App.42a–51a. In particular,
he concluded that Petitioner’s bump stock does not
“automatically” fire multiple shots following a single
function of the trigger, because only one shot is fired

13
unless the shooter also applies constant forward
pressure with his or her non-trigger hand to reset and
depress the trigger again. App.49a.
He also concluded that application of Chevron
deference was inappropriate even if the word
“automatically” and the phrase “single function of the
trigger” had been ambiguous, for two separate
reasons. First, he argued that the Government’s
disavowal of Chevron deference “should have
prevented the majority from applying the
controversial doctrine.” App.52a. Quoting Justice
Gorsuch, he stated, “[I]f the justification for Chevron
is that policy choices should be left to executive
branch officials directly accountable to the people,
then courts must equally respect the Executive’s
decision not to make policy choices in the
interpretation of Congress’s handiwork.” Id. (quoting
Guedes v. Bureau of Alcohol, Tobacco, Firearms and
Explosives, 140 S. Ct. 789, 790 (2020) (statement of
Gorsuch, J., respecting denial of certiorari) (emphasis
in original)). Second, he argued that Chevron is
inapplicable because possession of a machine gun
carries possible criminal sanctions. App.53a. Because
this Court has held that criminal laws are for courts,
not for the Government, to construe, and because a
statute with both civil and criminal applications
should have a single meaning regardless of how it is
being applied, “the logical result is that we must also
not apply Chevron [deference] when a statute has
both civil and criminal applications.” App.54a.
The Tenth Circuit granted Petitioner’s request
for rehearing en banc and vacated the panel decision.
App.74a–77a. The court directed the parties, in their

14
supplemental briefs, to respond to several questions
set out in the order; a majority of those questions
focused on whether Chevron deference is applicable
under the facts of this case. App.75a–76a.
On March 5, 2021, the appeals court voted 6-5
to vacate the order granting rehearing en banc as
improvidently granted, to reinstate the panel opinion,
and to reissue the panel’s judgment as of March 5,
2021. App.78a–115a. Four of the five dissenting
judges filed opinions dissenting from the decision to
vacate, and all five (Chief Judge Tymkovich and
Judges Hartz, Holmes, Eid, and Carson) joined each
of the four opinions. For instance, Chief Judge
Tymkovich forcefully explained that the court of
appeals should have honored the Government’s
waiver of Chevron, like it would for any other party,
and that, accordingly, “[i]n this case … [the court]
must do what courts have done for centuries and
interpret the statute the old-fashioned way: de novo.”
App.95a. He also disagreed that “Chevron gets to cut
in front of the rule of lenity in the statutory
interpretation line,” especially given that the rule of
lenity “addresses core constitutional concerns: fair
notice and the separation-of-powers.” App.96a. Judge
Eid’s dissent focused on an additional point. Because
18 U.S.C. § 922(o) effectively bans private ownership
of machine guns (a ban enforced by the threat of up to
ten years’ imprisonment), the civil enforcement
provisions almost never come into play. Judge Eid
stated that it would be particularly inappropriate to
apply Chevron deference to an agency’s construction
of a statute whose applications are overwhelmingly
criminal. App.109a.

15
REASONS FOR GRANTING THE PETITION
I.

THE PANEL’S DECISION TO GRANT CHEVRON
DEFERENCE DESPITE THE AGENCY’S WAIVER
CONFLICTS WITH DECISIONS OF THIS COURT
AND IS INCONSISTENT WITH CHEVRON’S
RATIONALE

At the heart of Chevron’s “principle of
deference to administrative interpretations” is a
judicial assumption that when a “statute is silent or
ambiguous with respect to the specific issue” at hand,
467 U.S. at 843, Congress intended to delegate
authority to the administering agency to resolve the
issue “within the limits of that delegation,” id. at 865.
In such a case, “a court may not substitute its own
construction of a statutory provision for a reasonable
interpretation made by the administrator of an
agency.” Id. at 844. But “[i]f the intent of Congress is
clear, that is the end of the matter; for the court, as
well as the agency, must give effect to the
unambiguously expressed intent of Congress.” Id. at
842–43 (emphasis added).
From the italicized language in the passage
above, it is clear that the administering agency, no
less than a court, must first attempt to ascertain,
“employing traditional tools of statutory construction,
… [whether] Congress had an intention on the precise
question at issue … .” Id. at 843 n. 9. If so, “that
intention is the law and must be given effect” by the
agency. Id. It follows that when an agency concludes
that Congress’s intent with respect to a statutory
provision is unambiguous, it has, perforce, also
concluded that Congress did not leave “a gap for the
agency to fill.” Id. at 843. In other words, the agency

16
itself has determined that Congress did not delegate
any interpretive authority to the agency to which a
court can, let alone must, defer.
ATF made clear in its rulemaking that it
believes the relevant statutory terms are not
ambiguous and that its interpretation “accord[s] with
the plain meaning of those terms” and represents the
“best interpretation of the statute.” 83 Fed. Reg. at
66,527, 66,518.2 And in defending the regulation
before the panel below, the Government continued to
insist that its statutory construction is not entitled to
Chevron deference, arguing repeatedly that “there’s
no ambiguity,” and that “we’re giving the correct
reading, the plain meaning of the statutory terms.”
See Oral Arg. at 14:17–25, 17:42–55, Aposhian v.
Barr, 19-4036 (10th Cir. 2020). Indeed, in a parallel
case in the D.C. Circuit challenging the same ATF

2 ATF further stated that “even if those terms are
ambiguous … the Department’s construction of those terms is
reasonable under Chevron.” 83 Fed. Reg. at 66,527. But this is
nothing more than the agency’s musing that its interpretation
would be reasonable even if the relevant statutory terms were
ambiguous. Again, in determining that the terms of the statute
are not ambiguous, the agency had no interpretive discretion to
exercise; the interpretation it rendered was “the end of the
matter.” Chevron, 467 U.S. at 843. Emphasizing repeatedly that
“there’s no ambiguity,” the Government argued before the Tenth
Circuit panel: “We’re telling you we don’t have an alternative …
. The statute covers these devices, period, end of story. Our
hands are tied on that.” Oral Arg. at 19:33–20:03, Aposhian v.
Barr, 19-4036 (10th Cir. 2020). And, in all events, when an
agency appears to be of “two minds,” leading to a “garble” of
positions, Chevron deference is unwarranted. Epic Sys. Corp. v.
Lewis, 138 S. Ct. 1612, 1630 (2018).

17
regulation, the Government went even further, telling
the D.C. Circuit that “if the validity of its rule
(re)interpreting the machinegun statute ‘turns on the
applicability of Chevron, it would prefer that the
[r]ule be set aside rather than upheld.’ ” Guedes, 140
S. Ct. at 789 (Gorsuch, J., statement regarding denial
of certiorari).
In United States v. Mead Corp., 533 U.S. 218
(2001), this Court held that Chevron deference applies
only “when it appears that Congress delegated
authority to the agency” and “that the agency
interpretation claiming deference was promulgated in
the exercise of that authority.” Id. at 226–27. An
administering agency that sees no ambiguity in
interpreting a statutory provision is obviously not
exercising delegated interpretive authority; it is
simply “giv[ing] effect to [what it believes to be] the
unambiguously expressed intent of Congress.”
Chevron, 467 U.S. at 842–43. So, the agency has no
choice but to disavow—to waive—Chevron deference
to its interpretation. And an agency’s waiver of
Chevron deference should be binding on a court
reviewing the agency’s statutory interpretation. As
Justice Gorsuch recently put it: “If the justification for
Chevron is that policy choices should be left to
executive branch officials directly accountable to the
people, … then courts must equally respect the
Executive’s decision not to make policy choices in the
interpretation of Congress’s handiwork.” Guedes, 140
S. Ct. at 790. This is especially true when the agency’s
decision not to make policy choices is based on its

18
determination that Congress did not delegate any
choices for it to make.3
Justice Gorsuch further noted that “[t]his
Court has often declined to apply Chevron deference
when the government fails to invoke it.” Guedes, 140
S. Ct. at 790 (citing authorities); see also Cnty. of Maui
v. Hawaii Wildlife Fund, 140 S. Ct. 1462, 1474 (2020)
(“Neither the Solicitor General nor any party has
asked us to give … Chevron deference to EPA’s
interpretation of the statute.”); Est. of Cowart v.
Nicklos Drilling Co., 505 U.S. 469, 477 (1992). If an
administering agency can forfeit its claim to Chevron
deference by declining to assert it, then surely the
agency can waive Chevron deference by affirmatively
disavowing it.4 Cf. HollyFrontier Cheyenne Ref., LLC

Given that the agency’s waiver here reflects its
determination that it lacked statutory authority to issue a
legislative rule entitled to deference, City of Arlington v. FCC,
569 U.S. 290 (2013), suggests that the courts must defer to ATF’s
request for non-deference to the extent there is any ambiguity.
See id. at 300–01 (explaining that questions about what “subject
matters” an agency “may … regulate and under what conditions
… are all questions to which the Chevron framework applies”).
Thus, Chevron may command deference to an agency’s decision
that it is not entitled to Chevron deference. If such deferential
nondeference is circular, it reflects a problem endemic to
Chevron itself and further supports this Court’s review.
3

As this Court has explained, “forfeiture is the failure to
make the timely assertion of a right, waiver is ‘the intentional
relinquishment or abandonment of a known right.’ ” United
States v. Olano, 507 U.S. 725, 733 (1993); see also Guedes, 920
F.3d at 22 (finding “no reason that the same limitations on
forfeiture of Chevron should not also govern waiver of
Chevron.”).
4

19
v. Renewable Fuels Ass’n, 141 S. Ct. 2172, 2180
(2021).
The courts of appeals, however, are in disarray
on the question whether Chevron deference can be
waived by the Government. See, e.g., James Durling
& E. Garrett West, May Chevron Be Waived?, 71
STAN. L. REV. ONLINE 183, 183 (2019). The multiple
conflicting opinions in the circuits about the validity
of the ATF regulation at issue here display this
disarray.
Start with the opinions below in just this case.
No fewer than seven Judges addressed the waiver
question in four separate opinions, with five Judges
concluding that Chevron deference can be waived and
two Judges concluding it cannot. See App. 16a–18a
(panel majority); 52a–53a (Carson, J., dissenting);
90a–95a (Tymkovich, C.J., dissenting); 111a–113a
(Carson, J., dissenting). And as the panel majority
conceded, the Tenth Circuit’s prior decisions are not
“entirely consistent” on their approach to Chevron
waiver. App.18a n.6; compare Am. Wild Horse Pres.
Campaign v. Jewell, 847 F.3d 1174, 1187 (10th Cir.
2016) (treating Chevron as a “two-part standard of
review,” which is not waivable), with Hays Med. Ctr.
v. Azar, 956 F.3d 1247, 1264 n.18 (10th Cir.
2020)(“[T]he Secretary’s perfunctory and fleeting
invocation of Chevron waives his argument for
Chevron deference.”), and Hydro Res., Inc. v. E.P.A.,
608 F.3d 1131, 1146 (10th Cir. 2010) (en banc)
(“ [W]hen the agency doesn’t ask for deference to its
statutory interpretation, ‘we need not resolve the …
issues regarding deference which would be lurking in
other circumstances.’ ” (quoting Est. of Cowart, 505
U.S. at 477)).

20
The D.C. Circuit is similarly riven on the issue.
In Guedes v. Bureau of Alcohol, Tobacco, Firearms &
Explosives, 920 F.3d 1, 22 (D.C. Cir. 2019), the panel
majority upheld the same ATF rule at issue here,
rejecting the agency’s waiver of Chevron deference.
The court concluded that “an agency’s lawyers …
cannot waive Chevron if the underlying agency action
‘manifests its engagement in the kind of interpretive
exercise to which review under Chevron generally
applies.’ ” Id. at 23 (quoting SoundExchange, Inc. v.
Copyright Royalty Bd., 904 F.3d 41, 54 (D.C. Cir.
2018)). But in Global Tel*Link v. FCC, 866 F.3d 397,
408 (D.C. Cir. 2017), the court held that Chevron had
been waived because “the agency no longer [sought]
deference,” id. at 407. “[I]t would make no sense for
this court to determine whether the disputed agency
positions advanced in the Order warrant Chevron
deference when the agency has abandoned those
positions.” Id. at 408; see also Judge Rotenberg Educ.
Ctr., Inc. v. United States Food & Drug Admin., 201087, 2021 WL 2799891, at *3 (D.C. Cir. July 6, 2021)
(noting that “[o]rdinarily” the court would apply
Chevron but “[i]n this case, the FDA did not invoke
Chevron deference or even cite the case in its briefing.
Perhaps this is because the agency concluded that the
relevant statutes are unambiguous.”). The D.C.
Circuit has also held that a private litigant
challenging an administering agency’s interpretation
of a statute can forfeit an objection to Chevron
deference. See Lubow v. U.S. Dep’t of State, 783 F.3d
877, 884 (D.C. Cir. 2017) (“[A] party … can forfeit an
argument against deference by failing to raise it.”).
That a private litigant can forfeit Chevron objections
but an agency seemingly cannot waive Chevron
deference in the D.C. Circuit is yet another way

21
Chevron places a thumb on the scale in favor of the
Government, shaping litigation in an often decisive
manner in its favor.
The other circuits that have addressed the
issue are also divided on whether Chevron deference
can be waived.5 As the Fourth Circuit has observed,
“[c]ourts and scholars continue to grapple with the
circumstances in which Chevron deference can be
forfeited or waived.” Amaya v. Rosen, 986 F.3d 424,
430 n. 4 (4th Cir. 2021).
Finally, a word about the panel majority’s
theory that it was justified in rejecting the
Government’s express waiver of Chevron deference
because Petitioner himself had “invited” the court to
Compare State of New York v. Dep’t of Justice, 951 F.3d
84, 101 n.17 (2d Cir. 2020) (applying de novo review and
explaining that defendants did not claim “Chevron deference …
and, thus, … we do not consider whether any such deference
might be warranted.”); Commodity Futures Trading Comm’n v.
Erskine, 512 F.3d 309, 314 (6th Cir. 2008) (“[T]he CFTC waived
any reliance on Chevron deference by failing to raise it to the
district court.”), with Amaya v. Rosen, 986 F.3d 424, 430 (4th Cir.
2021) (stating that “the government never sought Chevron
deference here until oral argument,” but circuit precedent
seemed to require “evaluat[ing] whether Chevron deference
applies, and, if so, apply[ing] it, whether or not the parties raise
the issue.”); Sierra Club v. E.P.A., 252 F.3d 943, 947 n.8 (8th Cir.
2001)(“[T]he petitioners cite no authority, and the Court can find
none, for the proposition that EPA waives deferential review
under Chevron if it fails to specifically analyze in its final rule
whether it considered [the statute] to be ambiguous.”); see also
Babb v. Sec’y, Dep’t of Veterans Affairs, 992 F.3d 1193, 1208 n.
10 (11th Cir. 2021) (deciding to “leave … for another day” a “slew
of questions” about “[w]hether, when, and by whom Chevron can
be waived or forfeited”); Martin v. Soc. Sec. Admin., Comm’r, 903
F.3d 1154, 1161 (11th Cir. 2018)(“Other circuits have split on
this issue.”).
5

22
invoke Chevron deference against Petitioner when he
argued in the district court that the rule at issue was
not entitled to Chevron deference. Chief Judge
Tymkovich, writing for five judges in dissenting from
the en banc court’s denial of rehearing, rightly
lampooned the panel’s “invitation” rationale:
This theory of waiver is untenable.
Under the panel majority’s theory, a
party that challenges an agency’s
interpretation of a rule is forced to dance
around Chevron, even where the
government has not invoked it. Chevron
becomes the Lord Voldemort of
administrative law, “the-case-whichmust-not-be-named.” And litigants bold
enough to expressly oppose Chevron in
their briefing will be left guessing
whether their reference to the case was
fleeting or perfunctory enough to avoid
making an invitation. All the while,
courts are given a troubling amount of
freedom when deciding whether to use
Chevron—discretion that will dictate the
outcome in many cases.
App. 91a.
In sum, the question whether an agency can
waive Chevron deference lies at the threshold not only
of this case but of many cases across the full spectrum
of administrative law. And the circuit courts are
mired in disagreement and confusion on the issue.
This Court should therefore grant review now to clear
up this confusion and prevent it from spreading
further.

23
II.

THE PANEL’S DECISION TO DEFER TO AN
AGENCY’S INTERPRETATION OF A STATUTE
CRIMINAL APPLICATIONS RAISES
WITH
SERIOUS CONSTITUTIONAL CONCERNS AND
WARRANTS REVIEW
A.

The Panel’s Deference to an Agency
Interpretation of a Criminal Statute
Conflicts with Decisions from Other
Appeals Courts

The panel majority held that a federal agency’s
construction of an ambiguous federal statute is
entitled to deference from the courts—provided that
Congress has delegated rulemaking authority to the
agency and the agency promulgates its interpretation
by means of formal rulemaking—regardless of
whether the statute at issue has criminal-law
applications. App.19a–24a. That holding directly
conflicts with decisions from other federal appeals
courts. Review is warranted to resolve the conflict
among the circuits.
In United States v. Balde, 943 F.3d 73 (2d Cir.
2019), the Second Circuit rejected a claim that it
should defer to an ATF regulation that sought to
clarify when an alien should be deemed “in the United
States” for purposes of a criminal immigration
statute. The court explained that deference was
unwarranted because “the Supreme Court has
clarified that law enforcement agency interpretations
of criminal statutes are not entitled to deference.” 943
F.3d at 83. The appeals court expressed its nodeference holding in unequivocal terms: “Whether the
Government interprets a criminal statute too broadly
(as it sometimes does) or too narrowly …, a court has

24
an obligation to correct the error.” Id. (quoting
Abramski, 573 U.S. at 191).
Likewise, a panel of the Ninth Circuit has
categorically rejected claims that the courts should
defer to an agency’s construction of criminal
statutes—and it did so in connection with its
consideration of the meaning of 26 U.S.C. § 5845(b),
the very statute at issue here. See United States v.
Kuzma, 967 F.3d 959 (9th Cir. 2020). Although the
ATF interpretation at issue was expressed in informal
guidance, the Ninth Circuit’s unequivocal language
indicates that the panel’s ruling would have been the
same even if ATF had construed the statute through
a formal regulation. Id. Indeed, the court stated that
ATF lacked authority to issue formal regulations
interpreting Section 5845(b):
This is not a situation in which an
agency has been delegated authority to
promulgate
underlying
regulatory
prohibitions, which are then enforced by
a criminal statute prohibiting willful
violations of those regulations.… On the
contrary, the text of the applicable
prohibitions and definitions is set forth
in statutory language. Because “criminal
laws are for the courts, not for the
Government, to construe,” the Supreme
Court has repeatedly rejected the view
“that the Government’s reading of a
statute is entitled to any deference.”
Id. (emphasis in original) (quoting Abramski, 573
U.S. at 191).

25
Earlier this year, a Sixth Circuit panel enjoined
enforcement of the ATF regulation at issue here,
finding that: (1) ATF’s construction of Section 5845(b)
(or any statute having both civil and criminal
applications) is not entitled to Chevron deference from
the courts; and (2) non-mechanical bump stocks are
not properly classified as “machineguns” under the
best reading of the statute. Gun Owners of America,
992 F.3d at 468, 472. Citing the Tenth Circuit’s
decision in this case, the panel acknowledged:
[T]here is already a split among the
Circuits on the meaning of Apel and
Abramski and whether the Supreme
Court now requires courts not to give
any deference to agency interpretations
of criminal statutes. With this decision
we are joining one side of a circuit split,
not creating a circuit split.
Id. at 460.6
In contrast, the D.C. Circuit fully supports the
Tenth Circuit’s pro-deference position. In Guedes, the
appeals court rejected a challenge to the ATF’s
regulation, holding that the agency’s construction of
Section 5845(b) was “permissible” under the Chevron
framework. 920 F.3d at 24–29, 32. In doing so, the
court found no “general rule against applying
Chevron to agency interpretations of statutes that
have criminal-law implications.” Id. at 24.

As noted supra at 3, on June 25, 2021, the Sixth Circuit
granted the government’s petition for rehearing en banc and
vacated the panel decision.
6

26
The appeals courts are thus in deep conflict
regarding
Chevron’s
applicability
to
the
interpretation of criminal statutes. This Court should
resolve this crucial and abiding conflict.
B.

The Circuit Split Results from This
Court’s Conflicting Decisions on
Chevron Deference to Agency
Interpretations of Criminal Statutes

Review is particularly warranted because the
circuit conflict likely arose as a result of inconsistent
decisions issued by this Court. Until the Court steps
in, the lower courts are likely to continue to interpret
those inconsistent signals differently and to widen the
existing conflict.
Courts that continue to endorse judicial
deference to agency construction of criminal statutes
(including the D.C. and Tenth Circuits) point to this
Court’s 1995 Babbitt decision. That decision applied
the Chevron framework to (and ultimately upheld as
“reasonable”) a regulation interpreting the term
“take” in the Endangered Species Act, even though
the statute has both criminal and civil applications.
515 U.S. at 703–04. The Court explicitly rejected a
claim that “the rule of lenity should foreclose any
deference to the Secretary’s interpretation of the ESA
because the statute includes criminal penalties”—at
least where the interpretation is set out in a formal
regulation. Id. at 704 n.18.
In contrast, this Court more recently has held
categorically that “criminal laws are for courts, not for
the Government, to construe.” Abramski, 573 U.S. at
191. The D.C. and Tenth Circuits acknowledged that

27
this Court’s recent Abramski and Apel decisions
“signaled some wariness about deferring to the
government’s interpretations of criminal statutes,”
Guedes, 920 F.3d at 25, and App.23a. But they
ultimately ruled that Babbitt’s reasoning should
prevail because neither Abramski nor Apel was
“directly faced with the question of Chevron’s
applicability to an agency’s interpretation of a statute
with criminal applications through a full-dress
regulation.” Id. (emphasis in original).
Courts concluding that Abramski and Apel are
the controlling precedents note that they are the more
recent decisions and point to their unequivocal
language. See, e.g., Kuzma, 967 F.3d at 971 (stating
that ATF’s construction of a criminal statute has “no
bearing on the statute’s underlying meaning” and
asserting (with reference to Abramski and Apel) that
“the Supreme Court has repeatedly rejected the view
that the Government’s reading of a criminal statute is
entitled to any deference’ ”); Balde, 943 F.3d at 83
(declining to defer to an ATF regulation construing a
criminal statute and citing Abramski in support of its
assertion that “the Supreme Court has clarified that
law enforcement agency interpretations of criminal
statutes are not entitled to deference”); Gun Owners
of America, 992 F.3d at 455 (quoting Apel’s statement
that “we have never held that the Government’s
reading of a criminal statute is entitled to any
deference,” 571 U.S. at 369, and observing that
“ ‘[n]ever’ and ‘any’ are absolutes, and the Court did
not draw any distinctions, add any qualifiers, or
identify any exceptions,” Gun Owners of America, 992
F.3d at 455.

28
Review is warranted to provide badly needed
guidance to the lower courts: does Babbitt supply the
definitive word regarding applicability of Chevron to
statutes with criminal-law applications, or is
Babbitt’s footnote regarding the interplay of Chevron
and the rule of lenity nothing more than a “drive-by
ruling” that “deserves little weight”? Whitman v.
United States, 135 S. Ct. 352, 354 (2014) (statement
of Justice Scalia, joined by Justice Thomas, respecting
the denial of certiorari). This and similar questions
have often been raised in the lower courts. See, e.g.,
Valenzuela Gallardo v. Barr, 968 F.3d 1053, 1062 (9th
Cir. 2020); United States v. Havis, 907 F.3d 439, 451
(6th Cir. 2018) (Thapar, J., concurring); GutierrezBrizuela v. Lynch, 834 F.3d 1142, 1156 (10th Cir.
2016) (Gorsuch, J., concurring); Esquivel–Quintana v.
Lynch, 810 F.3d 1019, 1027–32 (6th Cir. 2016)
(Sutton, J., concurring in part and dissenting in part);
Carter v. Welles–Bowen Realty, Inc., 736 F.3d 722,
729–36 (6th Cir. 2013) (Sutton, J., concurring). And
this Court has already found the issue worthy of
review; it granted the certiorari petition in EsquivelQuintana v. Lynch, 137 S. Ct. 368 (Mem.), 369 (2016),
and heard argument on the scope of Babbitt. The
Court ultimately held, however, it had “no need to
resolve whether the rule of lenity or Chevron
receive[d] priority” because the statute at issue was
unambiguous. Esquivel-Quintana v. Sessions, 137 S.
Ct. 1562, 1572 (2017). Accordingly, this Court has
found these issues worthy of its consideration but has
so far not provided clear answers. See Whitman, 135
S. Ct. at 254 (statement of Scalia, J., noting
“receptive[ness]” to addressing such issues in the
future).

29
C.

The
Panel
Decision
Ignores
Important
Separation-of-Powers
Principles and Is Fundamentally
Unfair to Defendants

Review is also warranted because the decision
below is inconsistent with rights traditionally
afforded criminal defendants. Under the Constitution,
“[o]nly the people’s elected representatives in the
legislature are authorized to ‘make an act a crime.’ ”
United States v. Davis, 139 S. Ct. 2319, 2325 (2019)
(quoting United States v. Hudson, 7 Cranch (11 U.S.)
32, 34 (1812)). The decision below disregards that
rule; it permits executive branch officials to prosecute
individuals for conduct that the reviewing judge
concludes is not proscribed by any statute. As Justice
Gorsuch recently counseled, “Before courts may send
people to prison, we owe them an independent
determination that the law actually forbids their
conduct. A ‘reasonable’ prosecutor’s say-so is cold
comfort in comparison.” Guedes, 140 S. Ct. at 790
(statement of Justice Gorsuch respecting denial of
certiorari). Whatever one’s views of Chevron
deference in the civil context, it has no proper place in
the criminal law. Apel, 571 U.S. at 369.
True, a statute may have both civil and
criminal applications. But even if, in the civil context,
Congress can sometimes be presumed to have
authorized a federal agency “to make rules carrying
the force of law[,]” United States v. Mead Corp., 533
U.S. 218, 226–27 (2001), any such presumption is
antithetical to criminal law, where personal liberty is
at stake. And because courts assign a single meaning
to a single law, regardless of whether a reviewing
court is addressing it in a civil or criminal law context,

30
Clark v. Martinez, 543 U.S. 371, 380 (2005), no
presumption of delegated law-making power can be
read into hybrid civil-criminal statutes.
The Court has on occasion authorized Congress
to transfer to the executive branch some
responsibility for defining crimes. See, e.g., United
States v. Grimaud, 220 U.S. 506 (1911); Touby v.
United States, 500 U.S. 160 (1991); United States v.
O’Hagan, 521 U.S. 642 (1997). But in each instance,
the Court has insisted that any such delegation be
explicit; it has never presumed congressional
delegation of authority to create new crimes. See, e.g.,
Grimaud, 220 U.S. at 519 (Congress must speak
“distinctly” if it wishes to delegate authority to define
criminal conduct). This clear-statement rule is
designed to protect individual liberty and at the same
time reinforce separation-of-powers principles
embedded in the Constitution.Congress has provided
no such clear statement here. It has granted the
Justice Department and ATF general authority to
administer
gun-control
laws,
including
the
prohibition on possessing machine guns. 18 U.S.C.
§ 926(a) (“The Attorney General may prescribe only
such rules and regulations as are necessary to carry
out the provisions of this chapter.”) In the absence of
an explicit grant of authority to define criminal
conduct, the Justice Department and ATF have no
such authority.
Chevron deference is often justified based on
agency expertise. An administering agency is thought
better equipped than a generalist court to determine
the best interpretation of a statute because of its
specialized expertise in the statute’s subject matter.
See, e.g., Pension Benefit Guar. Corp. v. LTV Corp.,

31
496 U.S. 633, 651–52 (1990). Whatever the merits of
that rationale in the civil context, it is unpersuasive
in the criminal-law realm. “Criminal statutes reflect
the value-laden, moral judgments of the community
as evidenced by their elected representatives’ policy
decisions,” Gun Owners of America, 992 F.3d at 461
(citing Gregg v. Georgia, 428 U.S. 153, 175 (1976)), not
technical knowledge.
Whether ownership of non-mechanical bump
stocks should be criminally punished is a question to
be determined by the legislative branch (via
congressionally enacted statutes), not by the
unelected bureaucracy. And it “emphatically” is the
constitutional “duty” of federal judges “to say what
the law is.” Marbury v. Madison, 1 Cranch (5 U.S.)
137, 177 (1804). But judges who apply Chevron
deference to an agency interpretation of a criminal
statute are abandoning that duty by issuing
judgments that assign controlling weight to a nonjudicial entity’s interpretation of the statute.
Applying the Chevron framework to statutes
with criminal applications is also fundamentally
unfair to criminal defendants. The executive branch
is, by definition, a party in every criminal case. Thus,
when courts defer to executive-branch constructions
of ambiguous criminal statutes, they are displaying a
bias that systematically favors prosecutors and
harms defendants. Even the appearance of potential
bias toward a litigant violates the Due Process
Clause. Caperton v. A.T. Massey Coal Co., 556 U.S.
868, 886–87 (2009). Individuals should not be
subjected to criminal trials, with their liberty at
stake, where the prosecutor, in effect, also serves as
the judge.

32
Given the fundamental unfairness of such
procedures, it is no wonder that the Court has held
categorically that “criminal laws are for courts, not for
the Government, to construe.” Abramski, 573 U.S. at
191. Review is warranted not only to correct the Tenth
Circuit’s failure to adhere to that fundamental
precept, but to resolve the conflict in the lower courts
on this important issue.
III.

THE LOWER COURTS NEED GUIDANCE
REGARDING
THE
PROPER
INTERPLAY
BETWEEN CHEVRON AND THE RULE OF LENITY

If the Court determines that Chevron deference
applies to agency constructions of statutes with both
civil and criminal applications, a subsidiary issue
arises: what is the proper interplay between Chevron
and the rule of lenity? The rule of lenity is a centuriesold canon of statutory construction holding that
“ambiguity concerning the ambit of criminal statutes
should be resolved in favor of lenity.” Skilling v.
United States, 561 U.S. 358, 410 (2010).
The Tenth Circuit assigned no weight to the
rule of lenity. Citing Babbitt, it held that where an
agency’s construction of an ambiguous statute is set
out in a formal regulation, “Chevron, not the rule of
lenity, should apply.” App. 21a. That determination
separately warrants this Court’s review; it is wholly
inconsistent with the framework that this Court has
established for applying Chevron.
The first step in Chevron’s familiar two-step
process for determining whether to defer to an agency
interpretation is this

33
First, applying the ordinary tools of
statutory construction, the court must
determine “whether Congress has
directly spoken to the precise question at
issue. If the intent is clear, that is the
end of the matter; for the court, as well
as the agency must give effect to the
unambiguously expressed intent of
Congress.”
City of Arlington, 569 U.S. at 296 (quoting Chevron,
467 U.S. at 842–843) (emphasis added).
Given its lengthy pedigree, the rule of lenity
fits comfortably within Chevron’s definition of an
“ordinary tool[ ] of statutory construction.” Thus, City
of Arlington dictates that the rule of lenity should be
taken into account during Chevron Step One (in
which courts are directed to determine whether the
intent of the statute is clear, thereby obviating any
occasion to defer to an agency interpretation of the
statute at issue). The decision below, by eliminating
any role for the rule of lenity, directly conflicts with
that prescribed analytical method.
This Court has explained that the rule of lenity
is “premised on two ideas”:
First, a fair warning should be given to
the world in language that the common
world will understand, of what the law
intends to do if a certain line is passed;
second, legislatures and not courts
should define criminal activity.
Babbitt, 515 U.S. at 704 n.18 (citations and
quotations omitted). Both of those concerns are

34
implicated here. If, as the Tenth Circuit majority
suggests, Section 5845(b) is ambiguous, then
permitting ATF to determine that the statute
criminalizes possession of bump stocks permits the
executive branch to usurp Congress’s role. And in
every case in which Chevron matters (i.e., cases in
which a reviewing court concludes that Congress did
not intend the construction adopted by a federal
agency), that is exactly what happens.
More
importantly,
contrary
to
the
Government’s claim, ATF’s regulation does not
provide “fair warning” of the line that may not be
crossed. As Chief Judge Tymkovich explained in his
dissent below, “The government expects an
uncommon level of acuity from average citizens to
know that they must conform their conduct not to the
statutory language, but to the interpretive gap-filling
of an agency which may or may not be upheld by a
court.” App.97a. And Justice Gorsuch has argued that
citizens should not be “forced to guess whether the
statute will be declared ambiguous; to guess again
whether the agency’s initial interpretation of the law
will be declared ‘reasonable’; and to guess again
whether a later and opposing agency interpretation
will also be held ‘reasonable.’ ” Guedes, 140 S. Ct. at
790 (statement of Justice Gorsuch respecting denial
of certiorari).
Review is warranted to provide the lower
courts much-needed guidance on the proper interplay
between Chevron and the rule of lenity.

35
IV.

THIS CASE IS WELL-SUITED FOR ADDRESSING
WHETHER CHEVRON CAN BE WAIVED AND
WHETHER IT APPLIES TO CRIMINAL STATUTES

This case provides a particularly attractive
vehicle for addressing threshold legal issues
regarding the scope of Chevron deference. There are
no disputed factual issues; the parties disagree only
about the proper interpretation of a federal criminal
statute, the extent to which the Government can
waive Chevron, and which branch of government has
primary
responsibility
for
undertaking
the
interpretation of the criminal statute at issue here.
Most importantly, whether Chevron deference
applies here is likely outcome determinative. In
rejecting Petitioner’s claim that ATF improperly
construed § 5845(b), the Tenth Circuit did not address
whether ATF’s construction was the best reading of
the statute. Rather, it held that § 5845 is ambiguous
and that ATF prevails under Chevron Step Two
because ATF adopted a reasonable construction of an
ambiguous statute. App.33a. If, as Petitioner alleges,
the Tenth Circuit erred by applying Chevron, then at
the very least the case should be remanded with
directions that Petitioner’s claims be reconsidered
under the proper legal standard.7

The panel majority also found that Petitioner did not
demonstrate that he would suffer irreparable harm in the
absence of a preliminary injunction. App.34a–36a. That finding
does not present an obstacle to granting review. As the district
judge noted, Respondents stipulated that Petitioner satisfied the
irreparable-harm requirement, App.64a, and thus Petitioner
was under no obligation to submit evidence of such harm in
support of his motion for a preliminary injunction. In light of
7

36
Moreover, ATF’s construction of § 5845(b) is
very likely not the best reading of that statute. In the
three circuits that have addressed the Final Rule (the
Sixth, Tenth, and D.C. Circuits), eight appellate
judges have written or joined opinions expressing a
view on the best reading of § 5845(b)—that is,
opinions that construed the statute without applying
Chevron deference. All eight held that the best
reading supports Petitioner’s position: § 5845(b)’s
definition of a machine gun is not ambiguous, and
non-mechanical bump stocks do not fall within it. See
Guedes, 920 F.3d at 46–48 (Henderson, J.,
dissenting); Gun Owners of America, 992 F.3d at 469–
73 (Batchelder, J., joined by Murphy, J.); App.79a–
90a (Tymkovich, C.J., joined by Hartz, Holmes, Eid,
and Carson, JJ., dissenting from decision to vacate en
banc order).
The interlocutory posture of this case should
not deter this Court from addressing these issues
now. In the 17 months since this Court denied review
in Guedes, additional courts of appeals (as noted
above) have given “their considered judgments” on the
threshold Chevron issues raised in this case. Guedes,
140 S. Ct. 791 (2020) (statement of Justice Gorsuch
respecting denial of certiorari). Judges on the Sixth
and Tenth Circuits have issued a total of eight
thoughtful opinions—two panel majority opinions
and six dissents in this case and in Gun Owners of
America—that this Court did not have the benefit of
considering in Guedes. Those several opinions provide
the Court with an ample body of judicial thought to
that stipulation, there is no credible basis for denying relief to
Petitioner if the Court were to rule in his favor on either of the
Questions Presented. See App.55a–57a (Carson, J., dissenting).

37
draw upon in addressing whether Chevron can be
waived and whether it applies to statutes with
criminal applications. And these opinions are in
addition to the many others addressing these
threshold Chevron issues outside of the context of the
ATF rule at issue here. See, supra at 19–22, 24–29.
Further, the threshold Chevron issues raised in
this Petition are “important and clear-cut issue[s] of
law that [are] fundamental to further conduct of the
case.” STEPHEN M. SHAPIRO, et al., SUPREME COURT
PRACTICE § 4.18, 455 (11th ed. 2019); see United
States v. Gen. Motors Corp., 323 U.S. 373, 377 (1945).
As counsel for the Government explained to the en
banc Tenth Circuit, the “end result” of the district
court’s analysis in this case “is essentially a legal
determination” and there was no “impediment to [the
en banc] court deciding [the] questions” presented.
Oral Arg. at 55:00–55:20, Aposhian v. Wilkinson, 194036 (10th Cir. Jan. 27, 2021) (en banc). Nor is there
any impediment to this Court’s deciding these
questions. And, given the lack of factual disputes,
future proceedings in this case may be particularly
dependent on the legal conclusions reached by the
Tenth Circuit thus far. Cf. Guedes v. Bureau of
Alcohol, Tobacco, Firearms, & Explosives, 18-CV2988 (DLF), 2021 WL 663183, at *4 (D.D.C. Feb. 19,
2021) (embracing the legal conclusions that had
“already been addressed in detail by the D.C. Circuit”
during interlocutory review.). So, there is little reason
for this Court to wait before resolving the existing
circuit split and providing much-needed guidance on
these issues.

38
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Caleb Kruckenberg
Richard A. Samp
Mark Chenoweth
Harriet Hageman
New Civil Liberties
Alliance
1225 19th St. NW
Suite 450
Washington, DC 20036
(202) 869-5210

Charles Cooper
Counsel of Record
John Tienken
Cooper & Kirk PLLC
1523 New Hampshire Ave.
Washington, DC 20036
(202) 220-9600
ccooper@cooperkirk.com

APPENDIX

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 19-4036
W. CLARK APOSHIAN,
Plaintiff - Appellant,
v.
WILLIAM BARR, Attorney General of the United
States; UNITED STATES DEPARTMENT OF
JUSTICE; THOMAS E. BRANDON, Acting Director
Bureau of Alcohol Tobacco Firearms and Explosives;
BUREAU OF ALCOHOL TOBACCO FIREARMS
AND EXPLOSIVES,
Defendants - Appellees.
______________
CATO INSTITUTE and FIREARMS POLICY
COALITION; DUE PROCESS INSTITUTE,
Amicus Curiae.
__________
Appeal from the United States District Court
for the District of Utah
(D.C. No. 2:19-CV-00037-JNP-BCW)
__________
Filed: May 7, 2020
___________
Caleb Kruckenberg, Litigation Counsel (Steve Simpson
and Harriet Hageman, Senior Litigation Counsel; and
Mark Chenoweth, General Counsel, with him on the
briefs), New Civil Liberties Alliance, Washington, DC,
appearing for Appellant.

2a
Brad Hinshelwood, Attorney, Civil Division, United
States Department of Justice, Washington, DC (Joseph
H. Hunt, Assistant Attorney General, Civil Division,
United States Department of Justice, Washington, DC;
John W. Huber, United States Attorney, Office of the
United States Attorney for the District of Utah, Salt
Lake City, Utah; Mark B. Stern, Michael S. Raab, and
Abby C. Wright, Attorneys, Civil Division, United
States Department of Justice, Washington, DC, with
him on the briefs), appearing for Appellees.
Ilya Shapiro, Washington, DC, for Amicus Curiae Cato
Institute.
John D. Cline, San Francisco, California, for Amicus
Curiae Due Process Institute.
__________
Before BRISCOE, MORITZ, and CARSON, Circuit
Judges.
BRISCOE, Circuit Judge.
__________
Plaintiff-Appellant W. Clark Aposhian has filed
an interlocutory appeal from the district court’s denial
of his motion for a preliminary injunction. The district
court concluded that Mr. Aposhian had not shown a
likelihood of success on the merits of his challenge to
a rule promulgated by the Bureau of Alcohol, Tobacco,
Firearms, and Explosives (ATF) that classifies bump
stocks as machine guns under the National Firearms
Act (NFA), 26 U.S.C. §§ 5801–5872. See
Bump-Stock-Type Devices, 83 Fed. Reg. 66,514 (Dec.
26, 2018) (Final Rule). The Final Rule was

3a
promulgated to clarify the definition of “machinegun”
as found in 26 U.S.C. § 5845(b).1 It is that definition of
machine gun and the Final Rule that are the focus of
this appeal. Exercising jurisdiction pursuant to 28
U.S.C. § 1292(a)(1), we agree with the outcome
reached by the district court that Mr. Aposhian has
failed to establish a likelihood of success on the merits
of his challenge to the Final Rule, and we affirm the
denial of preliminary injunctive relief.
I.
Statutory Framework
The NFA (i) regulates the production, dealing
in, possession, transfer, import, and export of covered
firearms; (ii) creates a national firearms registry; and
(iii) imposes taxes on firearms importers,
manufacturers, and dealers, as well as specified
transfers of covered firearms. 26 U.S.C. §§ 5801-5861.
Failure to comply with the NFA’s requirements results
in penalties and forfeiture and subjects the violator to
the general enforcement measures available under the
internal revenue laws. Id. §§ 5871–5872.
“Machinegun[s]” are subject to regulation and
registration under the NFA. Id. § 5845(a). The NFA
defines a “machinegun” as “any weapon which shoots,
is designed to shoot, or can be readily restored to
shoot, automatically more than one shot, without
manual reloading, by a single function of the trigger.”
Id. § 5845(b). The definition also includes “the frame or
receiver of any such weapon,” as well as “any part” or
“combination of parts designed and intended, for use

1

We use the two-word spelling of machine gun except
when quoting sources.

4a
in converting a weapon into a machinegun,” and “any
combination of parts from which a machinegun can be
assembled” as long as those “parts are in the
possession or under the control of a person.” Id.
Congress expressly charged the Attorney
General with the “administration and enforcement” of
the NFA, id. § 7801(a)(1), (a)(2)(A), and provided that
the Attorney General “shall prescribe all needful rules
and regulations for the enforcement of” the NFA, id.
§ 7805; see id. § 7801(a)(2)(A).
The Gun Control Act of 1968 (GCA), 18 U.S.C.
§ 921 et seq., as amended by the Firearm Owners’
Protection Act, Pub. L. No. 99-308, 100 Stat. 449
(1986), imposes both criminal prohibitions and a
regulatory licensing scheme on certain firearm
transactions. See 18 U.S.C. § 922 (criminal
prohibitions); id. § 923 (licensing scheme). The GCA
incorporates by reference the definition of machine gun
in the NFA. See id. § 921(a)(23). The GCA also
expressly delegates administrative and rulemaking
authority to the Attorney General to “prescribe only
such rules and regulations as are necessary to carry
out the provisions of this chapter.” Id. § 926(a). The
Attorney General has delegated the responsibility for
enforcing and administering the NFA and the GCA to
ATF. See 28 C.F.R. § 0.130(a).
Under 18 U.S.C. § 922(o), it is “unlawful for any
person to transfer or possess a machinegun.”
Conversely, many firearms requiring a distinct pull of
the trigger to shoot each bullet are lawful. See
generally id. § 922; 26 U.S.C. § 5845. Over time, ATF
has promulgated regulations and issued rulings
defining various terms in the NFA and GCA and
classifying weapons and parts as machine guns.

5a
Regulation of Bump Stocks
A “bump stock” is a device that replaces the
standard stationary stock of a semiautomatic rifle—the
part of the rifle that generally rests against the
shooter’s shoulder—with a sliding, non-stationary
stock that permits the shooter to rapidly increase the
rate of fire, approximating that of an automatic
weapon. Final Rule at 66,516. A bump stock does so by
channeling the recoil energy from each shot “into the
space created by the sliding stock (approximately 1.5
inches) in constrained linear rearward and forward
paths.” Id. at 66,518. The bump stock “harnesses the
firearm’s recoil energy as part of a continuous
back-and-forth cycle that allows the shooter to attain
continuous firing” following a single pull of the trigger,
producing a rapid bumping of the trigger against the
shooter’s stationary finger. Id. at 66,533. That design
allows the shooter, by maintaining constant rearward
pressure on the device’s extension ledge2 with the
trigger finger as well as forward pressure on the front
of the gun, to fire bullets continuously and at a high
rate of fire to “mimic automatic fire.” Id. at 66,516.
This continuous cycle of fire-recoil-bump-fire lasts until
the shooter releases the trigger by removing his finger
from the extension ledge, the weapon malfunctions, or
the ammunition is exhausted. Id. at 66,519.
The Attorney General, exercising his regulatory
authority, first included a bump stock device—the
Akins Accelerator—within the statutory definition of
“machinegun” in 2006. See ATF Ruling 2006-2; see also

2

The extension ledge or “finger rest” is where the “shooter
places the trigger finger while shooting the firearm.” Final Rule
at 66,516.

6a
Akins v. United States, 312 F. App’x 197, 199 (11th Cir.
2009). The Akins Accelerator, unlike many bump
stocks, used “an internal spring” to “reposition and
refire” the firearm. Akins, 312 F. App’x at 198. ATF
later limited the devices it defined as machine guns by
concluding that bump stocks that operated without an
internal spring were not machine guns. Final Rule at
66,514.
On October 1, 2017, a shooter in Las Vegas,
Nevada, used multiple semiautomatic rifles equipped
with bump stocks to fire several hundred rounds of
ammunition into a crowd of concert attendees within
a short period of time. Id. at 66,516.3 The “ ‘rapid fire’
operation” of the shooter’s weapons enabled by the
bump stocks left 58 dead and approximately 500
wounded. Id. In response, President Trump directed
the Department of Justice “to propose for notice and
comment a rule banning all devices that turn legal
weapons into machineguns.” Application of the
Definition of Machinegun to “Bump Fire” Stocks and
Other Similar Devices, 83 Fed. Reg. 7,949, 7,949 (Feb.
20, 2018). ATF then revisited the status of bump
stocks, reviewed its earlier determinations for
bump-stock-type devices issued between 2008 and
2017, and decided to clarify by the rulemaking process
the statutory terms “automatically” and “single
function of the trigger” as applied in defining what is
or is not a machine gun. Final Rule at 66,514–66,515.
3

Because ATF had not regulated certain types of bump
stocks under the NFA or GCA, they were not marked with a serial
number or other identification markings. As a result, individuals
were able to legally purchase bump stocks without undergoing
background checks or complying with any other federal
regulations applicable to firearms. Final Rule at 66,516.

7a
On March 29, 2018, then-Attorney General Sessions
issued a Notice of Proposed Rulemaking that suggested
“amend[ing] the [ATF] regulations to clarify that
[bump stocks] are ‘machineguns’ ” under 26 U.S.C.
§ 5845(b). See Bump-Stock-Type Devices, 83 Fed. Reg.
13,442 (March 29, 2018).
ATF promulgated its Final Rule on December
26, 2018. Regarding the statutory definition of
machine gun, the Final Rule provided that the NFA’s
use of “the term ‘automatically’ as it modifies ‘shoots,
is designed to shoot, or can be readily restored to
shoot,’ ” 26 U.S.C. § 5845(b), “means functioning as the
result of a self-acting or self-regulating mechanism
that allows the firing of multiple rounds through a
single function of the trigger.” Final Rule at
66,553–66,554 (codified at 27 C.F.R. §§ 447.11, 478.11,
479.11). The Final Rule further defined “single
function of the trigger,” 26 U.S.C. § 5845(b), to mean “a
single pull of the trigger and analogous motions.” Final
Rule at 66,553–66,554 (codified at 27 C.F.R. §§ 447.11,
478.11, 479.11).
Given those definitions, the Final Rule
concluded that the statutory term “‘machinegun’
includes a bump-stock-type device”—that is, “a device
that allows a semiautomatic firearm to shoot more
than one shot with a single pull of the trigger by
harnessing the recoil energy of the semiautomatic
firearm to which it is affixed so that the trigger resets
and continues firing without additional physical
manipulation of the trigger by the shooter.” Id.
(codified at 27 C.F.R. §§ 447.11, 478.11, 479.11).
For its authority to promulgate the Final Rule,
ATF relied on both the “plain meaning” of the NFA
and the Attorney General’s delegation to the agency to
administer and enforce the NFA and GCA. Id. at

8a
66,527. In addition, ATF stated that if 26 U.S.C.
§ 5845(b) is ambiguous, the Final Rule “rests on a
reasonable construction.” Id. (citing and invoking
Chevron U.S.A., Inc. v. Nat. Res. Def. Counsel, 467 U.S.
837 (1984)). ATF explained that although Congress
defined “machinegun” in the NFA, “it did not further
define the components of that definition ... Congress
thus implicitly left it to the [Attorney General] to
define ‘automatically’ and ‘single function of the
trigger’ in the event those terms are ambiguous.” Id.
ATF stated that the Final Rule would become
“effective” on March 26, 2019, ninety days after
promulgation. Id. at 66,514. ATF stated further that
individuals would be subject to “criminal liability only
for possessing bump-stock-type devices after the
effective date of regulation, not for possession before
that date.” Id. at 66,525. Bump-stock owners were
directed to destroy their devices or leave them at an
ATF office by March 26, 2019. Id. at 66,514.
Procedural History
Mr. Aposhian purchased a Slide Fire bump
stock before the Final Rule was promulgated. He filed
suit against various governmental officers and
agencies challenging the Final Rule as
unconstitutional and in violation of the Administrative
Procedure Act (APA), arguing that the Final Rule
contradicts an unambiguous statute, 26 U.S.C.
§ 5845(b), and mistakenly extends its statutory
definition of “machinegun” to cover bump stocks. The
government also argued the statute is unambiguous
but that the Final Rule is merely interpretive and, as
so, reflects the best interpretation of the statutory text.
For its part, the district court did not specifically opine
on whether the statute was ambiguous or not.

9a
Ultimately, the district court denied Mr.
Aposhian’s motion for a preliminary injunction,
concluding that because the Final Rule represented the
best reading of the statute, Mr. Aposhian was not
likely to succeed on the merits of his challenge. Aplt.
App. at 181. Because it concluded that Mr. Aposhian
was unlikely to succeed on the merits, the district court
did not reach the other three preliminary-injunction
factors. See id. at 175. Mr. Aposhian filed a notice of
appeal and sought an injunction pending appeal from
this court, which was denied. Id. at 226.
II
We review the district court’s denial of a
preliminary injunction for abuse of discretion.
Wilderness Workshop v. BLM, 531 F.3d 1220, 1223
(10th Cir. 2008). “An abuse of discretion occurs ‘only
when the trial court bases its decision on an erroneous
conclusion of law or where there is no rational basis in
the evidence for the ruling.’ ” Utah Licensed Beverage
Ass’n v. Leavitt, 256 F.3d 1061, 1065 (10th Cir. 2001)
(quoting Hawkins v. City and Cty. of Denver, 170 F.3d
1281, 1292 (10th Cir. 1999)). “Thus, we review the
district court’s factual findings for clear error and its
conclusions of law de novo.” Fish v. Kobach, 840 F.3d
710, 723 (10th Cir. 2016).
“A preliminary injunction is an extraordinary
remedy, the exception rather than the rule.” United
States ex rel. Citizen Band Potawatomi Indian Tribe v.
Enter. Mgmt. Consultants, Inc., 883 F.2d 886, 888
(10th Cir. 1989). “To obtain a preliminary injunction,
the movant must show: (1) a substantial likelihood of
success on the merits; (2) irreparable harm to the
movant if the injunction is denied; (3) the threatened
injury outweighs the harms that the preliminary

10a
injunction may cause the opposing party; and (4) the
injunction, if issued, will not adversely affect the
public interest.” Gen. Motors Corp. v. Urban Gorilla,
LLC, 500 F.3d 1222, 1226 (10th Cir. 2007). The third
and fourth factors “merge” when, like here, the
government is the opposing party. Nken v. Holder, 556
U.S. 418, 435 (2009). “[B]ecause a preliminary
injunction is an extraordinary remedy, the [movant's]
right to relief must be clear and unequivocal.”
Dominion Video Satellite, Inc. v. Echostar Satellite
Corp., 356 F.3d 1256, 1261 (10th Cir. 2004) (internal
quotation marks omitted).
III
To obtain preliminary injunctive relief, Mr.
Aposhian must demonstrate a substantial likelihood of
success on the merits of his challenge to the Final
Rule. While his complaint raises both constitutional
and APA claims, he does not cite to any constitutional
provision or section of the APA in the portion of his
opening brief discussing his likelihood of success on
the merits. It is clear, however, that Mr. Aposhian’s
merits arguments in this court concern only issues of
statutory interpretation. Specifically, he contends that
he has demonstrated a substantial likelihood of
success on the merits because ATF's interpretation of
26 U.S.C. § 5845(b) contradicts the unambiguous
language of the statute. Aplt. Br. at 13. He also argues
that because the statute is unambiguous, ATF had no
authority to promulgate a rule defining its terms. Id.
at 30. In the alternative, Mr. Aposhian contends that

11a
any ambiguity in the statute must be construed in his
favor under the rule of lenity.4 Id. at 37.5
Because Mr. Aposhian is challenging ATF's
authority to promulgate the Final Rule, the APA
governs our review. See WildEarth Guardians v.
United States Fish and Wildlife Serv., 784 F.3d 677,
683 (10th Cir. 2015) (noting that the APA applies
“when asking whether an agency has acted within its
authority”); see also Citizens’ Comm. to Save Our
Canyons v. Krueger, 513 F.3d 1169, 1176 (10th Cir.
2008) (stating that the APA “governs judicial review of
agency actions”). As relevant to the arguments here,
we may only set aside agency action that is “in excess
of statutory jurisdiction, authority, or limitations, or
short of statutory right.” 5 U.S.C. § 706(2)(C). We

4

Under the rule of lenity, courts “interpret ambiguous
statutes ... in favor of criminal defendants.” United States v. Gay,
240 F.3d 1222, 1232 (10th Cir. 2001). “The rule of lenity ‘is a rule
of last resort [and] the mere assertion of an alternative
interpretation is not sufficient to bring the rule into play.’ ” Id.
(quoting United States v. Blake, 59 F.3d 138, 140 (10th Cir. 1995)).
5

Mr. Aposhian states in a footnote in his reply brief that
his “claim is that the Final Rule was issued in violation of Articles
I, § 1, I, § 7, and II, § 3, on theories related to the vesting clauses,
bicameralism and presentment, non-divestment and separation
of powers principles.” Aplt. Rep. Br. at 27 n.1 (citing his
complaint). Not only does Mr. Aposhian fail to cite any caselaw
supporting these arguments, these constitutional theories are
absent from his opening brief. We routinely “decline[ ] to consider
arguments that are not raised, or are inadequately presented, in
an appellant's opening brief,” Bronson v. Swensen, 500 F.3d 1099,
1104 (10th Cir. 2007), and it is well settled that we do not
ordinarily review issues raised for the first time in a reply brief,
Sylvia v. Wisler, 875 F.3d 1307, 1332 n.7 (10th Cir. 2017). We see
no reason to deviate from those principles here.

12a
conclude that Mr. Aposhian has not shown that ATF
acted beyond its authority and has thereby failed to
demonstrate a substantial likelihood of success under
the APA.
A
At the outset, we must determine what
standard we are to apply in addressing the Final
Rule’s conclusion that bump stocks are “machineguns”
under the statutory definition. When confronted with
this question of statutory interpretation and what if
any weight the district court should accord ATF's
interpretation under its Final Rule, the parties seemed
oddly in agreement. Mr. Aposhian argued repeatedly
against the application of Chevron deference, citing
Chevron in his motion for a preliminary injunction to
argue that ATF's construction of the statute should be
rejected, Aplt. App. at 44–45, and devoting the entirety
of his reply brief to argue the Final Rule fails under
both step one and step two of Chevron, see id. at
111–19. And, as the district court noted in its
memorandum opinion and order denying the motion
for a preliminary injunction, the government “went out
of [its] way to avoid citing Chevron and its progeny and
repeatedly stressed that [the defendants] neither
request, nor believe their interpretations are entitled
to, any measure of deference.” Id. at 177 n.8. In the
end, the district court did not apply the Chevron
framework. Id. Rather, it concluded that the Final
Rule represented the best interpretation of the statute.
Id. at 181.
Generally, however, “we apply the test
established by Chevron ... when asking whether an
agency has acted within its authority.” WildEarth, 784
F.3d at 683 (emphasizing that appellate review under

13a
APA § 706(2)(C) proceeds under the Chevron
framework). If Chevron applies, we first ask if the
statute is ambiguous concerning whether bump stocks
can be considered “machineguns.” If so, we sustain the
Final Rule’s conclusion that bump stocks are machine
guns as long as the Final Rule’s conclusion is
reasonable. See Entergy Corp. v. Riverkeeper, Inc., 556
U.S. 208, 218 (2009). At this second step, an “agency
need not adopt ... the best reading of the statute, but
merely one that is permissible.” Dada v. Mukasey, 554
U.S. 1, 29 n.1 (2008). On the other hand, if Chevron’s
two-step framework is inapplicable, we accept ATF's
interpretation only if it is the best reading of the
statute. While the parties protest the applicability of
Chevron on various grounds, we conclude that the
Final Rule warrants consideration under the Chevron
framework.
(i)
Initially, the applicability of Chevron depends
on what kind of rule the Final Rule represents. There
is a “central distinction” under the APA between
legislative rules and interpretive rules. Chrysler Corp.
v. Brown, 441 U.S. 281, 301 (1979); see 5 U.S.C.
§ 553(b), (d). Legislative rules generally receive
Chevron deference, whereas interpretive rules “enjoy
no Chevron status as a class.” United States v. Mead
Corp., 533 U.S. 218, 232 (2001).
A legislative rule is one that “is promulgated
pursuant to a direct delegation of legislative power by
Congress and ... changes existing law, policy, or
practice.” Rocky Mountain Helicopters, Inc. v. F.A.A.,
971 F.2d 544, 546 (10th Cir. 1992). A legislative rule
affects individual rights and obligations, and, if it is

14a
“the product of certain procedural requisites,” it has
the force and effect of law. Chrysler Corp., 441 U.S. at
301–02. An interpretive rule, on the other hand,
“attempts to clarify an existing rule but does not
change existing law, policy, or practice.” Rocky
Mountain Helicopters, 971 F.2d at 546–47. An
interpretive rule simply “ ‘advise[s] the public of the
agency's construction of the statute and rules which it
administers.’ ” Sorenson Commc'ns, Inc. v. F.C.C., 567
F.3d 1215, 1222 (10th Cir. 2009) (quoting Shalala v.
Guernsey Mem. Hosp., 514 U.S. 87, 99 (1995)).
The government contends—and the district
court found—that the Final Rule is merely
interpretive. See Aple. Br. at 37–38; Aplt. App. at 176.
But “[t]he agency’s own label for its action is not
dispositive.” Sorenson, 567 F.3d at 1223. Instead,
“[t]he court must rely upon the reasoning set forth in
the administrative record and disregard post hoc
rationalizations of counsel.” Id. at 1221. Here, “[a]ll
pertinent indicia of agency intent confirm that the
[Final] Rule is a legislative rule.” Guedes v. Bur. of
Alcohol, Tobacco, Firearms & Explosives, 920 F.3d 1,
18 (D.C. Cir. 2019) (reviewing the Final Rule under the
Chevron framework).
First, the Final Rule demonstrates that ATF
intended to change the legal rights and obligations of
bump-stock owners. The Final Rule directed
bump-stock owners to either destroy or surrender to
ATF any bump stock in their possession and stated
that “[t]he rule would criminalize only future conduct,
not past possession of bump-stock-type devices that
ceases by the effective date of this rule.” Final Rule at
66,525. The Final Rule announced that a person “in
possession of a bump-stock-type device” in fact “is not

15a
acting unlawfully unless they fail to relinquish or
destroy their device after the effective date of this
regulation.” Id. at 66,523 (emphasis added). This effort
to “ ‘directly govern[ ] the conduct of members of the
public, affecting individual rights and obligations’ ” is
“powerful evidence” that ATF intended the Final Rule
to be a binding application of its rulemaking authority.
Guedes, 920 F.3d at 18 (quoting Long Island Care at
Home, Ltd. v. Coke, 551 U.S. 158, 172 (2007)).
ATF, when promulgating the Final Rule,
“further evinced its intent to exercise legislative
authority by expressly invoking the Chevron
framework and then elaborating at length as to how
Chevron applies to the [Final] Rule.” Id. at 18–19
(noting that ATF's “exegesis” on Chevron “would have
served no purpose unless the agency intended the
[Final] Rule to be legislative in character”). Moreover,
the Final Rule expressly invoked two separate
delegations of legislative power, one under the NFA,
26 U.S.C. § 7805, and one under the GCA, 18 U.S.C.
§ 926(a). See Final Rule at 66,515. These provisions,
according to the Final Rule, give the Attorney General
“the responsibility for administering and enforcing the
NFA and GCA,” which he has delegated to ATF. Id.
In addition, the Final Rule was published in the
Code of Federal Regulations (CFR). By statute,
administrative rules published in the CFR are limited
to those “having general applicability and legal effect.”
44 U.S.C. § 1510. For all of these reasons, it is evident
that the Final Rule intends to speak with the force of
law.
Ordinarily, legislative rules are entitled to
Chevron deference. See Sinclair Wyoming Refining Co.
v. EPA, 887 F.3d 986, 991 (10th Cir. 2017).

16a
Nonetheless, the parties assert that Chevron deference
is inappropriate here. Mr. Aposhian argues that
Chevron deference has been waived by the government
because the government has disavowed any reliance on
Chevron throughout this litigation. Aplt. Br. at 42–43.
Next, the parties (including the government) submit
that Chevron deference is inapplicable when the
government interprets a statute that imposes criminal
liability. See Aplt. Br. at 44; Aple. Br. at 40. Neither of
these objections to applying Chevron are likely to
succeed in the context of the Final Rule, particularly
when one recalls the citation to and reliance on
Chevron when the Final Rule was promulgated.
(ii)
Mr. Aposhian relies on our decision in Hydro
Resources, Inc. v. EPA, 608 F.3d 1131 (10th Cir. 2010),
to argue that the government has waived any reliance
on Chevron deference and that we must abide by that
waiver. Aplt. Br. at 42, 43. In Hydro Resources, we
reviewed de novo the Environmental Protection
Agency's interpretation of a statute because
“throughout the proceedings before the panel and ...
the en banc court, [the agency] itself ha[d]n't claimed
any entitlement to deference.” Id. at 1146. We noted
that “[i]n these circumstances, when the agency doesn't
ask for deference to its statutory interpretation, ‘we
need not resolve the ... issues regarding deference
which would be lurking in other circumstances.’ ” Id.
(emphasis added) (quoting Estate of Cowart v. Nicklos
Drilling Co., 505 U.S. 469, 477 (1992)). However, this
passage should not be read as prohibiting our
application of Chevron merely on the agency’s say so.
Simply put, “need not” does not mean “may not.”

17a
Moreover, Hydro Resources did not address a scenario
where, like here, a party other than the government
invokes the Chevron framework.
We addressed this specific scenario in TransAm
Trucking, Inc. v. Admin. Review Bd., 833 F.3d 1206,
1212 n.4 (10th Cir. 2016), and held that the Chevron
framework applies, including deference at Chevron
step two. The dissent in TransAm criticized the
majority for making “a wholly uninvited foray into step
two of Chevron land,” id. at 1216 (Gorsuch, J.,
dissenting), because “the only party to mention
Chevron ... was [the plaintiff], and then only in a
footnote in its brief and then only as part of an
argument that the statute is not ambiguous,” id.
(emphasis in original). The majority nonetheless
applied both steps of Chevron and gave the agency’s
interpretation of the statute deference, id. at 1212,
defending its application of Chevron deference by
stating, “We received our invitation from TransAm [to
apply the Chevron framework] in its opening brief ...
TransAm, the appellant in this matter, relied on
Chevron to argue the [agency’s] construction of the
[statute] should be rejected.” Id. at n.4.
This case is akin to TransAm. While the
government has declined to invoke Chevron throughout
the course of this litigation, see Aple. Br. at 16 (arguing
that “plaintiff's discussion of Chevron deference has no
bearing on the disposition of this suit”), Mr. Aposhian,
like the plaintiff in TransAm, relies on Chevron in his
opening brief to argue that ATF's construction of the
statute should be rejected. In contending that ATF's
interpretation “contradicts the statute itself,” Aplt. Br.
at 13 (capitalization omitted), Mr. Aposhian cites
Chevron, arguing that the inquiry is whether the

18a
statute “ ‘has directly spoken to the precise question at
issue,’ and, if so, ‘that is the end of the matter; for the
court as well as the agency must give effect to the
unambiguously expressed intent of Congress,’ ” id. at
14 (quoting Chevron, 467 U.S. at 842–43). The plaintiff
in TransAm likewise cited Chevron “as part of an
argument that the statute is not ambiguous” (Chevron
step one), 833 F.3d at 1216 (Gorsuch, J., dissenting),
yet the majority still concluded that the plaintiff
provided an “invitation” to apply both steps of the
Chevron framework, id. at 1212 n.4. Our “invitation”
to apply the Chevron framework in this case is even
clearer than in TransAm, given that Mr. Aposhian (1)
cites Chevron in the text of his opening brief rather
than in a footnote; and (2) relied on Chevron in his
motion for a preliminary injunction at the district
court, Aplt. App. at 44–45, and in his motion for an
injunction pending appeal, id. at 150. Because Mr.
Aposhian has invoked Chevron throughout the course
of this litigation, his objection to Chevron deference
based on the government’s waiver is unlikely to
succeed.6

6

While Mr. Aposhian has clearly presented an “invitation”
to apply the Chevron framework under TransAm, we note that our
cases are not entirely consistent as to whether such an invitation
is necessary. Compare Am. Wild Horse Pres. Campaign v. Jewell,
847 F.3d 1174, 1187 (10th Cir. 2016) (describing Chevron as a
“two-part standard of review”) (emphasis added), with Hays Med.
Ctr. v. Azar, __ F.3d __, No. 17-3232, 2020 WL 1922595, at *13
n.18 (10th Cir. Apr. 21, 2020) (concluding that Chevron can be
waived where, unlike here, its “invocation” is merely “perfunctory
and fleeting”). To the extent that Chevron is a standard of review,
we would need no invitation to apply it. See Gardner v. Galetka,
568 F.3d 862, 879 (10th Cir. 2009) (“It is one thing to allow parties
to forfeit claims, defenses, or lines of argument; it would be quite

19a
(iii)
Next, the parties contend that Chevron
deference is inapplicable where the government
interprets a statute that imposes criminal liability. See
Aplt. Br. at 44 (“ ‘[C]riminal laws are for courts, not for
the Government, to construe.’ ”) (quoting Abramski v.
United States, 573 U.S. 169, 191 (2014)); Aple. Br. at
40 (same). According to Mr. Aposhian, “ATF's rejection
of deference in favor of the rule of lenity” is required by
our precedent and constitutional limitations. Aplt. Br.
at 44. Mr. Aposhian also relies on United States v.
Apel, 571 U.S. 359, 369 (2014), for the proposition that
“we have never held that the Government’s reading of
a criminal statute is entitled to any deference.” Mr.
Aposhian, however, has failed to demonstrate a
likelihood of success in establishing a general rule
against applying Chevron to agency interpretations of
statutes with criminal law implications. Rather,
controlling precedent points in the other direction.
In Babbitt v. Sweet Home Chapter of
Communities for a Great Oregon, 515 U.S. 687 (1995),
the Supreme Court reviewed a regulation interpreting
a term in the Endangered Species Act (ESA), which,
like the regulation in this case, carried both civil and
criminal implications. The challengers argued that
Chevron deference was inappropriate because the ESA
included criminal penalties. See id. at 704 n.18. The
Court disagreed, holding that it would defer “to the

another to allow parties to stipulate or bind us to application of an
incorrect legal standard....”); see also Guedes, 920 F.3d at 22 (“The
‘independent power’ to identify and apply the correct law
presumably includes application of the Chevron framework when
determining the meaning of a statute.”

20a
Secretary’s reasonable interpretation” under Chevron.
Id. at 703–04.
Babbitt also rejected the argument “that the
rule of lenity should foreclose any deference to the
[agency’s] interpretation of the [statute] because the
statute includes criminal penalties.” Id. at 704 n.18.
The Court reasoned,
The rule of lenity is premised on two
ideas: First, “ ‘a fair warning should be
given to the world in language that the
common world will understand, of what
the law intends to do if a certain line is
passed’ ”; second, “legislatures and not
courts should define criminal activity.”
We have applied the rule of lenity in a
case raising a narrow question
concerning the application of a statute
that contains criminal sanctions to a
specific factual dispute—whether pistols
with short barrels and attachable
shoulder stocks are short-barreled
rifles—where no regulation was present.
See United States v. Thompson/Center
Arms Co., 504 U.S. 505, 517–518, and n.
9 (1992). We have never suggested that
the rule of lenity should provide the
standard for reviewing facial challenges
to administrative regulations whenever
the governing statute authorizes criminal
enforcement.
Id. (emphasis added) (citation omitted). Thus, as in
this case, where a regulation is at issue, and the
agency (here, ATF) has both civil and criminal

21a
enforcement authority, Babbitt suggests that Chevron,
not the rule of lenity, should apply.
Our circuit precedent is in accord. In NLRB v.
Oklahoma Fixture Co., 332 F.3d 1284, 1287 (10th Cir.
2003) (en banc), we noted that “it is not entirely clear
exactly how the Chevron analysis is affected by the
presence of criminal liability in a statute being
interpreted by an agency.” Nonetheless, we concluded
that, under Babbitt, it was appropriate to give “some
deference” under Chevron to the National Labor
Relations Board’s interpretation of an exception to a
criminal prohibition on employer payments to labor
organizations in the Labor Management Reporting
Act. Id. (noting that “the degree of deference may be
dependent upon considerations of the agency’s
particular expertise and the policies implicated by the
criminal statute in question, as well as the extent to
which Congress has charged the agency with
administering the criminal statute”). Accordingly, we
looked at whether the agency’s interpretation was “a
reasonable or permissible one” and was “not in conflict
with interpretive norms regarding criminal statutes.”
Id. & n.5 (stating that “criminal statutes must be
construed narrowly, and that exceptions to those
statutes must be construed broadly”). We concluded
that the agency’s interpretation was reasonable and
gave deference to its interpretation of the “criminal
provision” at issue.7 Id. at 1287, 1291. And contrary to
Mr. Aposhian’s assertion, the majority in Oklahoma

7

Notably, in contrast with the regulation in Babbitt and
the regulation at issue here, the NLRB’s interpretation in
Oklahoma Fixture carried only criminal implications. 332 F.3d at
1291 n.1. (Briscoe, J., concurring).

22a
Fixture did not apply, or even mention, the rule of
lenity. See id. at 1287–90.
We later gave deference under Chevron to a
“reasonable” ATF regulation interpreting 18 U.S.C.
§ 922(g), despite the “criminal nature of that statute.”
United States v. Atandi, 376 F.3d 1186, 1189 (10th Cir.
2004) (stating that “we unquestionably owe ‘some
deference’ to the ATF's regulation”) (quoting Okla.
Fixture, 332 F.3d at 1286–87, and citing Babbitt, 515
U.S. at 703). We emphasized that, as in this case, ATF
“had been delegated authority to implement” § 922 by
virtue of 18 U.S.C. § 926(a), id. (noting that § 926(a)
“authoriz[es] ‘such rules and regulations as are
necessary to carry out the provisions of this chapter’ ”),
and we again did not invoke the rule of lenity. See id.8
We once again gave deference under Chevron to
an agency’s interpretation of a statute with criminal
implications in United States v. Hubenka, 438 F.3d
1026, 1032–34 (10th Cir. 2006). In Hubenka, a jury
found the defendant guilty of violating the Clean
Water Act, and the defendant contended that “his
activities ... l[ay] beyond the reach of the [statute]” as
interpreted by the Army Corps of Engineers. Id. at
1028. We nonetheless applied the Chevron framework
and did not invoke the rule of lenity. Id. at 1031
(“When a case involves an agency’s interpretation of a
statute it administers, this court uses the two-step
8

In York v. Secretary of the Treasury, 774 F.2d 417, 419
(10th Cir. 1985), we recognized ATF's “enforcement power” under
26 U.S.C. § 7805(a) “to interpret 26 U.S.C. § 5845(b),” the statute
at issue in this case, “which provides that a ‘machine gun’ includes
‘any weapon which shoots, is designed to shoot, or can be readily
restored to shoot, automatically more than one shot, without
manual reloading, by a single function of the trigger.’ ”

23a
approach announced in Chevron....”). We held that the
Army Corps of Engineers’ “tributary rule [was] a
permissible interpretation of the [statute].” Id. at 1034.
Therefore, we stated that, “under Chevron, we must
defer to the Corps’ interpretation of the statute”
despite the criminal implications of the rule. Id. at
1034 (affirming the defendant’s conviction). In sum,
this court has repeatedly given agency interpretations
with criminal law implications deference.
To be sure, the Supreme Court has recently
“signaled some wariness about deferring to the
government’s interpretations of criminal statutes.”
Guedes, 920 F.3d at 25 (citing Abramski, 573 U.S. at
191, and Apel, 571 U.S. at 369). But as the D.C. Circuit
explained in Guedes, those statements “were made
outside the context of a Chevron-eligible
interpretation.” Id. Specifically,
[i]n Abramski, the Court declined to
extend deference to informal guidance
documents published by [ATF]. See 573
U.S. at 191. And in Apel, the Court
declined to defer to an interpretation
contained in “Executive Branch
documents” that were “not intended to be
binding.” 571 U.S. at 368. When directly
faced with the question of Chevron’s
applicability to an agency’s interpretation
of a statute with criminal applications
through a full-dress regulation, the Court
adhered to Chevron. See Babbitt, 515
U.S. at 704 n.18.
Id. (emphasis added). Babbitt and our court’s
precedents govern here, where ATF has promulgated
a regulation through formal notice-and-comment

24a
proceedings. Under those precedents, Mr. Aposhian
has failed to demonstrate a likelihood of success in
establishing a rule against deference to agency
interpretations with criminal law implications.
B
Because the precedents cited call for the
application of Chevron, we now examine the Final Rule
under Chevron. We first ask whether the
agency-administered statute is ambiguous on the
“precise question at issue.” Chevron, 467 U.S. at 842.
If the statute's meaning is unambiguous, then we need
go no further. If we find ambiguity, our caselaw
instructs us to proceed to Chevron’s second step and
ask whether the agency has provided a “permissible
construction” of the statute. Id. at 843. There, “the task
that confronts us is to decide, not whether [the agency’s
interpretation is] the best interpretation of the statute,
but whether it represents a reasonable one.” Atl. Mut.
Ins. Co. v. Comm’r, 523 U.S. 382, 389 (1998).
The NFA and GCA both define “machinegun” to
mean “any weapon which shoots, is designed to shoot,
or can be readily restored to shoot, automatically more
than one shot, without manual reloading, by a single
function of the trigger.” 26 U.S.C. § 5845(b); see 18
U.S.C. § 921(a)(23). The definition of “machinegun”
also includes “any part designed and intended solely
and exclusively, or combination of parts designed and
intended, for use in converting a weapon into a
machinegun, and any combination of parts from which
a machinegun can be assembled if such parts are in
the possession or under the control of a person.” 26
U.S.C. § 5845(b).
The Final Rule determines that semiautomatic
rifles equipped with bump stocks are “machineguns”

25a
because they “function[ ] as the result of a self-acting
or self-regulating mechanism that allows the firing of
multiple rounds” through “a single pull of the trigger.”
Final Rule at 66,553. Applying Chevron, the statutory
definition of “machinegun” is ambiguous, and ATF's
interpretation is reasonable. Mr. Aposhian therefore is
unlikely to succeed on the merits of his challenge to
the Final Rule.
(i)
For the first step, to ascertain whether Congress
clearly stated its intent on the precise statutory
question at issue, courts should “apply[ ] the ordinary
tools of statutory construction.” City of Arlington v.
FCC, 569 U.S. 290, 296 (2013). “These tools include
examination of the statute’s text, structure, purpose,
history, and relationship to other statutes.” Harbert v.
Healthcare Servs. Grp., Inc., 391 F.3d 1140, 1147 (10th
Cir. 2004). “Ambiguity is a creature not of definitional
possibilities but of statutory context.” Brown v.
Gardner, 513 U.S. 115, 118 (1994). Under this
analysis, we agree with the D.C. Circuit that two
features of the statutory definition of “machinegun”
render it ambiguous. The first is the phrase “single
function of the trigger,” and the second is the word
“automatically.” Guedes, 920 F.3d at 29.
“Single Function of the Trigger”
When applied to bump stocks, the statutory
definition of machine gun is ambiguous with respect to
the phrase “single function of the trigger.” That is
because, within the statutory context, the phrase can
have more than one meaning. See id. (“[T]he statutory
phrase ‘single function of the trigger’ admits of more
than one interpretation.”). Mr. Aposhian defines the

26a
phrase to mean a mechanical act of the trigger. Aplt.
Br. at 26 (arguing that “[c]ourts have emphasized that
a trigger's function is defined by how it mechanically
operates, not by how the shooter engages it”). The
government (and ATF), however, define “single
function of the trigger” as “single pull of the trigger,”
Aple. Br. at 14, which “considers the external impetus
for the mechanical process.” Gun Owners of Am. v.
Barr, 363 F. Supp. 3d 823, 832 (finding “the statutory
definition of machine gun” to be “ambiguous with
respect to the phrase ‘single function of the trigger’ ”).9
As the D.C. Circuit explained,
The first interpretation would tend to
exclude bump-stock devices: while a
semiautomatic rifle outfitted with a bump
stock enables a continuous, high-speed
rate of fire, it does so by engendering a
rapid bumping of the trigger against the
9

The dissent states that ATF's interpretation of “single
function of the trigger” to mean “single pull of the trigger” refers
only to the action of the trigger and not the volitional action of the
shooter. Dissent at 7. The parties argue otherwise. Specifically,
Mr. Aposhian and the government agree that ATF's interpretation
refers to the action of the shooter's trigger finger. See Aplt. Br. at
25 (arguing that the Final Rule conflicts with the statute because
it redefines “single function of the trigger” to mean only the
“deliberate and volitional act of the user pulling the trigger”)
(quotations omitted); Aple. Br. at 20 (arguing that the statute “is
concerned with the shooter’s act of pulling the trigger”) (emphasis
added). Because the parties do not argue that ATF's interpretation
refers to the action of the trigger, that argument is waived. See
Wyoming v. Livingston, 443 F.3d 1211, 1216 (10th Cir. 2006). We
acknowledge the parties’ agreement on this issue, not to support
our conclusion that the statute is ambiguous, but rather to explain
why we do not address the argument that is the focus of the
dissent.

27a
shooter's stationary finger, such that
each bullet is fired because of a distinct
mechanical act of the trigger. The second
interpretation would tend to include
bump-stock devices: the shooter engages
in a single pull of the trigger with her
trigger finger, and that action, via the
operation of the bump stock, yields a
continuous stream of fire as long she
keeps her finger stationary and does not
release it.
Guedes, 920 F.3d at 29.
Within the statutory context, the phrase could
have either meaning. The word “function” focuses on
the “mode of action,” 4 Oxford English Dictionary 602
(1933), or “natural ... action,” Webster’s New
International Dictionary 876 (1933), by which the
trigger operates. But that definition begs the question
of whether “function” requires our focus upon the
movement of the trigger, or the movement of the
trigger finger. The statute is silent in this regard. “In
light of those competing, available interpretations, the
statute contains a ‘gap for the agency to fill.’ ” Guedes,
920 F.3d at 29 (quoting Chevron, 467 U.S. at 843).
Mr. Aposhian argues that “single function of the
trigger” plainly means a mechanical movement of the
trigger, asserting that Congress understood when it
enacted the NFA that there was a “difference in the
internal mechanism that allowed a machinegun to fire
multiple rounds continuously with one function of the
trigger and a semiautomatic weapon, which fires only
one round with each function of the trigger.” Aplt. Br.
at 36. But this distinction in no way requires a
“function” to be a mechanical action. In fact, the
definition Congress gave to the term “semiautomatic

28a
rifle” in the GCA is “any repeating rifle which utilizes
a portion of the energy of a firing cartridge to extract
the fired cartridge case and chamber the next round,
and which requires a separate pull of the trigger to fire
each cartridge.” 18 U.S.C. § 921(a)(28) (emphasis
added). We conclude the statutory definition of
machine gun is ambiguous with respect to the phrase
“single function of the trigger.”
“Automatically”
Similarly, the statutory term “automatically” is
ambiguous when applied to bump stocks. In the
statute, “automatically” functions as an adverb
modifying the verb “shoots.” Relying on definitions
from the 1930s, the government and the Final Rule
interpret the word to mean “the result of a self-acting
or self-regulating mechanism.” Final Rule at 66,519.
Mr. Aposhian counters that because the shooter must
maintain constant rearward pressure on the extension
ledge with the trigger finger and constant forward
pressure with the non-trigger hand for the bump stock
to work, a bump stock cannot shoot “automatically.”
Aplt. Br. at 22–23. Essentially, “the parties’ dispute is
whether the ... pressure exerted by the shooter ...
requires the conclusion that a bump stock does not
shoot automatically.” Gun Owners, 363 F. Supp. 3d at
831.
The statutory text does not answer this
question. The term “automatically,” however, does not
require there be no human involvement to give rise to
“more than one shot.” Webster’s New International
Dictionary provides that “automatically” is the
adverbial form of “automatic,” meaning “[h]aving a
self-acting or self-regulating mechanism that performs
a required act at a predetermined point in an

29a
operation.” Webster’s New International Dictionary
187 (2d ed. 1934) (emphasis added); see also Webster’s
New International Dictionary 156 (1933) (defining
“automatic” as “self-acting or self-regulating,”
especially applied to “machinery or devices which
perform parts of the work formerly or usually done by
hand”) (emphasis added). Similarly, the Oxford
English Dictionary defines the term to mean
“[s]elf-acting under conditions fixed for it, going of
itself.” 1 Oxford English Dictionary 574 (1933)
(emphasis added). Therefore, under its ordinary
meaning, the term can be read to permit limited
human involvement to bring about “more than one
shot.” As the D.C. Circuit explained,
[A] quite common feature of weapons
that indisputably qualify as machine
guns is that they require both a single
pull of the trigger and the application of
constant and continuing pressure on the
trigger after it is pulled. We know,
therefore, that the requirement of some
measure of additional human input does
not render a weapon nonautomatic.
Guedes, 920 F.3d at 30 (emphasis in original) (citation
omitted). But how much human input is too much?
The statute does not say.
Mr. Aposhian cites Staples v. United States, 511
U.S. 600, 602 n.1 (1994), for the proposition that the
shooter’s manual manipulations of the weapon clearly
do not meet the definition of “automatically.” See Aplt.
Br. at 18, 21. Reliance on Staples is misplaced. Staples
concerned the necessary mens rea element for a
conviction for possession of an unregistered machine
gun under the NFA. 511 U.S. at 604. At the beginning
of the opinion, the Court provided a footnote explaining

30a
how it was using certain terms in the opinion,
including “automatic” and “semi-automatic.” Id. at 602
n.1. It stated,
[a]s used here, the terms “automatic” and
“fully automatic” refer to a weapon that
fires repeatedly with a single pull of the
trigger. That is, once its trigger is
depressed, the weapon will automatically
continue to fire until its trigger is
released or the ammunition is exhausted.
Such weapons are “machineguns” within
the meaning of the Act. We use the term
“semiautomatic” to designate a weapon
that fires only one shot with each pull of
the trigger, and which requires no
manual manipulation by the operator to
place another round in the chamber after
each round is fired.
Id. (emphasis added).
As the Seventh Circuit explained in United
States v. Olofson, 563 F.3d 652, 657 (7th Cir. 2009), the
statutory definition of these terms was not at issue in
Staples, and the Court was not purporting to interpret
the statute. Instead, “the Court simply was providing
a glossary for terms frequently appearing in the
opinion.” Id. Moreover, the Court did not suggest that
“automatic” firing excluded all “manual manipulation”
of the gun, as Mr. Aposhian maintains. The Court
mentioned “manual manipulation” only in connection
with placing another round in the chamber. Staples,
511 U.S. at 602 n.1. Precluding “manual manipulation”
to put another round in the chamber is not
inconsistent with the statutory definition of a machine
gun, which shoots more than one shot “without manual
reloading,” 26 U.S.C. § 5845(b).

31a
In sum, the statutory definition of machine gun
contains two central ambiguities, both of which ATF
has attempted to resolve. Accordingly, we proceed to
Chevron’s second step.
(ii)
When, as here, Congress leaves an implicit
statutory gap, we ask at step two “whether the
[regulation] is based on a permissible construction of
the statute.” Chevron, 467 U.S. at 843. “ ‘[T]he
agency’s interpretation need not be the only one it
could have adopted, or the one that this court would
have reached had the question initially arisen in a
judicial proceeding.’ ” Anderson v. Dep't of Labor, 422
F.3d 1155, 1181 (10th Cir. 2005) (quoting Salt Lake
City v. W. Area Power Admin., 926 F.2d 974, 978 (10th
Cir. 1991)).
ATF's interpretation of “single function of the
trigger” to mean “single pull of the trigger” is a
permissible reading of the statute. See Guedes, 920
F.3d at 31 (concluding ATF's interpretation of “single
function of the trigger” is permissible); Gun Owners,
363 F. Supp. 3d at 832 (same). ATF's interpretation
accords with how some courts have read the statute.
For example, in Akins, the Eleventh Circuit held that
ATF's reading of “single function of the trigger” to
mean “single pull of the trigger” was “consonant with
the statute and its legislative history.” 312 F. App'x at
200 (concluding that the Akins Accelerator, a type of
bump stock, was reasonably classified as a machine
gun). In addition, the Final Rule’s interpretation
“accords with how the phrase ‘single pull of the trigger’
was understood at the time of the enactment of the
[NFA].” Guedes, 920 F.3d at 31. The Final Rule cites a
congressional hearing for the NFA where the

32a
then-president of the National Rifle Association
testified that the term “machine gun” included any
firearm “capable of firing more than one shot by a
single pull of the trigger, a single function of the
trigger.” Final Rule at 66,518 (emphasis added).
Further, the House Report accompanying the bill that
eventually became the NFA states that the bill
“contains the usual definition of a machine gun as a
weapon designed to shoot more than one shot ... by a
single pull of the trigger.” H.R. Rep. No. 73-1780, at 2
(1934) (emphasis added).
Nonetheless, the dissent states that if the Final
Rule does refer to the motion of the trigger finger—a
proposition the parties do not dispute—then the
regulation is invalid as being broader than the
unambiguous NFA. Dissent at 8 n.3. This assertion is
contrary to authority in this circuit. Specifically, this
court has looked to a shooter’s volitional actions to
determine whether automation was obtained with a
“single function of the trigger” under the NFA. See
United States v. Oakes, 564 F.2d 384, 388 (10th Cir.
1977). In Oakes, we held that a “gun was a machine
gun within the [NFA’s] statutory definition” because
“the shooter could, by fully pulling the trigger ... obtain
automation with a single trigger function.” Id.
(emphasis added). Thus, rather than being broader
than the NFA, ATF's interpretation of “single function
of the trigger” accords with how this court has
interpreted the statute.
ATF's interpretation of “automatically” is
likewise permissible. The Final Rule’s “definition
accords with the everyday understanding of the word
‘automatic.’ ” Guedes, 920 F.3d at 31. That is, the bump
stock “performs a required act at a predetermined
point” in the firing sequence by directing the recoil

33a
energy into the space created by the sliding stock. The
bump stock is also “self-acting under conditions fixed
for it.” The shooter’s positioning of the trigger finger on
the extension ledge and application of forward
pressure on the front of the gun provide the conditions
necessary for the bump stock to repeatedly perform its
purpose: to eliminate the need for the shooter to
manually capture the recoil energy to fire additional
rounds. We therefore disagree with the dissent's
contention that a bump stock cannot be “automatic”
because it will not work without constant forward
pressure. Dissent at 12. The bump stock performs part
of the work usually done by hand at a predetermined
point in the operation, under conditions fixed for it by
the shooter.
In addition, ATF's interpretation focuses the
inquiry about what needs to be automated precisely
where the statute does: the ability of the trigger
function to produce “more than one shot, without
manual reloading.” 26 U.S.C. § 5845(b); see Guedes,
920 F.3d at 31–32. Further, ATF's interpretation
tracks the interpretation reached by the Seventh
Circuit, where the court interpreted the term to
require a “self-acting mechanism” without requiring
more. Olofson, 563 F.3d at 658; see also Guedes, 920
F.3d at 32; Gun Owners, 363 F. Supp. 3d at 832
(holding that ATF's “interpretation [of the term
‘automatically’] is consistent with judicial
interpretations of the statute”).
Because ATF's Final Rule sets forth a
reasonable interpretation of the statute’s ambiguous
definition of “machinegun,” it merits our deference. Mr.
Aposhian has not demonstrated a likelihood of success
on the merits of his challenge to the Final Rule.

34a
IV
Although we could affirm the district court's
denial of preliminary injunctive relief solely on the
ground that Mr. Aposhian has failed to demonstrate a
substantial likelihood of success on the merits, we also
conclude that Mr. Aposhian has not met the other
prerequisites for preliminary relief.
Irreparable Harm
At the district court, “[t]he parties [did] not
dispute that Mr. Aposhian will experience irreparable
harm if the injunction is denied.” Aplt. App. at 175.
They did “disagree about what that irreparable harm
is.” Id. at n.4. Mr. Aposhian argued only that he would
“be harmed by being forced to comply with a rule that
has been promulgated in contravention of
constitutional principles of separation-of-powers.” Id.
The government conceded only that the irreparable
harm was the loss of Mr. Aposhian's bump stock. Id.
On appeal, Mr. Aposhian again contends that he
will suffer irreparable harm because the Final Rule
was issued in violation of his constitutional
rights—specifically, the separation of powers doctrine.
Aplt. Br. at 48. The government now asserts that Mr.
Aposhian will not suffer irreparable harm, contending
that there is no support for the proposition that a
generalized separation-of-powers violation constitutes
irreparable harm. Aple. Br. at 44. We agree with the
government that Mr. Aposhian has not met his burden
of demonstrating irreparable harm.
Mr. Aposhian relies on our holding in Free the
Nipple-Fort Collins v. City of Fort Collins, 916 F.3d
792, 806 (10th Cir. 2019), where we held that “[w]hat
makes an injury ‘irreparable’ is the inadequacy of, and
the difficulty of calculating, a monetary remedy after

35a
a full trial.” We noted that “[a]ny deprivation of any
constitutional right fits that bill.” Id. But in the merits
portion of his opening brief, Mr. Aposhian does not cite
to a single constitutional provision or rely on any
constitutional theory to argue that the Final Rule is
invalid; rather, his arguments focus on whether the
Final Rule contradicts the statute.10 We cannot
conclude that Mr. Aposhian has shown irreparable
harm based on the deprivation of a constitutional right
when he does not even raise a constitutional challenge
to the Final Rule in this court.
Even if Mr. Aposhian had properly raised a
constitutional argument, he has not cited a single case
where a generalized separation of powers, by itself,
constituted irreparable harm. To the contrary, our
cases finding that a violation of a constitutional right
alone constitutes irreparable harm are limited to cases
involving individual rights, not the allocation of powers
among the branches of government. See, e.g., Free the
Nipple, 916 F.3d at 806 (alleged equal protection
violation); Awad v. Ziriax, 670 F.3d 1111, 1119 (10th
Cir. 2012) (alleged First Amendment violation); see
generally 11A Charles Alan Wright, Arthur R. Miller
& Mary Kay Kane, FED. PRAC. & PROC. § 2948.1 (3d ed.
2019) (“When an alleged deprivation of a constitutional
right is involved, such as the right to free speech or
freedom of religion, most courts hold that no further
showing of irreparable harm is necessary.”) (emphasis
added). For these reasons, he has not met his burden

10

As noted, the constitutional arguments Mr. Aposhian
raised for the first time in a footnote in his reply brief are waived.
Sylvia, 875 F.3d at 1332 n.7

36a
of demonstrating that he would suffer irreparable
harm absent an injunction.
The dissent asserts that the government has
waived any argument as to irreparable harm by
conceding in the district court that Mr. Aposhian
would suffer irreparable harm. Our precedent says
otherwise. For instance, in Dominion, the parties
stipulated in a contract that a breach of an exclusivity
provision would give rise to irreparable harm and
warrant injunctive relief. 356 F.3d at 1261. The
district court relied solely on the parties’ stipulation to
find that the plaintiff had met its burden of
demonstrating irreparable harm. Id. at 1266. We
reversed, concluding that the “stipulation without
more is insufficient to support an irreparable harm
finding.” Id. The same holds true here.
We emphasize that it is Mr. Aposhian's burden
to demonstrate irreparable harm. Awad, 670 F.3d at
1128 n.14 (noting that the plaintiff has the “burden
under [each of] the four preliminary injunction
factors”). While the government stated in the district
court that the loss of Mr. Aposhian’s bump stock would
constitute irreparable harm, Mr. Aposhian has never
made a loss-of-property argument. Therefore, he has
waived this argument and cannot rely on it to satisfy
his burden.11

11

In any event, we note that the loss of a bump stock
cannot constitute irreparable harm because Mr. Aposhian could
be awarded compensatory damages. See Salt Lake Tribune Pub.
Co., LLC v. AT&T Corp., 320 F.3d 1081, 1105 (10th Cir. 2003)
(“Irreparable harm, as the name suggests, is harm that cannot be
undone, such as by an award of compensatory damages or
otherwise.”).

37a
Harm to the Government and the Public Interest
Mr. Aposhian has also failed to meet the
remaining prerequisites for a preliminary injunction.
Specifically, he has not shown that the threatened
injury outweighs the harms that the preliminary
injunction will cause the government or that the
injunction, if issued, will not adversely affect the public
interest. These factors “merge” when the government
is the opposing party. Nken, 556 U.S. at 435.
Mr. Aposhian argues that the “balance of
equities” favors an injunction, stating that the public
interest weighs in his favor because the public has an
interest in protecting an individual’s constitutional
rights. Aplt. Br. at 49–50. But Mr. Aposhian has not
argued that the Final Rule violates an individual
constitutional right. Moreover, the public has a strong
interest in banning the possession and transfer of
machine guns, including bump stocks. The ban
supports the safety of the public in general, see Final
Rule at 66,515, and the safety of law enforcement
officers and first responders, id. at 66,551.
Mr. Aposhian counters that because he is a
law-abiding citizen, “ATF cannot plausibly suggest
that public safety demands that he be deprived of his
device any longer.” Aplt. Br. at 50. The government’s
general public safety concerns, however, still apply to
Mr. Aposhian. Congress has prohibited Mr. Aposhian,
no less than any other individual, from owning a bump
stock. See Gun Owners, 363 F. Supp. 3d at 834
(“Congress restricts access to machine guns because of
the threat the weapons pose to public safety ... All of
the public is at risk, including the smaller number of
bump stock owners.”). We conclude, and the dissent
does not disagree, that Mr. Aposhian has failed to
demonstrate that the threatened injury to him

38a
outweighs the harm that the preliminary injunction
may cause to the government or that the injunction
will not adversely affect the public interest.
V
For the foregoing reasons, we affirm the district
court’s denial of a preliminary injunction.
CARSON, J., dissenting.
In our Republic, Congress has the power to
make and change laws. U.S. Const. art. I. Yet that
preferred route often takes a back seat to a more
expedient one. As is now often the case, the Executive
Branch steps in and seeks to remedy an unpopular or
poorly drafted law through an administrative
regulation. And to be sure, the Executive can do so
when the law is ambiguous; the Supreme Court has
made as much clear. Chevron, U.S.A., Inc. v. Nat. Res.
Def. Council, 467 U.S. 837 (1984).
But regardless of the Executive’s ability to
repair ambiguous laws, unambiguous laws—no matter
how problematic or out of favor—are out of its reach.
See Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1630
(2018) (explaining that Chevron deference is
unwarranted when “traditional tool[s] of statutory
construction” are “up to the job of solving [a statute's]
interpretive puzzle”); Big Horn Coal Co. v. Sadler, 924
F.3d 1317, 1322 (10th Cir. 2019) (“[I]f Congress has
spoken ‘directly’ to the ‘precise question at issue,’ the
inquiry ends, and we must give effect to the express
intent of Congress.” (quoting Chevron, 467 U.S. at
842)). Thus, when a party challenges a regulation that
implements an unambiguous law in court, the
Judiciary must be mindful that neither it nor the

39a
Executive has the power to make the law. See Sessions
v. Dimaya, 138 S. Ct. 1204, 1228 (2018) (Gorsuch, J.,
concurring). Rather, those two branches “must respect
the role of the Legislature, and take care not to undo
what it has done.” King v. Burwell, 135 S. Ct. 2480,
2496 (2015). In short, Congress must fix any flaw that
may exist in a particular piece of unambiguous
legislation; the Executive and the Judiciary may not do
so no matter how tempting the fix may be.
Today we encounter an example of unambiguous
legislation that neither the Executive nor the Judiciary
may cast asunder: the National Firearms Act (NFA),
26 U.S.C. §§ 5801–72. As the majority notes, that law
regulates “machinegun[s],” which comprise “any
weapon which shoots, is designed to shoot, or can be
readily restored to shoot, automatically more than one
shot, without manual reloading, by a single function of
the trigger.” 26 U.S.C. § 5845(b). That clear language
leaves little wiggle room. The word “automatically,” for
instance, takes on its usual definition and refers to
mechanisms that are “self-acting or self-regulating”
rather than mechanisms that are not self-acting or
self-regulating. And the phrase “single function of the
trigger” speaks only about the trigger itself; the phrase
mentions nothing about the external stimulus that
interacts with the trigger. Thus, to qualify as a
machine gun under the NFA, a firearm must satisfy at
least two conditions: (1) the trigger itself must
“function” only once to fire more than one shot, and (2)
the mechanism that allows the trigger to “function”
only once must be “self-acting or self-regulating.”
As I explain below, a semiautomatic firearm
equipped with a bump stock satisfies neither of those
conditions. For one thing, the trigger on such a firearm
must still “function” every time a shot is fired. And in

40a
any event, the bump stock—at least the nonmechanical
variety—is not “self-acting or self-regulating” on the
trigger. Why? Because the user of the firearm must
also apply constant forward pressure with his or her
nontrigger hand for the bump stock to work.1 So does
a bump stock increase the speed by which the user can
fire rounds? Yes. But does that mean the firearm to
which it is attached is a machine gun under the NFA?
No.
Yet the Bureau of Alcohol, Tobacco, Firearms,
and Explosives (ATF) now thinks so. In the wake of
the tragic Las Vegas shooting, ATF promulgated a
final administrative rule in late 2018 that classifies
“bump-stock-type devices” as “machinegun[s]” under
the NFA. See Bump-Stock-Type Devices, 83 Fed. Reg.
66,514 (Dec. 26, 2018) (the Bump-Stock Rule). ATF
declared that a machine gun includes
a device that allows a semiautomatic
firearm to shoot more than one shot with
a single pull of the trigger by harnessing
the recoil energy of the semiautomatic
firearm to which it is affixed so that the
trigger resets and continues firing
without additional physical manipulation
of the trigger by the shooter.
Id. at 66,553–54.
That rule cannot withstand judicial scrutiny. As
applied, the Bump-Stock Rule focuses on the user’s
trigger finger instead of the trigger itself, which flouts
the phrase “single function of the trigger” in the NFA.
1

Mechanical bump stocks use slightly different
mechanisms. The Akins Accelerator, for instance, uses internal
springs instead of constant forward pressure to propel the firearm
forward.

41a
26 U.S.C. § 5845(b) (emphasis added). The
Bump-Stock Rule also fails to consider that the user
must apply constant forward pressure with his or her
nontrigger hand (a task that requires a fair amount of
strength and dexterity) to make the bump stock work,
which runs afoul of the word “automatically” in the
NFA. Our inquiry should begin and end with that
straightforward statutory analysis.
I therefore must respectfully dissent from the
majority’s conclusion that the NFA’s definition of a
machine gun is ambiguous as applied to bump stocks
and that we must uphold the Bump-Stock Rule
through Chevron deference. Neither the Judiciary nor
the Executive has the power to make or change law by
creating an ambiguity where none exists. To do so (as
both ATF did and the majority does today) subverts
the constitutional prerogatives of each branch of
government.
To be clear: I express no opinion on whether the
Second Amendment protects bump stocks, nor do I
express an opinion about whether any American
citizen even has a valid reason to own a bump stock.
Neither of those inquiries is before us today, and I do
not base my dissent on any personal convictions about
how a court should answer them. Rather, I dissent
simply because the unambiguous language of the NFA
establishes that Plaintiff W. Clark Aposhian is likely
to succeed on the merits of his challenge to the
Bump-Stock Rule. And in any event, even if the NFA's
language were ambiguous, I cannot endorse the
majority’s decision to uphold the Bump-Stock Rule
through Chevron deference. Applying Chevron is
misguided for two distinct reasons: ATF disavowed
that doctrine in its briefing, and the definition
of “machinegun” in the NFA carries criminal

42a
consequences. Finally, ATF waived its argument that
Plaintiff will not suffer any irreparable harm, which
simply bolsters the conclusion that Plaintiff is entitled
to preliminary injunctive relief.2
I.
Consider again how a nonmechanical bump
stock operates. The bump stock replaces the standard
stock of a rifle—the part of the gun that rests against
a shooter’s shoulder. A shooter pulls the trigger. The
kickback or recoil causes the gun to slide backward.
The shooter keeps his or her trigger finger stationary,
maintaining backward pressure on the trigger. At the
same time, the shooter must also apply forward
pressure with his or her non-shooting hand. This
process of forward pressure with one hand and
backward pressure with the other causes the firearm
to slide back and forth rapidly, which bumps the
stationary finger against the moving trigger. The
result: the trigger resets rapidly, which causes the rifle
to fire many shots over a short time. Bump-Stock Type
Devices, 83 Fed. Reg. at 66,516.
ATF believes that process transforms a firearm
into a weapon that shoots more than one shot
“automatically ... by a single function of the trigger.”
26 U.S.C. § 5845(b). To get there, ATF first clarified in
the Bump-Stock Rule that the word “automatically”
means “functioning as the result of a self-acting or
self-regulating mechanism that allows the firing of
2

The majority relies on the reasoning in the D.C. Circuit’s
opinion in Guedes v. Bureau of Alcohol, Tobacco, Firearms &
Explosives, 920 F.3d 1 (D.C. Cir. 2019), cert. denied, 140 S. Ct.
789 (2020). I agree with Judge Henderson’s thoughtful and
well-crafted partial dissent in that case.

43a
multiple rounds through a single function of the
trigger.” Bump-Stock-Type Devices, 83 Fed. Reg. at
66,553; see also 27 C.F.R. § 447.11. It next clarified
that the phrase “single function of the trigger” means
“single pull of the trigger and analogous motions.”
Bump-Stock-Type Devices, 83 Fed. Reg. at 66,553; see
also 27 C.F.R. § 447.11. And it finally concluded that
those clarifying definitions cover bump stocks:
[W]hen a shooter who has affixed a
bump-stock-type device to a
semiautomatic firearm pulls the trigger,
that movement initiates a firing sequence
that produces more than one shot. And
that firing sequence is “automatic”
because the device harnesses the
firearm's recoil energy in a continuous
back-and-forth cycle that allows the
shooter to attain continuous firing after a
single pull of the trigger, so long as the
trigger finger remains stationary on the
device's ledge (as designed).
Bump-Stock-Type Devices, 83 Fed. Reg. at 66,519
(emphases added).
I take no issue with ATF's definitions that
clarify the meanings of “automatically” and “single
function of the trigger.” But as I explain below,
applying those definitions to nonmechanical bump
stocks cannot lead to ATF's preferred result. I discuss
each in turn.
A.
I begin with the phrase “single function of the
trigger.” As mentioned, the Bump-Stock Rule defines
that phrase to mean “a single pull of the trigger and
analogous motions.” 27 C.F.R. § 447.11. When one

44a
dissects that language, the reason it cannot apply to
bump stocks becomes apparent.
To start, I agree with the majority that the word
“function” means “action.” Webster’s New
International Dictionary 876 (1933). That much is
clear. But I part ways with the majority when it
concludes that the “statute is silent” (and therefore
ambiguous) as to whether that action centers on “the
movement of the trigger, or the movement of the
trigger finger.”
In fact, the statute speaks clearly: the
function/action must be “of the trigger.” The NFA
mentions nothing about trigger finger or any other
“external impetus” that happens to interact with the
trigger. Guedes v. Bur. of Alcohol, Tobacco, Firearms
& Explosives, 920 F.3d 1, 43 (D.C. Cir. 2019)
(Henderson, J., concurring in part and dissenting in
part) (observing that the word “function” in the NFA
“focus[es] on how the trigger acts”). And given that
omission, we must presume “that [the] legislature says
... what it means and means ... what it says”—that is,
we must presume that the function/action of the
trigger itself is the only variable that matters. Henson
v. Santander Consumer USA Inc., 137 S. Ct. 1718,
1725 (2017) (alterations in original) (quoting Dodd v.
United States, 545 U.S. 353, 357 (2005)). By
concluding otherwise and allowing an inquiry into the
trigger finger, the majority effectively “replac[es] the
actual text” of the NFA “with speculation as to
Congress’ intent.” Magwood v. Patterson, 561 U.S. 320,
334 (2010). That the majority cannot do without taking
on a legislative role. As a result, Congress’s use of the
phrase “single function of the trigger” in the NFA can
mean only “single action of the trigger” and not “single

45a
action of the trigger finger.” The clear language ties
our hands.
Necessarily, then, ATF's interpretation of the
phrase “single function of the trigger”—i.e., “single pull
of the trigger and analogous motions”—can refer only
to the action of the trigger and not the trigger finger.
See Guedes, 920 F.3d at 43 (D.C. Cir. 2019)
(Henderson, J., concurring in part and dissenting in
part) (“[N]othing in the [Bump-Stock] Rule's definition
refers to a shooter's finger or a volitional action.”).
That is the only way for ATF's interpretation to
remain valid. Otherwise, ATF's interpretation would
contradict the unambiguous NFA—the interpretation
would refer to the trigger finger, while the statute
refers to the trigger alone—and “[a] regulation in
conflict with the terms of an unambiguous statute will
not be sustained.” Burnet v. Marston, 57 F.2d 611, 612
(D.C. Cir. 1932).3
That limitation on the phrase “single pull of the
trigger and analogous motions” sounds the death knell
for ATF's new take on bump stocks. For as I alluded to
above, a semiautomatic rifle equipped with a bump
stock simply does not use a single function of the
trigger to fire more than one shot.
3

The majority points out that the parties agree that ATF's
interpretation refers to the action of the shooter’s trigger finger.
But that agreement does not help the majority in any way. Again,
if the regulation does refer to the motion of the trigger finger, the
regulation is invalid because it conflicts with the unambiguous
NFA. Burnet, 57 F.2d at 612 (“While the [agency] was clothed
with authority to promulgate regulations, [it] was not authorized
to add to or take from the plain language of the statute, for, ‘where
the intent is plain, nothing is left to construction.’ ” (quoting
United States v. Fisher, 6 U.S. (2 Cranch) 358, 386 (1805))). I
simply choose to give the regulation the benefit of the doubt.

46a
To illustrate, first consider the basic mechanics
of a semiautomatic rifle that lacks a bump stock. The
trigger on that type of rifle must necessarily “pull”
backwards and release the rifle’s hammer—the part of
a rifle that sets in motion how the bullet leaves the
barrel—every time that the rifle discharges. See
Plaintiff-Appellant’s App’x A73–A74. The rifle cannot
fire a second round until both the trigger and hammer
reset. Only then can the trigger “pull” backwards once
more and reinitiate the entire firing process from the
beginning.
A bump stock cannot change that process. The
trigger on a semiautomatic rifle equipped with a bump
stock still pulls backwards every time that the rifle
fires. The only difference is that recoil—not the
operator’s finger—causes that pull. See Guedes, 920
F.3d at 48 (Henderson, J., concurring in part and
dissenting in part) (“A semiautomatic rifle shoots a
single round per pull of the trigger and the bump stock
changes only how the pull is accomplished.” (emphasis
in original)). Again, the NFA demands that we look
only to how the trigger acts. And given that the trigger
functions every time a semiautomatic rifle equipped
with a bump stock fires a round, such a rifle
unambiguously cannot be a machine gun under the
NFA even if the operator's trigger finger remains
stationary.
Contrasting a bump-stock-equipped rifle with
the machine gun that the majority references from our
decision in United States v. Oakes, 564 F.2d 384 (10th
Cir. 1977), reinforces my point. The gun in Oakes
contained two “projections” in the area that a
traditional trigger usually occupies. Id. at 388. The
first was a “forward” projection “curved so as to fit the
finger in a normal fashion”—in other words, it looked

47a
like and functioned as a regular trigger. Id. The second
projection was “seated behind” the forward one and
“curved in a manner so that at its extremity it would
be pushed if the [shooter fully pulled the forward
projection] to contact.” Id. In sum, when the shooter
fully pulled the first projection/trigger, the second
projection activated and “fully automated the gun.” Id.
The question in Oakes was whether that
interplay between the two projections allowed the gun
to fire more than one shot “by a single function of the
trigger”; the government argued it did, while the gun
owner argued that the gun's “two triggers” meant it
did not. Id. at 387 n.2, 388. Contra the majority's
suggestion today, the ultimate answer to that question
did not hinge on the shooter's volitional actions in any
way. Indeed, the holding of Oakes that the weapon fit
the bill of a machine gun under the NFA boiled down
to the fact that “fully pulling the trigger”—that is, the
forward projection—allowed the gun to automatically
fire rounds. Id. at 388. That rationale endures even if
one focuses on the shooter's trigger finger or the
trigger itself: both the finger and the trigger on such a
gun “pulled” just once to fire more than one round even
though a second, posterior projection factored into the
weapon’s automatic mechanism. See id. We should
thus draw little guidance from the language in Oakes
that speaks in terms of the shooter’s actions rather
than the trigger’s actions. The distinction between the
two concepts made no difference to the holding, so that
specific language in Oakes is no more than imprecise
dicta. Tokoph v. United States, 774 F.3d 1300, 1303
(10th Cir. 2014) (“[A] panel of this court is bound by a
holding of a prior panel of this court but is not bound
by a prior panel’s dicta.” (alteration and emphasis in

48a
original) (quoting Bates v. Dep’t of Corr., 81 F.3d 1008,
1011 (10th Cir. 1996))).
Viewed under that lens, Oakes supports my
position. That case tracks the text of the NFA: it does
not defy the congressional determination that the
trigger itself must function just once to fire more than
one shot. As I explain above, however, a rifle equipped
with a bump stock does not fit that rubric. That type of
rifle continues to use multiple functions of the trigger
itself even though the shooter must take only a single
volitional action. A bump stock, in other words,
changes only how a trigger pulls; it does not change
the fact that the trigger itself must function every shot.
Under the unambiguous language of the NFA, that
means that a bump stock cannot transform a
semiautomatic rifle into a machine gun.
B.
The word “automatically” in the NFA unearths
an even-more-obvious flaw in the ATF's bump-stock
ban.
As a reminder, I take no issue with the ATF's
interpretation of that word—i.e., “functioning as the
result of a self-acting or self-regulating mechanism
that allows the firing of multiple rounds through a
single function of the trigger.” 27 C.F.R. § 447.11. That
interpretation “reflects the ordinary meaning of that
term at the time of the NFA’s enactment in 1934,” and
that same ordinary meaning continues to this day.
Bump-Stock-Type Devices, 83 Fed Reg. at 66,519; see
also Webster’s New International Dictionary 187 (2d
ed. 1934) (defining “automatic” as “[h]aving a
self-acting or self-regulating mechanism that performs
a required act at a predetermined point in an
operation”); Automatic, Merriam-Webster.com

49a
Dictionary, https://www.merriam-webster.com/
dictionary/automatic (last visited Mar. 30, 2020)
(defining “automatic” as “having a self-acting or
self-regulating mechanism”).
The problem is again one of application. A
nonmechanical bump stock is not a “self-acting or
self-regulating mechanism”; the constant forward
pressure that the shooter must apply with his or her
nontrigger hand prevents that label.4
In coming to this conclusion, I do no more and
no less than take the words “self-acting” and
“self-regulating” at face value. If a mechanism is
self-acting, it acts by itself. If it is self-regulating, it
regulates itself. A nonmechanical bump stock does
neither. By design, that type of bump stock requires
manual human input—constant forward pressure with
the nontrigger hand—to act. And it requires that same
manual human input to regulate its actions. Without
the constant forward pressure, a nonmechanical bump
stock simply will not work; the firearm to which it is
attached will fire only one shot even with the
stationary trigger finger applying constant backward

4

In her dissent, Judge Henderson does question the ATF's
actual interpretation of the word “automatically.” See Guedes, 920
F.3d at 42 (Henderson, J., concurring in part and dissenting in
part) (“Although the [Bump-Stock] Rule ... correctly interprets
‘single function of the trigger,’ it misreads ‘automatically.’ ”). But
her reasons for that belief also stem from the constant forward
pressure that the shooter must apply with his or her nontrigger
hand. Id. at 43–45. Thus, no matter if the interpretation or
application of the word “automatically” is the ultimate problem,
the important point is that the “extra” physical input from the
nontrigger hand prevents us from classifying nonmechanical
bump-stock-type devices as machine guns.

50a
pressure. A nonmechanical bump stock is therefore not
“self-acting” or “self-regulating.”
That straightforward logic also highlights the
flaws underlying the majority’s attempt at fashioning
an ambiguity from the word “automatically.” Again,
the terms “self-acting” and “self-regulating” are
self-explanatory—they exclude any manual human
involvement by their very definitions. So the majority
is simply wrong when it says that the NFA is
ambiguous by failing to delineate the precise amount
of necessary human input. The ordinary, dictionary
definition of “automatically” makes the answer clear:
none.
The D.C. Circuit tried to make the majority’s
exact point by example. It observed, for instance, that
even automatic weapons “require both a single pull of
the trigger and the application of constant and
continuing pressure on the trigger after it is pulled.”
Guedes, 920 F.3d at 30 (majority opinion) (emphasis in
original). It also analogized an automatic firearm to an
automatic sewing machine that “requires the user to
press a pedal and direct the fabric.” Id. (emphasis in
original). Because these automatic devices require
some human interaction, the D.C. Circuit posited that
the word “automatically” remains ambiguous as to the
precise amount of human input that word permits.
But examples such as these only prove my
ultimate point. Unlike a nonmechanical bump stock,
the human involvement in a fully automatic firearm
and an automatic sewing machine is not a part of their
mechanisms themselves. Instead, the involvement is in
some way extrinsic to their actual mechanisms. And
that makes all the difference, because the terms
“self-acting” and “self-regulating” only modify the word
“mechanism.” See 27 C.F.R. § 447.11 (“[T]he term

51a
‘automatically’ ... means functioning as the result of a
self-acting or self-regulating mechanism....” (emphasis
added)). The continued pressure on the trigger of an
automatic firearm, for example, is not part of the
internal mechanism that keeps feeding cartridges into
and ejecting cartridges out of the firearm's chamber at
a rapid pace. The constant pedal-pressure on an
automatic sewing machine is the same way: although
that pressure keeps the automatic process going, the
pressure is not itself part of the engineered mechanism
that forces the needle to bob up and down. Directing
the fabric through an automatic sewing machine is an
even clearer example, because even if the sewer stops
feeding fabric, the automatic mechanism can continue
to operate.
By contrast, nonmechanical bump stocks require
manual human involvement at all times as part of
their underlying mechanisms. As I've previously
explained, these types of bump stocks increase a user’s
firing rate through recoil. And recoil is impossible
without constant forward pressure from the user's
nontrigger hand. The former hinges on the latter: no
manual human input, no recoil. In other words,
manual human input is a necessary element of a
nonmechanical bump stock’s actual mechanism, which
separates this type of bump stock from the examples
that the D.C. Circuit put forth.
For all of these reasons, a nonmechanical bump
stock is not a “self-acting or self-regulating
mechanism.” And because it is not self-acting or
self-regulating, the firearm to which it is attached is
unambiguously not one that shoots “automatically.”

52a
C.
In sum, both the word “automatically” and the
phrase “single function of the trigger” in the NFA are
unambiguous as applied to nonmechanical bump
stocks. Plaintiff is thus likely to succeed on the merits
of his challenge to the Bump-Stock Rule.
II.
Because the NFA's terms are unambiguous, the
majority inappropriately applied Chevron deference to
the Bump-Stock Rule. But even if that statute were
ambiguous, at least two other reasons counsel against
applying Chevron.
First, the government explicitly disavowed any
reliance on Chevron. That alone should have prevented
the majority from applying the controversial doctrine.
As Justice Gorsuch recently observed in another case
about the Bump-Stock Rule, “[i]f the justification for
Chevron is that ‘policy choices’ should be left to
executive branch officials ‘directly accountable to the
people,’ then courts must equally respect the
Executive's decision not to make policy choices in the
interpretation of Congress's handiwork.” Guedes v.
Bureau of Alcohol, Tobacco, Firearms & Explosives,
140 S. Ct. 789, 790 (2020) (statement of Gorsuch, J.,
respecting denial of certiorari) (emphasis in original)
(quoting Epic Sys. Corp., 138 S. Ct. at 1630). By doing
the exact opposite—that is, turning a blind eye to the
government’s request and applying Chevron
anyway—the majority “place[s] an uninvited thumb on
the scale in favor of the government.” Id. (statement of
Gorsuch, J., respecting denial of certiorari). That
concerns me, especially given that both the Supreme
Court and our Circuit have “often declined to apply
Chevron deference when the government fails to

53a
invoke it” or otherwise rely on it. Id. (statement of
Gorsuch, J., respecting denial of certiorari); see also,
e.g., Hays Med. Ctr. v. Azar, __ F.3d __, No. 17-3232,
2020 WL 1922595 at *13 n.18 (10th Cir. Apr. 21, 2020);
Hydro Res., Inc. v. EPA, 608 F.3d 1131, 1146 (10th Cir.
2010). If any of our precedent holds otherwise, see, e.g.,
TransAm Trucking, Inc. v. Admin. Review Bd., 833
F.3d 1206, 1212 n.4 (10th Cir. 2016), perhaps the day
will soon come when the Supreme Court definitively
overrules it.
Second, because the definition of “machinegun”
in the NFA “carries the possibility of criminal
sanctions,” Chevron is likewise inapplicable. Guedes,
140 S. Ct. at 790 (statement of Gorsuch, J., respecting
denial of certiorari); see also 18 U.S.C. § 922(o)(1) (“[I]t
shall be unlawful for any person to transfer or possess
a machinegun.”); 18 U.S.C. § 921(a)(23) (“The term
‘machinegun’ has the meaning given such term in
section 5845(b) of the National Firearms Act.”). I need
not belabor the point; many other jurists have written
about this concern in great detail. See, e.g., Guedes,
140 S. Ct. at 790 (statement of Gorsuch, J., respecting
denial of certiorari); Guedes, 920 F.3d at 39–42
(Henderson, J., concurring in part and dissenting in
part); Gutierrez-Brizuela v. Lynch, 834 F.3d 1142,
1155–57 (10th Cir. 2016) (Gorsuch, J., concurring);
Esquivel-Quintana v. Lynch, 810 F.3d 1019, 1027–32
(6th Cir. 2016) (Sutton, J., concurring in part and
dissenting in part), rev’d on other grounds sub nom.
Esquivel-Quintana v. Sessions, 137 S. Ct. 1562 (2017).
Suffice to say that when, as here, a law carries both
civil and criminal consequences, applying Chevron can
lead to troubling and unintended outcomes. After all,
“[b]ecause a single law should have a single meaning,
the ‘lowest common denominator’—including all rules

54a
applicable to the interpretation of criminal
laws—governs all of its applications.”
Esquivel-Quintana, 810 F.3d at 1028 (Sutton, J.,
concurring in part and dissenting in part) (quoting
Clark v. Martinez, 543 U.S. 371, 380 (2005)). That
approach is the only way to ensure that the law takes
on “the least liberty-infringing interpretation.” Id.
Thus, since “[t]he Supreme Court has expressly
instructed us not to apply Chevron deference when an
agency seeks to interpret a criminal statute,”
Gutierrez-Brizuela, 834 F.3d at 1155 (Gorsuch, J.,
concurring) (emphasis in original), the logical result is
that we must also not apply Chevron when a statute
has both civil and criminal applications.
With that said, the majority correctly observes
that, more than once, we have given at least some
deference to an agency’s interpretation of a statute
carrying criminal repercussions. See, e.g., United
States v. Hubenka, 438 F.3d 1026, 1032–34 (10th Cir.
2006); United States v. Atandi, 376 F.3d 1186, 1189
(10th Cir. 2004); NLRB v. Okla. Fixture Co., 332 F.3d
1284, 1287 (10th Cir. 2003) (en banc). And despite the
Supreme Court’s recent guidance condemning Chevron
in the criminal sphere, some courts (like the majority
today) believe that the Supreme Court’s language in
an earlier case muddies the waters. Compare
Abramski v. United States, 573 U.S. 169, 191 (2014)
(“[C]riminal laws are for courts, not for the
Government, to construe.”), and United States v. Apel,
571 U.S. 359, 369 (2014) (“[W]e have never held that
the Government’s reading of a criminal statute is
entitled to any deference.”), with Babbitt v. Sweet
Home Chapter of Cmties. for a Great Or., 515 U.S.
687, 703–04 & n.18 (1995) (“[W]e owe some degree of
deference to [the agency’s] reasonable interpretation”

55a
of a “statute [that] includes criminal penalties.”). See
also Guedes, 920 F.3d at 25 (majority opinion)
(drawing fine lines between Abramski, Apel, and
Babbitt to give Chevron a foothold when a statute
carrying criminal repercussions is at play).
Against this backdrop, my hope is that the
Supreme Court will one day take up this issue to give
us clear guidance for future cases. Whatever the
benefits of Chevron are, none come to mind by forcing
courts to expand the doctrine to statutes that bring
about dual civil and criminal consequences.
III.
As a final point, I disagree with the majority’s
conclusion that Plaintiff has not met his burden of
proving that he would suffer irreparable harm absent
an injunction. My reason is simple: the government
conceded outright in the district court that Plaintiff
would suffer irreparable harm by complying with the
regulation. When a party intentionally relinquishes or
abandons a theory in the district court, “we usually
deem it waived and refuse to consider it” on appeal.
Richison v. Ernest Group, Inc., 634 F.3d 1123, 1127
(10th Cir. 2011). We should follow that rule; hold the
government to its intentional waiver; and conclude
that Plaintiff, given that waiver, has met his burden of
establishing irreparable harm.
The majority retorts that our decision in
Dominion Video Satellite, Inc. v. EchoStar Satellite
Corp., 356 F.3d 1256 (10th Cir. 2004), forbids that
conclusion. The majority is mistaken. True enough, we
held in Dominion that a party moving for a
preliminary injunction could not establish irreparable
harm simply by invoking a contractual stipulation to
that fact. Id. at 1261, 1266. Even so, the opposing party

56a
in Dominion had argued in the district court that the
question of irreparable harm should not hinge on the
contractual stipulation alone. See, e.g., id. at 1261
(observing that the district court, “[i]n making its
irreparable harm determination,” rejected some of the
moving party’s arguments “[b]ased on evidence
presented by” the opposing party); id. (noting the
district court’s belief that the opposing party's expert
witnesses “persuasively demonstrated” the moving
party would suffer a quantifiable loss). And therein
lies the pivotal difference between Dominion in our
case today: the opposing party in Dominion never
intentionally waived its position on irreparable harm
in court, while the opposing party in our case (ATF)
did waive its position in court. A prelitigation
stipulation that a party later challenges once the
conflict comes to a head is far different than conceding
an element of a claim to a judge. In short, the majority
compares apples and oranges.
At bottom, the majority’s position means that a
party with the burden of proof cannot overcome its
burden by pointing out that the opposing party
conceded an element of the claim in court. As one
would expect, that alarming consequence skirts circuit
precedent. See, e.g., Johnson v. Spencer, 950 F.3d 680,
708 (10th Cir. 2020) (concluding that defendants who
had relied on claim preclusion as a defense met their
burden of proof on two of the three requisite elements
because the opposing party “concede[d] ... the second
and third elements”); United States v. Sinks, 473 F.3d
1315, 1321 (10th Cir. 2007) (observing that the
government can concede elements of the plain error
standard of review, which a criminal defendant has the
burden of proof to establish). And given that precedent
(and, for that matter, common judicial practice), the

57a
fact that Plaintiff and ATF had different views in the
district court about the type of irreparable harm at
issue is irrelevant. Because ATF conceded point blank
that Plaintiff would suffer some irreparable harm—one
of the four elements of any preliminary
injunction—Plaintiff's failure to correctly identify the
exact parameters of that harm has no legal effect.5
The majority thus fails to posit a defensible
reason for rewarding ATF's about-face on appeal. And
I myself cannot think of any good reason to do so when
strong counterarguments—for example, that bump
stocks are unique pieces of property, that the
Bump-Stock Rule can lead to criminal consequences,
and so on—suggest that ATF would (or at least should)
lose on the irreparable-harm element in any event. I
would therefore hold ATF to its intentional waiver and
conclude that Plaintiff will suffer irreparable harm
from the Bump-Stock Rule.6

5

The same logic applies to the majority’s argument that
a court’s ability to award Plaintiff compensatory damages for his
bump stock precludes his harm from being irreparable. Even if the
majority is correct—and I am not convinced it is, especially given
that ATF has argued in at least one other case that bump stock
owners are ineligible for compensation, Lane v. United States, No.
3:19-CV-01492-X, 2020 WL 1513470, at *1 (N.D. Tex. Mar. 30,
2020)—that nuance makes no difference today. Again, because
ATF conceded irreparable harm, Plaintiff's purported ability to
receive compensatory damages does not matter.
6

Absent waiver, I agree that Plaintiff cannot use our
holding in Free the Nipple-Fort Collins v. City of Fort Collins, 916
F.3d 792 (10th Cir. 2019), that “[a]ny deprivation of any
constitutional right” amounts to irreparable harm. Id. at 806.
Plaintiff makes no constitutional arguments today (he only makes
statutory and administrative arguments), so the language from
Free the Nipple goes nowhere from the start. With that said, in an

58a
IV.
For all these reasons, I would reverse the
district court's denial of a preliminary injunction. I
respectfully dissent.

appropriate case, we should consider revisiting (or at least
limiting) that specific holding from Free the Nipple. Allowing any
deprivation of any constitutional right to serve as per se
irreparable harm is a far-too-powerful tool in most cases.

59a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
W. CLARK APOSHIAN,
Plaintiff,
v.

Case No. 2:19-cv-37
District Judge
Jill N. Parrish

WILLIAM P. BARR,1
Attorney General of the
United States, et al.,
Defendants.
MEMORANDUM DECISION AND ORDER
DENYING MOTION FOR PRELIMINARY
INJUNCTION
This matter comes before the court on plaintiff
W. Clark Aposhian’s Motion for Preliminary
Injunction filed on January 17, 2019. (ECF No. 10).
Defendants filed an opposition on February 6, 2019,
(ECF No. 25), to which Mr. Aposhian replied on
February 11, 2019, (ECF No. 26). The court heard
oral argument for this motion on February 14, 2019.
On the basis of that hearing, the parties’ memoranda,
a review of relevant law, and for the reasons below,
1

This action was initially commenced against the former
Acting Attorney General Matthew Whitaker in his official
capacity. By operation of Federal Rule of Civil Procedure 25(d),
Mr. Barr was automatically substituted upon his confirmation as
Attorney General of the United States.

60a
plaintiff's Motion for Preliminary Injunction is denied.
I. BACKGROUND
A.

Regulatory Framework of Machine
Guns and Bump-Stock-Type Devices

Congress began regulating machine guns with
its passage of the National Firearms Act of 1934 (the
“NFA”). That act defined such weapons as follows:
The term “machinegun”2 means any
weapon which shoots, is designed to
shoot, or can be readily restored to
shoot, automatically more than one shot,
without manual reloading, by a single
function of the trigger. The term shall
also include the frame or receiver of any
such weapon, any part designed and
intended solely and exclusively, or
combination of parts designed and
intended, for use in converting a weapon
into a machinegun, and any combination
of parts from which a machinegun can
be assembled if such parts are in the
possession or under the control of a
person.
26 U.S.C. § 5845(b). The Gun Control Act of 1968 (the
“GCA”) incorporated this definition by reference into
the criminal code. See 18 U.S.C. § 921(23) (“The term
‘machinegun’ has the meaning given such term in
section 5845(b) of the National Firearms Act ....”).

2

The relevant statutes utilize an outmoded, one-word
“machinegun” spelling. Except when quoting statutory language,
this order uses the more contemporary, two-word “machine gun”
spelling.

61a
Today, with limited exceptions, it is “unlawful for any
person to transfer or possess a machinegun.” 18
U.S.C. § 922(o).
In 2006, the Bureau of Alcohol, Tobacco,
Firearms, and Explosives (the “ATF”) ruled that a
bump-stock-type device3 called the Akins Accelerator
qualified as a machine gun. The Akins Accelerator
employed internal springs to harness the weapon’s
recoil energy to repeatedly force the rifle forward into
the operator’s finger. In labeling the Akins
Accelerator a machine gun, the ATF interpreted the
statutory language “single function of the trigger” to
mean “single pull of the trigger.” The inventor of the
Akins Accelerator subsequently challenged this
interpretation in federal court. After the district court
rejected the challenge, the Eleventh Circuit Court of
Appeals affirmed, concluding that the ATF’s
interpretation was “consonant with the statute and
3

“Shooters use bump-stock-type devices with
semiautomatic firearms to accelerate the firearms’ cyclic firing
rate to mimic automatic fire. These devices replace a rifle’s
standard stock [the component of a rifle that rests against the
shooter’s shoulder] and free the weapon to slide back and forth
rapidly, harnessing the energy from the firearm’s recoil either
through a mechanism like an internal spring or in conjunction
with the shooter’s maintenance of pressure (typically constant
forward pressure with the non-trigger hand on the barrel-shroud
or fore-grip of the rifle, and constant rearward pressure on the
device’s extension ledge with the shooter’s trigger finger)....
[W]hen a bump-stock-type device is affixed to a semiautomatic
firearm, the device harnesses and directs the firearm’s recoil
energy to slide the firearm back and forth so that the trigger
automatically re-engages by ‘bumping’ the shooter’s stationary
finger without additional physical manipulation of the trigger by
the shooter.” 83 Fed. Reg. at 66516.

62a
its legislative history.” See Akins v. United States, 312
F. App’x 197, 200 (11th Cir. 2009).
From 2008 to 2017, the ATF issued ten letter
rulings in response to requests to classify
bump-stock-type devices. Applying the “single pull of
the trigger” interpretation, these rulings found that
the devices at issue—including Mr. Aposhian’s Slide
Fire device—indeed allowed a shooter to fire more
than one shot with a single pull of the trigger.
However, because the subject devices did not rely on
internal springs or other mechanical parts to channel
recoil energy like the Akins Accelerator, the ATF
concluded that they did not fire “automatically”
within the meaning of the statutory definition.
B. The Final Rule
On October 1, 2017, a lone shooter employing
multiple semi-automatic rifles with attached
bump-stock-type devices fired several hundred rounds
of ammunition into a crowd in Las Vegas, Nevada,
killing 58 people and wounding roughly 500 more.
Following this event, members of Congress urged the
ATF to examine whether devices like the one used in
the attack were actually machine guns prohibited by
law. On December 26, 2017, the Department of
Justice (the “DOJ”) published an Advanced Notice of
Proposed Rulemaking (ANPRM), soliciting comments
and manufacturer/retailer data regarding
bump-stock-type devices. See Application of the
Definition of Machinegun to “Bump Fire” Stocks and
Other Similar Devices, 82 Fed. Reg. 60929 (Dec. 26,
2017). On February 20, 2018, the President issued a
memorandum directing the Attorney General “to
dedicate all available resources to complete the review
of the comments received, and, as expeditiously as

63a
possible, to propose for notice and comment a rule
banning all devices that turn legal weapons into
machineguns.” Application of the Definition of
Machinegun to “Bump Fire” Stocks and Other Similar
Devices; Memorandum for the Attorney General, 83
Fed. Reg. 7949 (Feb. 23, 2018).
On March 29, 2018, the DOJ published a notice
of proposed rulemaking (NPRM). See
Bump-Stock-Type Devices, 83 Fed. Reg. 13442 (Mar.
29, 2018). Following a period of public comment, the
DOJ issued a Final Rule on December 26, 2018 that
(1) formalizes the ATF’s longstanding interpretation
of “single function of the trigger” to mean “single pull
of the trigger”; (2) interprets “automatically” to mean
“as the result of a self-acting or self-regulating
mechanism that allows the firing of multiple rounds
through a single pull of the trigger”; and (3)
concluding that bump-stock-type devices are machine
guns proscribed by the statutory scheme as
interpreted by the Final Rule. See Bump-Stock-Type
Devices, 83 Fed. Reg. 66514 (Dec. 26, 2018). The Final
Rule directs owners of bump-stock-type devices to
either destroy or surrender them to the ATF before
the Final Rule goes into effect on March 26, 2019. 83
Fed. Reg. 66515.
Mr. Aposhian lawfully purchased and
continues to own a Slide Fire bump-stock-type device.
On January 16, 2019, Mr. Aposhian filed suit against
the Attorney General of the United States, the DOJ,
the Director of the ATF, and the ATF. (ECF No. 2).
On January 17, 2019, Mr. Aposhian filed this motion
for preliminary injunction seeking to enjoin the Final
Rule from going into effect on March 26, 2019. (ECF
No. 10).

64a
II. PRELIMINARY INJUNCTION STANDARD
To obtain preliminary injunctive relief, a
movant must establish: “(1) a substantial likelihood of
success on the merits; (2) irreparable harm to the
movant if the injunction is denied; (3) the threatened
injury outweighs the harm that the preliminary
injunction may cause the opposing party; and (4) the
injunction, if issued, will not adversely affect the
public interest.” Gen. Motors Corp. v. Urban Gorilla,
LLC, 500 F.3d 1222, 1226 (10th Cir. 2007).
III. ANALYSIS
The parties do not dispute that Mr. Aposhian
will experience irreparable harm if the injunction is
denied.4 And though they offer short arguments
related to the third and fourth prongs of the
preliminary injunction analysis, the parties devote the
lion’s share of their memoranda to the merits prong.
As explained below, Mr. Aposhian has not
4

They do, however, disagree about what that irreparable
harm is. Mr. Aposhian suggests that, absent an injunction, he will
be harmed by being forced to comply with a rule that has been
promulgated in contravention of constitutional principles of
separation-of-powers. Defendants concede only that Mr.
Aposhian’s harm is the loss of his Slide Fire device, which, they
assert, is irreplaceable because no entity presently manufactures
such a device. Although it is clearly the case that the threatened
infringement of a plaintiff ’s individual constitutional rights will
satisfy the irreparable harm prong, the court can find no basis in
law for the proposition that a generalized separation-of-powers
violation gives rise to an injury on the part of an individual
citizen. Regardless, articulating the precise harm becomes
necessary only when weighing the threatened injury against the
harm caused by the preliminary injunction (i.e., the third prong).
Because Mr. Aposhian’s motion fails on the first prong—likelihood
of success on the merits—the court need not resolve this dispute.

65a
carried his burden of showing a substantial likelihood
of success on the merits. As a result, his motion for a
preliminary injunction must be denied.
This court’s review of the Final Rule is
governed by the Administrative Procedure Act (the
“APA”), 5 U.S.C. § 706(2)(A)–(C).5 Under this
framework, Mr. Aposhian asserts two general
arguments. First, that Congress has not empowered
the Attorney General6 to interpret the NFA and the
GCA. And second, that the Final Rule’s
interpretations conflict with the statutory language.
The court addresses each challenge in turn.
A. Interpretive and Rulemaking Authority
Mr. Aposhian argues that the Final Rule was
issued in excess of statutory jurisdiction because the
NFA does not vest the Attorney General or the ATF

5

Mr. Aposhian also raises a vague constitutional
challenge supported by citations to cases involving the
nondelegation doctrine. To the degree that Mr. Aposhian intended
to assert a nondelegation challenge, the court can confidently
reject any argument that the statutory grant of interpretive
authority at issue here is devoid of an intelligible principle upon
which the ATF may act. See Whitman v. Am. Trucking Ass’ns, 531
U.S. 457, 472–76 (2001). To the extent Mr. Aposhian instead
meant to assert a general separation-of-powers challenge to the
Final Rule, such a challenge is subsumed by the APA’s directive
that a reviewing court set aside agency action taken “in excess of
statutory jurisdiction, authority, or limitations, or short of
statutory right.” § 706(2)(C).
6

The Attorney General has delegated, “[s]ubject to the
direction of the Attorney General and Deputy Attorney General,”
the responsibility for administering and enforcing the NFA and
the GCA to the ATF—an agency within the Department of
Justice. See 28 CFR § 0.130(a)(1)–(3).

66a
with rulemaking authority. In response, the
defendants argue, and the court agrees, that the Final
Rule does no more than interpret undefined statutory
terms.7 Although the Attorney General and ATF
promulgated their interpretations through the more
laborious, formal notice-and-comment process, the use
of that procedure does not alter the Final Rule’s
interpretive character. And Mr. Aposhian does not
dispute that the ATF, under the direction of the
Attorney General, is empowered to interpret and
administer both the NFA and the GCA. See Pl.’s Mot.
for Prelim. Inj. (ECF No. 10 at 6); 18 U.S.C. § 926(a);
26 U.S.C. § 7801(a)(2); Guedes v. ATF, No. 18-cv-2988
(DLF), 2019 WL 922594 at *9 n.3 (D.D.C. Feb. 25,
2019) (rejecting challenges to the Final Rule’s
interpretations and the ATF’s interpretive authority,
noting the “ATF’s clear authority to interpret and
administer” the relevant statutes).

7

Although the Final Rule is merely interpretive in nature,
it appears, contrary to Mr. Aposhian’s argument, that the
Attorney General has indeed been granted rulemaking authority
under the NFA. Mr. Aposhian is correct that 26 U.S.C. § 7805(a)
declares that “the Secretary [of the Treasury] shall prescribe all
needful rules and regulations for the enforcement of this title[.]”
But he fails to account for the statutory language in
§ 7801(a)(2)(A), which functionally substitutes “Attorney General”
for “Secretary of the Treasury” in § 7805(a) insofar as the
rulemaking at issue relates to, among other weapons, machine
guns. § 7801(a)(2)(A), (A)(ii) (“[T]he term ‘Secretary’ or ‘Secretary
of the Treasury’ shall, when applied to [§ 7805, to the extent
§ 7805 relates to the enforcement and administration of Chapter
53, governing machine guns], mean the Attorney General ....”).
And the Attorney General’s rulemaking authority under the GCA
is beyond question. 18 U.S.C. § 926(a) (“The Attorney General
may prescribe only such rules and regulations as are necessary to
carry out the provisions of this chapter ....”).

67a
In addition to his explicit statutory authority,
the Attorney General has been implicitly delegated
interpretive authority to define ambiguous words or
phrases in the NFA and the GCA. Congress did not
define “automatically” or “single function of the
trigger,” and when Congress leaves terms in a statute
undefined, the agency charged with administering
that statute has been implicitly delegated the
authority to clarify those terms.8
B. Final Rule Interpretations

The Final Rule interprets “single function of
the trigger” to mean “single pull of the trigger” and
analogous motions, and it interprets “automatically”
to mean “as the result of a self-acting or
self-regulating mechanism that allows the firing of
8

The notion that an undefined or ambiguous term
amounts to an implicit delegation of interpretive power is borne,
unmistakably, from the administrative law doctrine announced by
Chevron, U.S.A., Inc. v. Natural Resources Defense Council, Inc.,
467 U.S. 837 (1984). In setting forth this principle in its
memorandum in opposition, however, defendants went out of their
way to avoid citing Chevron and its progeny, and repeatedly
stressed that they neither request, nor believe their
interpretations are entitled to, any measure of deference. See
Defs.’ Mem. in Opp’n (ECF No. 25 at 29) (citing United States v.
Apel, 571 U.S. 359, 369 (2014) (remarking that the Supreme Court
has never accorded deference to an agency’s internal reading of a
criminal statute)). This opinion is puzzling because it is far from
settled that an agency is entitled to no deference when its
interpretations implicate criminal liability. See United States v.
White, 782 F.3d 1118, 1135 n.18 (10th Cir. 2015) (collecting
Supreme Court and Tenth Circuit cases applying at least some
deference to interpretations that affect criminal penalties). The
court need not confront this deference dilemma here because the
Final Rule’s clarifying definitions reflect the best interpretation
of the statute.

68a
multiple rounds through a single pull of the trigger.”
83 Fed. Reg. Having supplied those definitions, the
Final Rule clarifies that bump-stock-type
devices—like the Slide Fire device owned by Mr.
Aposhian—are machine guns proscribed by law. The
court examines each interpretation in turn.
1. “Single Function of the Trigger”
The statutory language “single function of the
trigger” gives rise to the parties’ dispute about what
“function” means.9 Mr. Aposhian contends that
“function” refers to the mechanical movement of the
trigger, while the Final Rule adopts a shooter-focused
interpretation. Because bump-stock-type devices
operate through multiple movements of the trigger
(by rapidly “bumping” the trigger into the operator’s
finger), a mechanically-focused interpretation would
omit bump-stock-type devices from the statute’s
definition.
The court finds that “single pull of the trigger”
is the best interpretation of “single function of the
trigger,” a conclusion similarly reached by the
Eleventh Circuit Court of Appeals. See Akins v.
United States, 312 F. App’x 197, 200 (11th Cir. 2009)
(“The interpretation by the [ATF] that the phrase
‘single function of the trigger’ means a ‘single pull of
the trigger’ is consonant with the statute and its
legislative history.”); see also Guedes, 2019 WL
922594 at *10 (“Tellingly, courts have instinctively
reached for the word ‘pull’ when discussing the
9

The court in Guedes noted, and this court agrees, that
“dictionaries from the time of the NFA’s enactment are of little
help in defining a ‘single function of the trigger.’ ” Guedes, 2019
WL 922594 at *9.

69a
statutory definition of ‘machinegun.’ ”).
Moreover, it makes little sense that Congress
would have zeroed in on the mechanistic movement of
the trigger in seeking to regulate automatic weapons.
The ill sought to be captured by this definition was
the ability to drastically increase a weapon’s rate of
fire, not the precise mechanism by which that
capability is achieved. At oral argument, defendants
persuasively argued that the unusual choice of
“function” is intentionally more inclusive than “pull.”
Thus, “function” was likely intended by Congress to
forestall attempts by weapon manufacturers or others
to implement triggers that need not be pulled,
thereby evading the statute’s reach.10
2. “Automatically”
The Final Rule interprets “automatically” to
mean “as the result of a self-acting or self-regulating
mechanism that allows the firing of multiple rounds
through a single pull of the trigger.” This interpretive
language is borrowed, nearly word-for-word, from
dictionary definitions contemporaneous to the NFA’s
enactment. See 83 Fed. Reg. 66519. The 1934
Webster’s New International Dictionary defines the
adjectival form “automatic” as “[h]aving a self-acting
or self-regulating mechanism that performs a required
act at a predetermined point in an operation[.]” 187
(2d ed. 1934); see also 1 Oxford English Dictionary
574 (1933) (defining “automatic” as “[s]elf-acting
under conditions fixed for it, going of itself”).
10

The Final Rule’s interpretation does use “pull,” but
avoids the issue above by interpreting “ ‘single function of the
trigger’ to mean ‘single pull of the trigger’ and analogous
motions[.]” 83 Fed. Reg. at 66515 (emphasis added).

70a
And as with “a single pull of the trigger,” the
Final Rule’s interpretation of “automatically” accords
with past judicial interpretation. See United States v.
Olofson, 563 F.3d 652, 658 (7th Cir. 2009) (relying on
the same dictionary definitions to conclude that “the
adverb ‘automatically,’ as it modifies the verb ‘shoots,’
delineates how the discharge of multiple rounds from
a weapon occurs: as the result of a self-acting
mechanism ... that is set in motion by a single
function of the trigger and is accomplished without
manual reloading.”).
Mr. Aposhian’s argument in opposing the
propriety of this interpretation is difficult to follow,
but it appears to relate to the requisite degree of
automaticity. Specifically, he suggests that “[i]f a
firearm requires separate physical input, even if not
directed to the trigger mechanism, this still disrupts
the automatic firing of each successive shot.” (ECF
No. 10 at 9) (emphasis in original). Because
bump-stock-type devices require constant forward
pressure by the shooter’s non-trigger hand on the
barrel or the shroud of the rifle, Mr. Aposhian argues,
it does not fire “automatically.”
But even weapons uncontroversially classified
as machine guns require at least some ongoing effort
by an operator. And Mr. Aposhian does not argue that
the constant rearward pressure applied by a shooter’s
trigger finger in order to continue firing a machine
gun means that it does not fire “automatically.” Under
Mr. Aposhian’s view, it seems, the statute
encompasses machine guns that require some, but not
too much, ongoing physical actuation. But neither the
statute nor the contemporaneous understanding of
“automatic” provides any basis for an interpretation

71a
that restricts the degree of shooter involvement in an
automatic process. As illustrated by the atextual line
urged by Mr. Aposhian, any limit on the degree of
physical input would invariably be supplied of whole
cloth in service of one’s desired result.
The Final Rule’s interpretation of
“automatically” is consistent with its ordinary
meaning at the time of the NFA’s enactment and
accords with judicial interpretation of that language.
Thus, it represents the best interpretation of the
statute.
3.

Classification of Bump-Stock-Type
Devices as Machine Guns
Mr. Aposhian does not appear to argue that the
interpretations above, if valid, would not permit the
classification of his Slide Fire device as a machine
gun. He does, however, request more aggressive
judicial review of the Final Rule because of its
allegedly political impetus, and because it represents
a change in the ATF’s position (i.e., some devices
previously ruled by the ATF to not be machine guns
are now brought within the statutory ambit).
But the Supreme Court’s
modern
administrative law jurisprudence expressly rejects
both propositions. See F.C.C. v. Fox Television
Stations, Inc., 556 U.S. 502, 523 (2009) (rejecting
argument that heightened scrutiny applies to a “policy
change [that] was spurred by significant political
pressure from Congress”); Lockheed Martin Corp. v.
Admin. Review Bd., Dep’t of Labor, 717 F.3d 1121,
1131 (10th Cir. 2013) (“The Supreme Court has
rejected the notion that an agency’s interpretation of
a statute it administers is to be regarded with

72a
skepticism when its position reflects a change in
policy.”). Indeed, an agency’s change in position need
only be accompanied by the agency’s
acknowledgement that its position has changed, along
with an explanation that “the new policy is
permissible under the statute, that there are good
reasons for it, and that the agency believes it to be
better, which the conscious change of course
adequately indicates.” F.C.C., 556 U.S. at 515
(emphasis in original).
The ATF’s change in policy easily meets this
standard. The Final Rule unambiguously
acknowledges that the ATF is changing its position
with respect to certain bump-stock-type devices, and
explains that the ATF’s prior rulings excluding those
devices from the definition of machine gun “did not
provide substantial or consistent legal analysis
regarding the meaning of the term ‘automatically,’ as
it is used in the NFA and GCA.” 83 Fed. Reg. 66518.
And the court has already determined that the
definitions leading to the classification changes are
permissible under, and in fact represent the best
interpretation of, the statute. In sum, neither the
alleged political genesis of the Final Rule nor the fact
that it reflects a change in agency policy serve to
undermine the Final Rule’s validity.
Having found that each component of the Final
Rule represents the best interpretation of the statute,
the court cannot find that Mr. Aposhian is likely to
succeed on the merits of his challenge to the Final
Rule. Absent such a showing, an injunction may not
issue.

73a
IV. ORDER
For the reasons articulated, plaintiff’s Motion
for Preliminary Injunction is DENIED.
Signed March 15, 2019
BY THE COURT
Jill N. Parrish
United States District Court Judge

74a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 19-4036
W. CLARK APOSHIAN,
Plaintiff - Appellant,
v.
WILLIAM BARR, Attorney General of the United
States; UNITED STATES DEPARTMENT OF
JUSTICE; THOMAS E. BRANDON, Acting Director
Bureau of Alcohol Tobacco Firearms and Explosives;
BUREAU OF ALCOHOL TOBACCO FIREARMS
AND EXPLOSIVES,
Defendants - Appellees.
______________
CATO INSTITUTE and FIREARMS POLICY
COALITION; DUE PROCESS INSTITUTE,
Amicus Curiae.
__________
Appeal from the United States District Court
for the District of Utah
(D.C. No. 2:19-CV-00037-JNP-BCW)
ORDER
Filed: September 4, 2020
___________

75a
Before TYMKOVICH, Chief Judge, BRISCOE,
LUCERO, HARTZ, HOLMES, MATHESON,
BACHARACH, PHILLIPS, MORITZ, EID, and
CARSON, Circuit Judges.*
This matter is before us on Appellant’s Petition
for Rehearing En Banc (“Petition”). We also have a
response from Appellees, and Appellant has filed a
motion for leave to file a reply in support of the
Petition. As an initial matter, Appellant’s motion for
leave to file a reply is DENIED as unnecessary.
The Petition and response were circulated to all
non-recused active judges of the court. A poll was
called, and a majority of the non-recused active judges
voted to rehear this matter en banc. Accordingly, the
Petition is GRANTED, the court’s May 7, 2020
judgment is VACATED, and this matter is
REOPENED. See Fed. R. App. P. 35(a); see also 10th
Cir. R. 35.6 (noting the effect of the grant of en banc
rehearing is to vacate the judgment and to restore the
case on the docket).
Although this entire case will be reheard en
banc, the parties shall specifically address the
following question[s] in supplemental memorandum
briefs:
1. Did the Supreme Court intend for the
Chevron framework to operate as a standard of review,
a tool of statutory interpretation, or an analytical
framework that applies where a government agency
has interpreted an ambiguous statute?

*

matter.

The Honorable Carolyn B. McHugh is recused in this

76a
2. Does Chevron step-two deference depend on
one or both parties invoking it, i.e., can it be waived;
and, if it must be invoked by one or both parties in
order for the court to apply it, did either party
adequately do so here?
3. Is Chevron step-two deference applicable
where the government interprets a statute that
imposes both civil and criminal penalties?
4. Can a party concede the irreparability of a
harm; and, if so, must this court honor that
stipulation?
5. Is the bump stock policy determination made
by the Bureau of Alcohol, Tobacco and Firearms
peculiarly dependent upon facts within the
congressionally vested expertise of that agency?
Appellant’s supplemental memorandum brief
shall be filed and served within 30 days of the date of
this order, and shall be no longer than 20
double-spaced pages in a 13- or 14-point font. Sixteen
paper copies of Appellant’s supplemental brief must be
received in the Clerk’s Office within 5 business days of
the brief’s electronic filing.
Within 30 days of service of Appellant’s
supplemental brief, Appellees shall file a supplemental
memorandum response brief subject to the same
length and font limitations. Sixteen paper copies of
Appellees’ supplemental brief must be received in the
Clerk’s Office within 5 business days of the brief’s
electronic filing.
Within 14 days of service of Appellees’
supplemental brief, Appellant may file a reply. The
reply shall be limited to 10 double-spaced pages in
length. Like the primary supplemental briefs, 16 paper
copies of the reply must be received in the Clerk’s

77a
Office within 5 business days of the brief’s electronic
filing.
Upon completion of supplemental briefing, this
matter will be set for oral argument before the en banc
court. The parties will be advised of the date and time
for the en banc argument via separate order.
Entered for the Court
CHRISTOPHER M. WOLPERT, Clerk

78a
APPENDIX D
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
No. 19-4036
W. CLARK APOSHIAN,
Plaintiff - Appellant,
v.
Robert M. WILKINSON, Acting Attorney General of
the United States; UNITED STATES DEPARTMENT OF JUSTICE; REGINA LOMBARDO, Acting
Director Bureau of Alcohol Tobacco Firearms and
Explosives; BUREAU OF ALCOHOL TOBACCO
FIREARMS AND EXPLOSIVES,
Defendants - Appellees.*
_______________________
CATO INSTITUTE and FIREARMS POLICY
COALITION; DUE PROCESS INSTITUTE,
Amicus Curiae.
(D.C. No. 2:19-CV-00037-JNP-BCW)
(D. Utah)
FILED March 5, 2021
*

Pursuant to Fed. R. App. P 43(c)(2), William Barr is
replaced by Robert M. Wilkinson as Acting United States Attorney
General, and Thomas E. Brandon is replaced by Regina Lombardo
as Acting Director of the Bureau of Alcohol Tobacco Firearms and
Explosives.

79a

__________________
ORDER
__________________
Before TYMKOVICH, Chief Judge, BRISCOE,
LUCERO**, HARTZ, HOLMES, MATHESON,
BACHARACH, PHILLIPS, MORITZ, EID, and
CARSON, Circuit Judges.***
On September 4, 2020, this court entered an
order granting Appellant’s Petition for Rehearing En
Banc. Having now considered the parties’
supplemental briefs and heard oral argument in this
matter, a majority of the en banc panel has voted to
vacate the September 4, 2020 order as improvidently
granted. As a result, the court’s September 4, 2020
order granting en banc rehearing is VACATED, the
court’s May 7, 2020 opinion is REINSTATED, and the
Clerk shall reissue this court’s judgment as of the date
of this order.
Chief Judge Tymkovich, as well as Judges
Hartz, Holmes, Eid and Carson would proceed with en
banc rehearing. Chief Judge Tymkovich, Judge Hartz,
Judge Eid, and Judge Carson have written separate

**

The Honorable Carlos F. Lucero participated in the en
banc court’s consideration of this matter while still in active
status. He took senior status effective February 1, 2021, but has
participated fully in this order.
***

matter

The Honorable Carolyn B. McHugh is recused in this

80a
dissents from this order, and each has joined in the
others’ dissents. Judge Holmes has also joined all
dissents.
All pending motions for leave to file amicus
briefs on rehearing are DENIED.
Entered for the Court,
CHRISTOPHER M. WOLPERT, Clerk
TYMKOVICH, Chief Judge, joined by HARTZ,
HOLMES, EID, and CARSON, Circuit Judges,
dissenting.
I dissent from the majority’s decision to vacate
the en banc order as improvidently granted. The issues
that initially led this court to grant en banc rehearing
remain unresolved and it is important that they be
addressed to give guidance to future panels and
litigants. I write separately to identify why the panel
majority wrongly decided the case in the first place
and why its opinion will have deleterious effects going
forward.
W. Clark Aposhian brought a pre-enforcement
challenge to a rule promulgated by the Bureau of
Alcohol, Tobacco, Firearms, and Explosives (ATF) that
classifies bump stocks as machine guns1 under the
National Firearms Act (NFA), 26 U.S.C. §§ 5801–5872.
The Final Rule was promulgated to clarify the
definition of “machinegun” found in 26 U.S.C.

1

I use the two-word spelling of machine gun except when
quoting sources.

81a
§ 5845(b). See 27 C.F.R. § 479.11. The Final Rule
required owners of bump stocks to destroy them or
abandon them to the ATF by March 26, 2019. See
Bump-Stock-Type Devices, 83 Fed. Reg. 66,514, 66,514
(Dec. 26, 2018) (Final Rule).
Mr. Aposhian sought a preliminary injunction
from the district court to prevent ATF from enforcing
the Final Rule. The district court denied the motion for
a preliminary injunction, concluding Mr. Aposhian had
not shown a likelihood of success on the merits of his
challenge. Mr. Aposhian then filed an interlocutory
appeal with this court.
The panel majority who considered the
interlocutory appeal affirmed the district court. See
Aposhian v. Barr, 958 F.3d 969 (10th Cir. 2020). The
panel agreed with the district court that Mr. Aposhian
had not demonstrated a likelihood of succeeding on the
merits of his claim.2 But it departed from the district
court’s reasoning. While the district court had
concluded the best reading of “machinegun” in
§ 5845(b) included bump stocks, the panel majority
found the statute ambiguous. Id. at 985–88. Having
identified an “ambiguity,” the panel applied Chevron
deference to the ATF’s interpretation of § 5845(b). Id.
at 988. Given this deference, Mr. Aposhian had no
realistic path to success. The panel found ATF’s

2

To prevail on a motion for a preliminary injunction, the
movant must show “(1) a substantial likelihood of success on the
merits; (2) irreparable harm to the movant if the injunction is
denied; (3) the threatened injury outweighs the harms that the
preliminary injunction may cause the opposing party; and (4) the
injunction, if issued, will not adversely affect the public interest.”
Gen. Motors Corp. v. Urban Gorilla, LLC, 500 F.3d 1222, 1226
(10th Cir. 2007).

82a
application of § 5845(b) to bump stocks to be a
permissible reading of the statute and denied Mr.
Aposhian’s request for a preliminary injunction.
I believe the panel majority went looking for
ambiguity where there was none. Then, having found
ambiguity, it unnecessarily placed a thumb on the
scale for the government by invoking Chevron
deference. The panel majority did this even though
ATF maintained the statute was unambiguous and did
not claim its interpretation was entitled to any special
deference. The panel also applied Chevron even though
ATF’s Final Rule has criminal, as well as civil,
consequences. In doing so, the panel majority further
confused this court’s law about whether Chevron can
be waived and whether the rule of lenity can ever be
used to resolve ambiguities when Chevron might also
apply to statutes with criminal penalties. Now, by
vacating the en banc order as improvidently granted,
the court deprives us of the chance for much-needed
clarity on these issues.
I. Likelihood of Success on the Merits
As an initial matter, Mr. Aposhian has shown a
likelihood of success on the merits. Section 5845(b)
unambiguously excludes bump stocks from its ambit.
And even if the statute is ambiguous, Chevron
deference is inapplicable here for several reasons.
First, the government consistently refused to invoke
Chevron deference for its interpretation. That is a
decision we should respect. And second, because the
Final Rule interprets a statute with criminal
consequences, we must resolve ambiguity through the
rule of lenity before ever reaching for Chevron. The
manner in which the panel majority addressed these

83a
issues is not only wrong, it creates an unfortunate
amount of uncertainty for future litigants.
A. Standard of Review
The standard for reviewing a district court’s
denial of a preliminary injunction is abuse of
discretion. Fish v. Kobach, 840 F.3d 710, 723 (2016).
The district court abuses its discretion when its
decision is premised “on an erroneous conclusion of law
or where there is no rational basis in the evidence for
the ruling.” Id. (internal quotation marks omitted). We
evaluate the district court’s legal determinations de
novo. Id.
B. Statutory Framework
I am not the first to spill ink over this issue, so
I will keep my description of the statutory regime
brief. See Aposhian, 958 F.3d 969; see also Guedes v.
Bureau of Alcohol, Tobacco, Firearms and Explosives,
920 F.3d 1 (D.C. Cir. 2019), cert. denied, 140 S. Ct. 789
(2020). The NFA, originally passed in 1934, “imposes
strict registration requirements on statutorily defined
‘firearms.’ ” Staples v. United States, 511 U.S. 600, 602
(1994). Machine guns are among those firearms subject
to regulation and registration under the NFA. See 26
U.S.C. § 5845(a). Under § 5845(b), a “machinegun” is
“any weapon which shoots, is designed to shoot, or can
be readily restored to shoot, automatically more than
one shot, without manual reloading, by a single
function of the trigger.” The statutory definition also
includes “any part designed and intended ... for use in
converting a weapon into a machinegun.” Id.
The Gun Control Act of 1968 (GCA), as amended
by the Firearm Owners’ Protection Act of 1986, Pub. L.
No. 99-308, 100 Stat. 449, incorporated the NFA’s

84a
definition of machine gun. 18 U.S.C. § 921(a)(23).
These acts went beyond mere regulation, criminalizing
almost all possession of machine guns. See id. at
§ 922(o)(1).
No such blanket prohibition exists for possession
of semiautomatic rifles, which require separate pulls
of the trigger for each bullet fired. As a result, firearm
manufacturers have created accessories that allow a
semiautomatic rifle to increase the speed with which
it can fire a single round. A bump stock is one such
accessory. It is intended to replace the rifle’s standard
stock, the part of the rifle that usually rests against
the shooter’s shoulder. This frees “the weapon to slide
back and forth rapidly, harnessing the energy from the
firearm’s recoil either through a mechanism like an
internal spring or in conjunction with the shooter’s
maintenance of pressure.” Bump-Stock-Type Devices,
83 Fed. Reg. at 66,516. For a non-mechanical bump
stock—one without an internal spring—to work as
intended, the shooter must maintain backward
pressure with his trigger finger and forward pressure
on the rifle’s barrel with his non-trigger hand. The
channeled recoil from the bump stock then causes the
trigger to reset and bump repeatedly against the
shooter’s stationary trigger finger, resulting in a rate
of fire comparable to a machine gun.
ATF classified a bump stock device as a
“machinegun” for the first time in 2006. Specifically,
“ATF concluded that a device attached to a
semiautomatic firearm that uses an internal spring to
harness the force of a firearm’s recoil so that the
firearm shoots more than one shot with a single pull of
the trigger is a machinegun.” Id. at 66,514. But over
the next decade, ATF issued classification decisions in

85a
which it repeatedly assured bump stock owners that
non-mechanical bump stocks were not machine guns
as understood in § 5845(b). Id.
In 2017, a shooter used a non-mechanical bump
stock to attack a large crowd attending an outdoor
concert in Las Vegas. Scores died and hundreds were
injured during this senseless act of violence. Following
this tragic incident, members of Congress and the
President asked ATF to examine these past
classifications. Id. at 66,516. ATF reviewed its
definition and then went through the formal
notice-and-comment process to update its
understanding of what qualifies as a machine gun. Id.
at 66,517. The Final Rule clarified the definition of
“machinegun” in § 5845(b), stating
[f]or purposes of this definition, the term
“automatically” as it modifies “shoots, or
can be readily restored to shoot,” means
functioning as the result of a self-acting
or self-regulating mechanism that allows
the firing of multiple rounds through a
single function of the trigger; and “single
function of the trigger” means a single
pull of the trigger or analogous motions.
The term “machine gun” includes a bumpstock-type-device, i.e., a device that allows
a semi-automatic firearm to shoot more
than one round with a single pull of the
trigger by harnessing the recoil energy of
the semiautomatic firearm to which it is
affixed so that the trigger resets and
continues firing without additional
manipulation of the trigger by the shooter.
27 C.F.R. § 479.11.

86a
The Final Rule was set to take effect on March
26, 2019, at which point everyone who possessed a
bump stock was supposed to destroy it or turn it over
to ATF. Bump-Stock-Type Devices, 83 Fed. Reg. at
66,514.
C. The Statute Is Unambiguous
Mr. Aposhian argued before the district court
and the panel that ATF exceeded its authority by
including bump stocks within the definition of
“machinegun” in its Final Rule. Under the
Administrative Procedure Act (APA), courts must
“hold unlawful and set aside agency action, findings,
and conclusions found to be ... in excess of statutory
jurisdiction, authority, or limitations, or short of
statutory right.” 5 U.S.C. § 706(2)(C).
When evaluating an agency’s interpretation of
a statute, we often afford its interpretation Chevron
deference. Chevron requires courts to defer to an
agency’s interpretation of a statute “even if the
agency’s reading differs from what the court believes
is the best statutory interpretation.” Nat. Cable &
Telecomms. Ass’n v. Brand X Internet Servs., 545 U.S.
967, 980 (2005). But such deference is not
automatically warranted whenever an agency issues a
statement regarding its understanding of a statute.
Courts apply Chevron deference only “[i]f a statute is
ambiguous, and if the implementing agency’s
construction is reasonable.” Id. Here, § 5845(b)
contains no ambiguity so “Chevron leaves the stage.”
Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1630 (2018).
As a reminder, § 5845(b) defines a “machinegun”
as “any weapon which shoots, is designed to shoot, or
can be readily restored to shoot, automatically more
than one shot, without manual reloading, by a single

87a
function of the trigger.” The question before the panel
was whether this definition includes nonmechanical
bump stocks. The panel majority regarded two parts of
the statutory definition as sufficiently ambiguous for
Chevron deference to apply: “single function of the
trigger” and “automatically.”
Chevron deference “is not due unless a court,
employing traditional tools of statutory construction,
is left with an unresolved ambiguity.” Epic Sys. Corp.,
138 S. Ct. at 1630. Among other tools, this includes
“examination of the statute's text, structure, purpose,
history, and relationship to other statutes” with an
emphasis on a word or phrase’s “plain meaning.”
Harbert v. Healthcare Servs. Grp., Inc., 391 F.3d 1140,
1147, 1149 (10th Cir. 2004). The fact that
self-interested litigants disagree as to the meaning of
a statute does not render it ambiguous. See In re
Woolsey, 696 F.3d 1266, 1273 (10th Cir. 2012)
(explaining that this is “an ailment surely afflicting
most every statutory interpretation question in our
adversarial legal system”).
The panel majority, however, evaded these rules
of interpretation. Rather than attempt to resolve
ambiguity, the panel majority performed interpretive
gymnastics to create ambiguity. In truth, neither of the
parties really dispute the meaning of any words or
phrases in the statutory definition of “machinegun.”
They dispute only whether the meaning encompasses
bump stocks. And the answer to that question is
apparent on the face of the statute.
A “single function of the trigger” is not
ambiguous. At the time the NFA was passed, a
“function” meant the “action” of the trigger. Webster’s
New International Dictionary 1019 (2d ed. 1934). The

88a
use of the word “function” continues to capture the
different ways that triggers can work. As the
government explained in the Final Rule, triggers can
initiate fire “by voice command, electronic switch,
swipe on a touchscreen or pad, or any conceivable
number of interfaces.” Bump-Stock-Devices, 83 Fed.
Reg. at 66,534. Whether a trigger is pushed, pulled,
switched, or swiped, each involves a “single function.”
The panel majority insists this language is
ambiguous because “a single function of the trigger”
can be interpreted to refer to the trigger or the shooter.
See Aposhian, 958 F.3d at 986 (arguing the statutory
language “begs the question of whether ‘function’
requires our focus upon the movement of the trigger,
or the movement of the trigger finger”). But the panel
majority finds ambiguity where there is none. The
statute’s plain language makes clear the “function”
must be “of the trigger.” 26 U.S.C. § 5845(b) (emphasis
added). The statute speaks only to how the trigger
acts, making no mention of the shooter.3
The statute’s plain meaning unambiguously
excludes bump stocks. A semiautomatic rifle, equipped
with a bump stock, does not fire multiple shots by a
single function of the trigger. “The trigger on that type
of rifle must necessarily ‘pull’ backwards and release
the rifle’s hammer ... every time that the rifle
discharges .... The rifle cannot fire a second round until
3

And the same is true of ATF’s definition. See Guedes, 920
F.3d at 43 (Henderson, J., dissenting) (“The Rule’s definition
describes the ‘motion’ of the trigger, not of the trigger finger ....
Indeed, nothing in the Rule’s definition refers to a shooter’s finger
or a volitional action.”). To consider the shooter or the
trigger-finger in the statute or ATF’s definition is to read in
language that simply is not there.

89a
both the trigger and hammer reset.” Aposhian, 958
F.3d at 995 (Carson, J., dissenting). Every shot
requires the trigger to go through this full process
again. The fact that a bump stock accelerates this
process does not change the underlying fact that it
requires multiple functions of the trigger to mimic a
machine gun.
Likewise, “automatically” is not so ambiguous as
to imply Congress intended ATF to engage in
gap-filling. In fact, ATF disclaims any gap-filling in the
Final Rule. See Bump-Stock-Type Devices, 83 Fed.
Reg. at 66,519. Far from indicating any statutory
ambiguity, ATF’s proposed definition in the Final Rule
“accords with the everyday understanding of the word
‘automatic[ally].’” Guedes, 920 F.3d at 31. It defines
“automatically” as “having a self-acting or selfregulating mechanism that performs a required act at
a predetermined point in the operation.” BumpStock-Type Devices, 83 Fed. Reg. at 66,519 (quoting
Webster’s New International Dictionary 187 (2d ed.
1934)). Mr. Aposhian does not contest this definition.
Rather, he contests its application to bump stocks.
The panel majority unnecessarily abstracts
“automatically” from the rest of the statutory language
to render the word ambiguous. The statute says a
machine gun is designed to shoot “automatically more
than one shot, without manual reloading, by a single
function of the trigger.” 26 U.S.C. § 5845(b) (emphasis
added). “Section 5845(b)’s awkward syntax does not
equal ambiguity.” Guedes, 920 F.3d at 183 (Henderson,
J., dissenting). The statute is unambiguous about what
makes the firearm shoot automatically: the function of
the trigger. To track with the dictionary definition, the
statute itself identifies the “predetermined point in the

90a
operation” at which the “self-regulating mechanism
performs the required act.” If a single function of the
trigger and then some other input is required to make
the firearm shoot automatically, we are not talking
about a “machinegun” as defined in § 5845(b).
The government conceded during the en banc
oral argument that if a shooter pulls the trigger of a
semiautomatic rifle equipped with a non-mechanical
bump stock without doing anything else, the rifle will
fire just one shot. Oral Arg. at 1:01:40, Aposhian v.
Rosen (2021) (19-4036). That’s why the statute is
unambiguous. To make the firearm “shoot
automatically more than one shot”, the shooter must
also be pulling forward on the barrel of the gun.
Because a bump stock requires this extra physical
input, it does not fall within the statutory requirement
that the weapon shoot “automatically ... by a single
function of the trigger.” 26 U.S.C. § 5845(b).
D. Chevron Does Not Apply Here
1. The Government Waived Chevron
Throughout litigation, the government has
maintained that the Final Rule represents the best
reading of § 5845(b). It has consistently refused to
invoke Chevron deference. The panel majority paid no
heed to this steadfast refusal. Instead, the panel
majority scoured the briefs to justify bringing an
uninvited guest to the statutory interpretation party.
According to the majority, all the court needs is
an “invitation” to apply Chevron deference. Aposhian,
958 F.3d at 981–82. And that invitation can be brought
by either party—it need not be brought by the
government, whom Chevron benefits. In fact, even a
brief argument in a footnote opposing the application

91a
of Chevron deference constitutes such an invitation. Id.
(citing TransAm Trucking, Inc. v. Admin. Review Bd.,
833 F.3d 1206, 1212 n.4 (10th Cir. 2016)).
This theory of waiver is untenable. Under the
panel majority’s theory, a party that challenges an
agency's interpretation of a rule is forced to dance
around Chevron, even where the government has not
invoked it. Chevron becomes the Lord Voldemort of
administrative law, “the-case-which-must-not-benamed.” And litigants bold enough to expressly oppose
Chevron in their briefing will be left guessing whether
their reference to the case was fleeting or perfunctory
enough to avoid making an invitation. All the while,
courts are given a troubling amount of freedom when
deciding whether to use Chevron—discretion that will
dictate the outcome in many cases.
Even the panel majority acknowledged it was
unsure whether its invitation theory is correct. See id.
at 982 n.6. And yet the en banc majority is perfectly
content to leave this confusion in place. This failure to
clarify our rule about whether Chevron can be waived
has real implications for litigants and courts in our
circuit. Plaintiffs challenging an agency’s
interpretation of a statute are left guessing how to
approach a given case. Should they argue vigorously
against Chevron in their briefing? Should they go to
lengths to avoid mentioning Chevron and its progeny
at all? Or are all such litigation decisions futile
because a court can sua sponte apply Chevron
whenever it pleases? The majority’s decision to vacate
the en banc order leaves us all without a clear answer.
For my part, I believe we must abide by the
government’s decision to forgo Chevron deference. I
come to this conclusion for two reasons.

92a
First, the normal rules that govern party
presentation and waiver should apply to Chevron.
“[W]hen a party chooses not to pursue a legal theory
potentially available to it, we generally take the view
that it is ‘inappropriate’ to pursue that theory in our
opinions.” Hydro Res., Inc. v. EPA, 608 F.3d 1131, 1146
n.10 (10th Cir. 2010) (en banc). We refuse to consider
arguments a party fails to make because we depend
“on the adversarial process to test the issues for our
decision” and are concerned “for the affected parties to
whom we traditionally extend notice and an
opportunity to be heard on issues that affect them.”
Id.4
Courts and parties undoubtedly benefit from
this type of adversarial presentation of Chevron.
Chevron’s applicability in a given case is seldom

4

To be sure, courts treat some issues as non-waivable. For
instance, parties typically cannot waive the proper standard of
review. See, e.g., United States v. Fonseca, 744 F.3d 675, 682 (10th
Cir. 2014) (“[T]he court, not the parties, must determine the
standard of review, and therefore, it cannot be waived.”) (internal
quotation marks omitted). Likewise, we are not bound by a party’s
failure to make an argument regarding statutory interpretation.
See Kamen v. Kemper Financial Servs., Inc., 500 U.S. 90, 99
(1991) (“When an issue or claim is properly before the court, the
court is not limited to the particular legal theories advanced by
the parties, but rather retains the independent power to identify
and apply the proper construction of governing law.”).
But Chevron is neither a standard of review nor a canon
of construction. The APA describes the appropriate standards of
review for reviewing agency actions. See 5 U.S.C. § 706. Chevron
is not among them. And unlike the traditional tools of statutory
interpretation, Chevron is not concerned with ascertaining the
fixed meaning of a statute. Once a statute is deemed ambiguous,
a statute interpreted pursuant to Chevron can be understood in
any number of ways that could change as the political winds blow.

93a
straightforward. See Gonzales v. Oregon, 546 U.S. 243,
258 (2006) (“Chevron deference, however, is not
accorded merely because the statute is ambiguous and
an administrative official is involved.”). Rather,
whether Chevron applies is often contested and
unclear. Among the issues courts must consider is
whether the agency acted with the requisite formality,
see United States v. Mead Corp., 533 U.S. 218, 229–31
(2001), whether the statute deals with a major
question Congress would not have intended to
delegate, see King v. Burwell, 576 U.S. 473, 485–86
(2015), and whether the agency has adopted a specific
and consistent position, see Epic Sys. Corp., 138 S. Ct.
at 1630. All this to say: it is often not apparent at first
blush whether Chevron should apply.
In practice, courts have applied the
party-presentation rule to Chevron. The Supreme
Court has deemed Chevron to be waived when
inadequately invoked. See, e.g., Est. of Cowart v.
Nicklos Drilling Co., 505 U.S. 469, 477 (1992)
(concluding that when an agency does not ask for
special deference to its interpretation “we need not
resolve the difficult issues regarding deference which
would be lurking in other circumstances”). We have
followed the Court's lead in our own practice. Hydro
Res., 608 F.3d at 1146 (“[W]e need not decide whether
EPA’s interpretation of the statute is entitled to
deference because, throughout the proceedings before
the panel and now the en banc court, EPA itself hasn't
claimed any entitlement to deference.”); see also Hays
Med. Ctr. v. Azar, 956 F.3d 1247, 1264 n.18 (10th Cir.
2020) (same).
Second, when the government does not invoke
Chevron as part of its litigation strategy, the

94a
preconditions for Chevron are not present. For Chevron
to apply, two conditions must be met: (1) Congress
must delegate authority to the agency to make rules
carrying the force of law and (2) the agency’s ensuing
interpretation must be “promulgated in the exercise of
that authority.” Mead, 533 U.S. at 226–27. The
agency’s litigation position is no less an exercise of
that authority than the agency’s interpretation. See
Guedes v. Bureau of Alcohol, Tobacco, Firearms, and
Explosives, 140 S. Ct. 789, 790 (Gorsuch, J., statement
regarding denial of certiorari) (“If the justification for
Chevron is that policy choices should be left to the
executive branch officials directly accountable to the
people, then courts must equally respect the
Executive’s decision not to make policy choices in the
interpretation of Congress’s handiwork.”) (internal
quotation marks omitted) (emphasis in original).
Here, in promulgating the Final Rule, ATF
insisted its definitions represented “the best
interpretation” and accorded “with the plain meaning”
of the statute.5 Bump-Stock-Type Devices, 83 Fed. Reg.
at 66,521, 66,527. And during litigation, the
government repeatedly disavowed Chevron deference.
Aple. Br. at 16 (“[P]laintiff's discussion of Chevron
deference has no bearing on the disposition of this
suit.”); id. at 36 (“[N]othing in the Rule suggest that its
legality depends on the application of Chevron
deference, or that the agency believed Chevron
deference was required to uphold the rule.”). ATF does
not believe it promulgated the Final Rule pursuant to

5

In the Final Rule, ATF invokes Chevron as a last resort,
arguing “even if those terms are ambiguous, this rule rests on a
reasonable construction of them.” Id. at 66,527.

95a
Chevron. If the agency disavows any reliance on
Chevron, who are we to second-guess it?
Whether we view the issue as one of waiver or
of Chevron’s applicability, the result is the same. We
cannot sua sponte raise Chevron deference. In this
case, that means we must do what courts have done for
centuries and interpret the statute the old-fashioned
way: de novo. As indicated above, doing so leads to a
clear result: bump stocks are not machine guns.
2. The Rule of Lenity Resolves Any Ambiguity
Even if Chevron cannot be waived and is
applicable here, it cannot and should not jump the line
when courts interpret an ambiguous statute. As a
reminder, Chevron only kicks in once the traditional
tools of interpretation have been exhausted. See Epic
Sys. Corp., 138 S. Ct. at 1630. But the panel majority
did not exhaust all the traditional tools. We still have
one left in our toolbox: the rule of lenity. And it “is
more than up to the job of solving today’s interpretive
puzzle.” Id.
The rule of lenity is a substantive canon of
construction applied in statutory interpretation cases
involving criminal laws. The rule dictates that “when
there are two rational readings of a criminal statute,
one harsher than the other, we are to choose the
harsher only when Congress has spoken in clear and
definite language.” McNally v. United States, 483 U.S.
350, 359–60 (1987); see also United States v. Universal
C.I.T. Credit Corp., 344 U.S. 218, 222 (1952) (“We
should not derive criminal outlawry from some
ambiguous implication.”). “To invoke the rule, we must
conclude that there is a grievous ambiguity or
uncertainty in the statute.” Muscarello v. United

96a
States, 524 U.S. 125, 138 (1998). And the panel
majority was correct in identifying it as a “rule of last
resort.” Aposhian, 958 F.3d at 978 n.4.
But it is not clear to me that the level of
ambiguity required to invoke the rule of lenity is any
different from that necessary to invoke Chevron. And
I am admittedly lost as to why Chevron gets to cut in
front of the rule of lenity in the statutory
interpretation line. Chevron is of recent provenance. It
is a rule of interpretive convenience, rooted in notions
of agency expertise and political accountability. See
Chevron, U.S.A., Inc. v. Nat. Res. Defense Council, Inc.,
467 U.S. 837, 865 (1984). The rule of lenity, by
contrast, “provides a time-honored interpretive
guideline.” Liparota v. United States, 471 U.S. 419, 427
(1985). It addresses core constitutional concerns: fair
notice and the separation of powers. United States v.
Kozminski, 487 U.S. 931, 952 (1988); see also United
States v. Wiltberger, 5 Wheat. 76, 95 (1820) (Marshall,
C.J.) (“It is founded on the tenderness of the law for
the rights of individuals; and on the plain principle
that the power of punishment is vested in the
legislative, not the judicial department. It is the
legislature ... which is to define a crime, and ordain its
punishment.”). Applying Chevron deference to an
agency’s interpretation of a statute does not address
either of those concerns.
Take the present case as an example. The
definition of “machinegun” in § 5845(b) has both civil
and criminal consequences. See 18 U.S.C. 922(o)(1)
(making it unlawful to possess a machine gun). The
rule of lenity applies to such statutes. See Leocal v.
Ashcroft, 543 U.S. 1, 11 n.8 (2004) (“Because we must
interpret the statute consistently, whether we

97a
encounter its application in a criminal or noncriminal
context, the rule of lenity applies.”); see also United
States v. Thompson/Center Arms Co., 504 U.S. 505,
517–18 (1992) (Breyer, J., plurality) (“The key to
resolving the ambiguity lies in recognizing that
although it is a tax statute we now construe in a civil
setting, the NFA has criminal consequences .... It is
proper, therefore, to apply the rule of lenity and
resolve the ambiguity in Thompson/Center’s favor.”).
Section 5845(b) as re-interpreted by ATF does
not provide citizens with fair notice of what conduct is
criminalized. When an agency can define criminal
conduct, there is a genuine concern that “if [they] are
free to ignore the rule of lenity, the state could make
an act a crime in a remote statement issued by an
administrative agency.” See Carter v. Welles-Bowen
Realty, Inc., 736 F.3d 722, 732 (6th Cir. 2013) (Sutton,
J., concurring). The government insists fair notice
concerns are not implicated here because the Final
Rule is not tucked away in obscurity. Rather, the Final
Rule went through notice and comment and is
published in the Federal Register.
But this is cold comfort to a citizen tasked with
conforming their conduct to the law. The government
expects an uncommon level of acuity from average
citizens to know that they must conform their conduct
not to the statutory language, but to the interpretive
gap-filling of an agency which may or may not be
upheld by a court. Justice Gorsuch recently expressed
this same concern regarding a case with nearly
identical facts:
How, in all this, can ordinary citizens be
expected to keep up—required not only to
conform their conduct to the fairest
reading of the law they might expect

98a
from a neutral judge, but forced to guess
whether the statute will be declared
ambiguous; to guess again whether the
agency’s initial interpretation of the law
will be declared “reasonable”; and to
guess again whether a later and opposing
agency interpretation will also be held
“reasonable”?
Guedes, 140 S. Ct. at 790 (statement regarding denial
of certiorari). When an agency plays pinball with a
statute’s interpretation, as the ATF has here, fair
notice cannot be said to exist.
Furthermore, the Final Rule violates the
separation of powers. It is not by sheer happenstance
or convenience that Congress writes the criminal laws.
Rather, “because of the seriousness of criminal
penalties, and because criminal punishment usually
represents the moral condemnation of the community,
legislatures and not courts should define criminal
activity.” United States v. Bass, 404 U.S. 336, 348
(1971). ATF has no authority to substitute its moral
judgment concerning what conduct is worthy of
punishment for that of Congress.
And we should feel deep discomfort at allowing
an agency to define the very criminal rules it will
enforce by implicit delegation. Such a delegation
“turn[s] the normal construction of criminal statutes
upside down, replacing the doctrine of lenity with a
doctrine of severity.” Carter, 736 F.3d at 730 (Sutton,
J., concurring).”6 The delegation raises serious
6

Citing Touby v. United States, 500 U.S. 160 (1991), the
government argues that it is well within Congress’s power to give
agencies the power to define crimes. But if Congress wants to give
the executive branch discretion to define criminal conduct, it must

99a
constitutional concerns by making ATF the expositor,
executor, and interpreter of criminal laws.
Applying the rule of lenity to § 5845(b) would
alleviate these concerns. The rule of lenity instructs
us, when confronted with two possible understandings
of a statute, to adopt the narrower construction. With
the rule aiding our interpretation, § 5845(b) clearly
answers the issue at hand: bump stocks do not fall
within the definition of machine gun.
Still, the panel majority says the rule of lenity
does not apply here.
In doing so, the panel majority fails to explain
why the rule of lenity should receive such a disfavored
status among the rules of construction. We have
regularly applied similar substantive canons of
construction before reaching Chevron. For instance,
constitutional avoidance is a canon of construction that
resolves statutory ambiguities to avoid potential
constitutional issues. And like the rule of lenity, “the
canon of constitutional avoidance comes into play only
when, after the application of ordinary textual
analysis, the statute is found to be susceptible of more
than one construction.” Hernandez-Carrera v. Carlson,
547 F.3d 1237, 1245 (10th Cir. 2008). And yet we have
said “[i]t is well established that the canon of
constitutional avoidance does constrain an agency’s
discretion to interpret statutory ambiguities, even
when Chevron deference would otherwise be due.” Id.
speak “distinctly.” United States v. Grimaud, 220 U.S. 506, 519
(1911). Touby involved such an express delegation of interpretive
authority to the attorney general. Here, we are far removed from
the statute at issue in Touby. We are having to infer from
ambiguity, not an express delegation, that Congress implicitly
authorized ATF to define criminal conduct.

100a
at 1249. We have done the same with other canons of
construction. See, e.g., Ramah Navajo Chapter v.
Lujan, 112 F.3d 1455, 1462 (10th Cir. 1997) (applying
the canon of construction favoring Native Americans
rather than Chevron). Why should we favor some
substantive canons over Chevron but not the
longstanding rule of lenity?
Faced with these conundrums, the panel
majority looks to a footnote in a Supreme Court
opinion to serve as the lodestar for its reasoning. See
Babbitt v. Sweet Home Chapter of Cmtys. for a Greater
Ore., 515 U.S. 687, 704 n.18 (1995). In Babbitt, the
Court was confronted with an agency’s interpretation
of a statute that had both civil and criminal
consequences. The majority applied Chevron rather
than the rule of lenity. In making this prioritization,
Justice Stevens wrote: “We have never suggested that
the rule of lenity should provide the standard for
reviewing facial challenges to administrative
regulations whenever the governing statute authorizes
criminal enforcement.” Id. And he went on to say
“[e]ven if there exist regulations whose interpretations
of statutory criminal penalties provide such
inadequate notice of potential liability as to offend the
rule of lenity, the ‘harm’ regulation, which has existed
for two decades and gives fair warning of its
consequences, cannot be one of them.” Id. The majority
takes this footnote and turns it into a categorical rule:
“where a regulation is at issue, and the agency (here,
ATF) has both civil and criminal enforcement
authority, Babbitt suggests that Chevron, not the rule
of lenity, should apply.” Aposhian, 958 F.3d at 983.
The panel majority reads the Babbitt footnote
for more than it is worth. Babbitt does not prevent us

101a
from applying the rule of lenity here for several
reasons. First, Justice Steven’s abbreviated reasoning
did not create any binding rule about the relationship
between lenity and Chevron in all circumstances. The
footnote is composed of four sentences of reasoning.
And it addresses only one of the concerns underlying
the rule of lenity—fair notice—but not the other—the
separation of powers. “[O]ne would have expected the
Court to say more before allowing agencies to trump a
doctrine Chief Justice Marshall described as ‘perhaps
not much less old than construction itself.’ ” Carter,
736 F.3d at 735 (Sutton, J., concurring) (quoting
Wiltberger, 5 Wheat. at 95).
The post-Babbitt cases further punctuate the
limits of the footnote. Several years after Babbitt, the
Court declined to weigh in on the interaction between
Chevron deference and the rule of lenity. See Solid
Waste Agency of N. Cook Cty. v. U.S. Army Corps of
Eng’rs, 531 U.S. 159, 174 n.8 (2001). And the Court’s
most recent decisions have also indicated the
government’s interpretation of criminal laws should
not receive deference. See, e.g., United States v. Apel,
571 U.S. 359, 369 (2014) (“[W]e have never held that
the Government’s reading of a criminal statute is
entitled to any deference.”); Abramski v. United States,
573 U.S. 169, 191 (2014) (“[C]riminal laws are for
courts, not for the Government, to construe.”). The
panel majority acknowledges these statements by the
Court, but insists Chevron deference was not in play in
either Apel or Abramski. But the panel majority gives
no reason, other than Babbitt’s allegedly categorical
footnote, as to why we should treat any differently a
case in which Chevron would otherwise be applicable.

102a
Even if some binding rule about the rule of
lenity and Chevron exists in Babbitt, that rule would
not apply here. The regulation at issue in Babbitt had
been on the books for twenty years. So, any concerns
about fair warning were significantly diminished. The
same cannot be said about ATF’s Final Rule. For over
a decade, ATF consistently reassured the owners of
bump stocks that their property did not fall within the
definition of “machinegun.” Then, in just over a year,
it performed an about-face on its own interpretation.
The regulation at issue here does not fall within
Babbitt’s purview.
***
For all these reasons, Mr. Aposhian has
demonstrated that his claim is likely to succeed.
II. Irreparable Harm
Having already determined that Mr. Aposhian
was not likely to succeed on the merits of his claim, the
panel majority proceeded to the other prongs of the
preliminary injunction test. But in doing so, it created
further confusion.
In its briefing before the district court, the
government conceded the second prong of the
preliminary injunction test. The government
“acknowledge[d] that the irreparable harm prong of
the preliminary injunction test is met here.” Aplt. App.
106. And the district court recognized and accepted
this concession: “The parties do not dispute that Mr.
Aposhian will experience irreparable harm if the
injunction is denied.” Id. at 131.
Yet, on appeal, the government argued it was
not bound by this concession and the panel majority
agreed. Untethered from what happened below, the
panel majority concluded Mr. Aposhian had not shown

103a
irreparable harm—yet another reason to deny his
request for a preliminary injunction. The panel cited
Dominion Video Satellite, Inc. v. Echostar Satellite
Corp., 356 F.3d 1256 (10th Cir. 2004), to support its
conclusion that a “stipulation without more is
insufficient to support an irreparable harm finding.”
Aposhian, 958 F.3d at 990 (quoting Dominion, 356
F.3d at 1266).
I am not convinced. Dominion dealt explicitly
with a pre-litigation contractual stipulation, not a
formal concession by a party opposing a preliminary
injunction. District courts are entirely capable of
managing a preliminary injunction. And when a
district court recognizes a formal concession by a party
which relieves the other party of its burden, we as the
appellate court are bound by that concession. See
Christian Legal Soc’y Chapter of the Univ. Of Cal.,
Hastings Coll. of L. v. Martinez, 561 U.S. 661, 677,
(2010) (explaining that “factual stipulations are formal
concessions ... that have the effect of withdrawing a
fact from issue and dispensing wholly with the need for
proof of the fact .... [A] judicial admission is conclusive
in the case.”) (internal quotation marks omitted).
It was improper for the panel majority to ignore
the government’s concession regarding irreparable
harm. And it puts parties seeking preliminary
injunctions in a bind. Can they no longer rely on an
opposing party’s concessions regarding any of the
preliminary injunction prongs? After receiving a
concession, can the opposing party simply sandbag the
movant on appeal, demanding proof of a previously
conceded prong? Indeed, the government can and does
stipulate that all of the prongs of a preliminary
injunction have been met when it consents to the entry
of such an order. And this lack of clarity places the

104a
district court in an impossible dilemma in the rush of
injunctive litigation to decide what they can and
cannot rely on in the parties’ presentation of the case.
As with the Chevron issues discussed above, the
en banc majority’s decision to vacate the en banc order
places litigants in an untenable position until we offer
further clarity.
III. Conclusion
Anyone who has seen a semiautomatic rifle
equipped with a bump stock understands it increases
the rate of lethal fire. But Congress did not define
“machinegun” based upon the speed at which a firearm
shoots or the firearm’s potential for mass carnage.
Section 5845(b) defined “machinegun” based on its
mechanical operation. The language of that statute
and that statute alone is what we must apply.
The en banc majority has done the circuit no
favors today. By dismissing the en banc order, the
majority perpetuates confusion on difficult issues in
the circuit. We are left not knowing whether the
government can waive Chevron, whether the rule of
lenity can ever trump Chevron, and whether formal
concessions concerning a preliminary injunction factor
before the district court is binding. For the sake of
courts and future litigants who must wade through the
panel majority’s reasoning, I can only hope we receive
clarity on these issues sooner rather than later.
For the foregoing reasons, I dissent from the
majority’s decision to vacate the en banc order.
HARTZ, Circuit Judge, joined by TYMKOVICH,
Chief Judge, and HOLMES, EID, and CARSON,
Circuit Judges, dissenting.

105a
I am disappointed that the majority of the en
banc court has voted not to consider this matter. There
are a variety of important issues raised in the appeal.
The one of most interest to me is whether the doctrine
of Chevron U.S.A., Inc. v. Natural Resources Defense
Council, 467 U.S. 837 (1984), is at all in play.
The question here is whether a particular type
of bump stock is a “machinegun” as defined by 26
U.S.C. § 5845(b). This is a matter of statutory
interpretation, inherently a responsibility of the
courts. As Chief Justice Marshall said more than two
centuries ago, “It is emphatically the province and
duty of the judicial department to say what the law is.”
Marbury v. Madison, 5 U.S. 137, 177 (1803). Perhaps
that sentence has been quoted so much that it seems
trite, but it is an essential starting point for the
analysis in this appeal.
I say “starting point” because there are
qualifications to the general rule. Any qualification,
however, must be soundly grounded in a compelling
rationale. One qualification has been recognized in
Chevron and the multitude of cases expounding on it.
Those cases inform us, instruct us, that in proper
circumstances courts must defer to a government
agency’s interpretation of ambiguous statutory
language. I question whether such circumstances are
present here.
At the end of 2018 the federal Bureau of Alcohol,
Tobacco, Firearms, and Explosives (ATF) promulgated
a Final Rule interpreting the statutory definition of
“machinegun” to include bump stocks that the ATF
had previously declared not to be machine guns. The
panel majority in this case held that it should defer to
the definition in the Final Rule under the Chevron

106a
doctrine. Its opinion carefully, and intelligently,
analyzed the Rule and its history and concluded that
it was a legislative rule compelling deference, rather
than an interpretive rule entitled to no deference.
That opinion’s analysis, however, strikes me as
formalistic. It does not explain why this court should
shirk its fundamental duty “to say what the law is.” As
I understand the Chevron line of cases, deference to an
agency’s interpretation of an ambiguous statute can be
justified on either of two grounds. First, the statutory
ambiguity may signal congressional intent to delegate
policymaking authority to an agency within the
bounds of the statutory language, and courts should
defer to that policy choice. Second, the complexity or
technical difficulty of the subject matter may suggest
the wisdom of deferring to the experience and
expertise of the agency in construing the statute. If,
however, the agency’s interpretation of the statute is
based neither on a policy judgment nor the application
of agency expertise, deference cannot be justified. In
particular, if the agency has done nothing more than
conduct an analysis typical of that performed by the
judiciary, there is no reason to defer. To be sure,
agency lawyers may well have legal minds superior to
those of any member of the court construing the
statute, but that does not excuse disobedience to
Article III’s requirements for one to be empowered to
exercise the functions of a federal judge. We must be
the ones to perform those tasks, although always
grateful for assistance from the bar.
The Final Rule is solely the product of the ATF’s
performing a judge-like interpretation of the statutory
language. The agency disclaimed any policy-making
component to its analysis. Nor has it suggested that its
departure from its prior publicly expressed views on

107a
the legality of bump stocks was based on any new
expert knowledge or experience. Chevron deference is
improper.
EID, Circuit Judge, joined by TYMKOVICH, Chief
Judge, and HARTZ, HOLMES, and CARSON,
Circuit Judges, dissenting.
Chevron has no place in this case. At least four
reasons support this conclusion. First, the statutory
language is not ambiguous. Ante, at 9–12 (Tymkovich,
C.J., dissenting); post, at 1–2 (Carson, J., dissenting).
Second, even if the language were ambiguous, the
agency offers up no particular expertise or policy
insight to help resolve the ambiguity. Ante, at 1–3
(Hartz, J., dissenting). Third, any argument for
deference is waived because the agency disavows
reliance on Chevron altogether. Ante, at 12–17
(Tymkovich, C.J., dissenting); post, at 1–3 (Carson, J.,
dissenting). Finally, the criminal penalties at issue in
this proceeding counsel against Chevron’s application.
Ante, at 898–902 (Tymkovich, C.J., dissenting). I join
my dissenting colleagues, and write briefly to elaborate
on this latter point.
The panel majority rests the propriety of its
application of Chevron in this context on footnote 18 of
Babbitt v. Sweet Home Chapter of Communities for a
Great Oregon, 515 U.S. 687 (1995). Aposhian v. Barr,
958 F.3d 969, 982–83 (10th Cir. 2020). In the footnote,
the Supreme Court states that it has “never suggested
that the rule of lenity should provide the standard for
reviewing facial challenges to administrative
regulations whenever the governing statute authorizes
criminal enforcement.” Babbitt, 515 U.S. at 704 n.18.

108a
The panel majority interprets this footnote as a
directive from the Court to apply Chevron in any case
that involves both civil and criminal penalties.
Aposhian, 958 F.3d at 983. But the footnote is not a
mandate. Simply because the footnote may allow
application of Chevron when criminal penalties are
involved does not mean that it commands deference be
applied. Cf. ante, at 901 (Tymkovich, C.J., dissenting)
(suggesting that the footnote does not create a
categorical rule that Chevron trumps the rule of
lenity). Here, the fact that the statutory regime before
us is predominantly criminal in nature counsels
against applying Chevron.
The Gun Control Act of 1968 (“GCA”), 18 U.S.C.
§ 921 et seq., as amended by the Firearm Owners’
Protection Act, Pub. L. No. 99-308, 100 Stat. 449
(1986), imposes a broad prohibition against owning a
“machinegun,” making it “unlawful for any person to
transfer or possess a machinegun.” 18 U.S.C.
§ 922(o)(1); see Guedes v. Bureau of Alcohol, Tobacco,
Firearms & Explosives, 920 F.3d 1, 36 (D.C. Cir. 2019)
(Henderson, J., concurring in part and dissenting in
part) (explaining that “private ownership of machine
guns” is “effectively banned” by the GCA). And to
enforce this prohibition, the GCA renders such
unlawful possession a felony punishable by up to ten
years of imprisonment. 18 U.S.C. § 924(a)(2). Thus, the
definition of “machinegun”—which the GCA
incorporates by reference from the National Firearms
Act (“NFA”), 26 U.S.C. §§ 5801–5872, see 18 U.S.C.
§ 921(a)(23) (incorporating the NFA’s definition into
the GCA)—has an enormous criminal impact. By
contrast, the civil scope of the statutory regime is quite
limited. The GCA’s prohibition on “machineguns” is

109a
subject to only two extremely limited exceptions, for
“machineguns” (1) “transfer[red] to or by, or
possess[ed] by or under the authority of” the federal or
a state government, id. § 922(o)(2)(A), or (2) lawfully
possessed before the prohibition went into effect, id.
§ 922(o)(2)(B). Only “machineguns” that fall within
these narrow exceptions are subject to civil
consequences, and even then, the civil consequences
are limited—the chief consequence is a registration
requirement. See 26 U.S.C. §§ 5841, 5845(a), (b). Given
the breadth of the criminal prohibition and the limited
nature of the exceptions giving rise to civil
ramifications, I conclude that the statutory regime is
predominately criminal.
Because this case involves a predominately
criminal proceeding, I would hold that the agency’s
interpretation of “machinegun” does not qualify for
Chevron deference. Criminal laws do not fall within
the specialized expertise of any agency. True, the
executive branch enforces the federal criminal laws
and prosecutes federal criminal cases. But the
Supreme Court has “never held that the Government’s
reading of a criminal statute is entitled to any
deference.” United States v. Apel, 571 U.S. 359, 369
(2014). Moreover, deferring to an agency’s
interpretation of a criminal statute would run
headlong into the constitutional concerns of fair notice
and separation of powers. Ante, at 19–22 (Tymkovich,
C.J., dissenting) (discussing concerns as related to the
rule of lenity). Indeed, the Court has made clear that
“criminal laws are for courts, not for the Government,
to construe.” Abramski v. United States, 573 U.S. 169,
191 (2014). The panel majority recognizes the Court’s
statements but points out that they were made outside
of a “Chevron-eligible interpretation.” Aposhian, 958

110a
F.3d at 984 (internal quotation mark omitted) (quoting
Guedes, 920 F.3d at 25). That fact, however, does not
mean the principles can be disregarded.
Chevron does not apply inexorably. It is a
presumption about congressional intent, grounded in
considerations such as agency expertise and the
preference for leaving policy choices to Executive
Branch officials who are politically accountable.
Chevron U.S.A. Inc. v. Nat. Res. Def. Council, Inc., 467
U.S. 837, 865 (1984). When these essential premises
are missing or there is otherwise reason to doubt that
Congress intended to delegate authority to an agency,
Chevron does not apply. See Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612, 1629–30 (2018). See generally United
States v. Mead Corp., 533 U.S. 218 (2001). Here, there
is ample reason to doubt that Congress would have
intended that deference be paid given the substantial
criminal consequences at stake. Because the statutory
regime at issue regulates primarily through a criminal
prohibition with only limited civil ramifications,
Chevron deference is misplaced. Accordingly, I
respectfully dissent.
CARSON, Circuit Judge, joined by TYMKOVICH,
Chief Judge, and HARTZ, HOLMES, and EID,
Circuit Judges, dissenting from the denial of rehearing
en banc.
I join the well-reasoned dissents authored by
Chief Judge Tymkovich, Judge Hartz and Judge Eid.
I write separately to emphasize a few points from my
dissent to the panel opinion.
I.

111a
The National Firearms Act (“NFA”) is not
ambiguous. It has been on the books for nearly ninety
years and its definition of a “machinegun” has proven
workable. Indeed, until the Executive developed an
unfavorable opinion of nonmechanical bumpstocks, the
federal government blessed the devices as complying
with the NFA on many occasions. A legal device can be
used to perpetrate horrific acts, but that does not make
it illegal and does not render the statutory definition
allowing its possession ambiguous. The NFA makes
illegal the ownership of “any weapon which shoots, is
designed to shoot, or can be readily restored to shoot,
automatically more than one shot, without manual
reloading, by a single function of the trigger.” 26
U.S.C. § 5845(b). The NFA speaks in terms of how a
firearm functions, not its capability of firing rapidly or
causing harm. As I explain more fully in my dissent to
the panel opinion, a semiautomatic weapon equipped
with a nonmechanical bumpstock requires the trigger
to function each time it fires. And it does not keep
firing “automatically” when the operator presses the
trigger. So under the clear statutory language, a
firearm equipped with a nonmechanical bumpstock is
definitionally not a prohibited machinegun. The panel
majority, in my opinion, clearly erred by determining
the NFA’s definition of “machinegun” is ambiguous.
II.
I also question the Court’s decision to vacate the
en banc order when the parties’ thorough briefing
identified an apparent intracircuit conflict about
whether the application of Chevron deference must be
requested by the government in the first instance. That
concerns me, especially given that both the Supreme

112a
Court and our Circuit have “often declined to apply
Chevron deference when the government fails to
invoke it” or otherwise rely on it. Guedes v. Bureau of
Alcohol, Tobacco, Firearms & Explosives, 140 S. Ct.
789, 790, (2020) (statement of Gorsuch, J., respecting
denial of certiorari). See also, e.g., Hays Med. Ctr. v.
Azar, 956 F.3d 1247, 1264 n.18 (10th Cir. 2020); Hydro
Res., Inc. v. EPA, 608 F.3d 1131, 1146 (10th Cir. 2010).
Indeed, as early as 2010, we put the burden of asking
for Chevron deference on the government. Id.
But here the panel opinion ignores Hydro
Resources and instead relies on our later decision in
TransAm Trucking, Inc. v. U.S. Dep’t of Lab. Admin.
Rev. Bd., 833 F.3d 1206, 1212 n.4 (10th Cir. 2016),
where we relied on Chevron with no government
request that we do so. The panel’s reliance on
TransAm violates the venerable circuit rule that when
faced with an intracircuit conflict, we should follow the
earlier, settled precedent and not the later decided
case. United States v. Melendez-Garcia, 28 F.3d 1046,
1054 (10th Cir. 1994). And if the court wishes to
jettison the older line of cases in favor of more recent
authority, that action requires invoking the machinery
of the en banc court. Cf. United States v. Taylor, 828
F.2d 630, 633 (10th Cir. 1987) (obtaining en banc
review for rejecting the first published decision in
favor of subsequent contrary authority).
The majority’s application of Chevron with no
government request that it do so is even more
alarming in the context of this case. Here, the
government expressly disavowed any reliance on

113a
Chevron and, in fact, asked the panel not to apply it.1
“If the justification for Chevron is that ‘policy choices’
should be left to executive branch officials ‘directly
accountable to the people,’... then courts must equally
respect the Executive’s decision not to make policy
choices in the interpretation of Congress’s handiwork.”
Guedes, 140 S. Ct. at 790 (statement of Gorsuch, J.,
respecting denial of certiorari) (quoting Epic Sys. Corp.
v. Lewis, 138 S. Ct. 1612, 1630 (2018)). Here, by
turning a blind eye to the government’s request and
applying Chevron anyway, the majority—unfairly in
my opinion—sealed Mr. Aposhian’s fate by tipping the
scales in favor of the government.
III.
As a final point, I wish to emphasize that the
panel majority (perhaps inadvertently) has increased
the burden on district courts in the preliminary
injunction context. Our preliminary injunction
jurisprudence required Mr. Aposhian to demonstrate
four things to the district court—one of which was that
he would suffer irreparable harm if the injunction did
not issue. As is common in litigation, the government
conceded that if a preliminary injunction did not issue,
Mr. Aposhian would suffer irreparable harm. He,
therefore, presented no evidence on that issue and the
district court denied the request for preliminary
injunction based on another ground.
Despite the clarity with which the government
conceded the irreparable harm element and Mr.
1

The district court noted that the government “defendants
went out of their way to avoid citing Chevron and its progeny and
repeatedly stressed that they neither request nor believe their
interpretations are entitled to any measure of deference.”

114a
Aposhian’s reasonable reliance on that concession, the
panel majority concluded that he failed to meet his
burden, in part, because he did not show irreparable
harm. I view the panel majority’s conclusion as
contrary to our caselaw, unfair, and as impeding
judicial economy. Here’s why.
Trial courts are busy places and their judges are
tasked with making decisions and moving cases in a
swift and efficient manner. To assist the
administration of their busy dockets, judges encourage
parties to focus on the areas in dispute. The parties in
turn do things like stipulate to facts or concede certain
elements of a claim. We, as an appellate court,
encourage these practices and routinely hold parties to
the stipulations and concessions they make in federal
district courts. See, e.g., Johnson v. Spencer, 950 F.3d
680, 708 (10th Cir. 2020) (concluding that defendants
who had relied on claim preclusion as a defense met
their burden of proof on two of the three requisite
elements because the opposing party “concede[d] ... the
second and third elements”); United States v. Sinks,
473 F.3d 1315, 1321 (10th Cir. 2007) (observing that
the government can concede elements of the plain
error standard of review, which a criminal defendant
has the burden of proof to establish). We have even
held, in the preliminary injunction context, that the
parties can stipulate to the entry of a preliminary
injunction—which necessarily means they concede
that the applicant can prove all the elements required
to receive the injunction.2

2

And this invites the question—if you can concede all the
elements required for injunctive relief, why can’t you concede just
one? Obviously—you can.

115a
As this shows, the panel’s decision conflicts with
our caselaw which allows the district court to accept as
proven an element to which the opposing party
stipulates. The panel’s decision impedes judicial
economy because going forward, parties will now have
to spend time and resources proving elements about
which there is no dispute. And it is unfair because the
panel departed from common practice and our
established caselaw with no notice to Mr. Aposhian.

116a
APPENDIX E
Regulatory Provisions
1. 27 C.F.R. § 447.11 provides:
Meaning of terms.
When used in this part and in forms prescribed under
this part, where not otherwise distinctly expressed or
manifestly incompatible with the intent thereof, terms
shall have the meanings ascribed in this section.
Words in the plural form shall include the singular,
and vice versa, and words imparting the masculine
gender shall include the feminine. The terms
“includes” and “including” do not exclude other things
not enumerated which are in the same general class or
are otherwise within the scope thereof.
****
Machinegun. A “machinegun”, “machine pistol”,
“submachinegun”, or “automatic rifle” is a firearm
which shoots, is designed to shoot, or can be readily
restored to shoot, automatically more than one shot,
without manual reloading, by a single function of the
trigger. The term shall also include the frame or
receiver of any such weapon, any part designed and
intended solely and exclusively, or combination of
parts designed and intended, for use in converting a
weapon into a machinegun, and any combination of
parts from which a machinegun can be assembled if
such parts are in the possession or under the control of
a person. For purposes of this definition, the term
“automatically” as it modifies “shoots, is designed to
shoot, or can be readily restored to shoot,” means

117a
functioning as the result of a self-acting or selfregulating mechanism that allows the firing of
multiple rounds through a single function of the
trigger; and “single function of the trigger” means a
single pull of the trigger and analogous motions. The
term “machinegun” includes a bump-stock-type
device, i.e., a device that allows a semi-automatic
firearm to shoot more than one shot with a single pull
of the trigger by harnessing the recoil energy of the
semi-automatic firearm to which it is affixed so that
the trigger resets and continues firing without
additional physical manipulation of the trigger by the
shooter.
2. 27 U.S.C. § 478.11 provides:
Meaning of terms.
When used in this part and in forms prescribed under
this part, where not otherwise distinctly expressed or
manifestly incompatible with the intent thereof, terms
shall have the meanings ascribed in this section.
Words in the plural form shall include the singular,
and vice versa, and words importing the masculine
gender shall include the feminine. The terms
“includes” and “including” do not exclude other things
not enumerated which are in the same general class or
are otherwise within the scope thereof.
*****
Machine gun. Any weapon which shoots, is designed to
shoot, or can be readily restored to shoot, automatically
more than one shot, without manual reloading, by a
single function of the trigger. The term shall also

118a
include the frame or receiver of any such weapon, any
part designed and intended solely and exclusively, or
combination of parts designed and intended, for use in
converting a weapon into a machine gun, and any
combination of parts from which a machine gun can be
assembled if such parts are in the possession or under
the control of a person. For purposes of this definition,
the term “automatically” as it modifies “shoots, is
designed to shoot, or can be readily restored to shoot,”
means functioning as the result of a self-acting or selfregulating mechanism that allows the firing of
multiple rounds through a single function of the
trigger; and “single function of the trigger” means a
single pull of the trigger and analogous motions. The
term “machine gun” includes a bump-stock-type
device, i.e., a device that allows a semi-automatic
firearm to shoot more than one shot with a single pull
of the trigger by harnessing the recoil energy of the
semi-automatic firearm to which it is affixed so that
the trigger resets and continues firing without
additional physical manipulation of the trigger by the
shooter.
3. 27 C.F.R. § 479.11 provides:
Meaning of terms.
When used in this part and in forms prescribed under
this part, where not otherwise distinctly expressed or
manifestly incompatible with the intent thereof, terms
shall have the meanings ascribed in this section.
Words in the plural form shall include the singular,
and vice versa, and words importing the masculine
gender shall include the feminine. The terms
“includes” and “including” do not exclude other things

119a
not enumerated which are in the same general class or
are otherwise within the scope thereof.
*****
Machine gun. Any weapon which shoots, is designed to
shoot, or can be readily restored to shoot, automatically
more than one shot, without manual reloading, by a
single function of the trigger. The term shall also
include the frame or receiver of any such weapon, any
part designed and intended solely and exclusively, or
combination of parts designed and intended, for use in
converting a weapon into a machine gun, and any
combination of parts from which a machine gun can be
assembled if such parts are in the possession or under
the control of a person. For purposes of this definition,
the term “automatically” as it modifies “shoots, is
designed to shoot, or can be readily restored to shoot,”
means functioning as the result of a self-acting or selfregulating mechanism that allows the firing of
multiple rounds through a single function of the
trigger; and “single function of the trigger” means a
single pull of the trigger and analogous motions. The
term “machine gun” includes a bump-stock-type
device, i.e., a device that allows a semi-automatic
firearm to shoot more than one shot with a single pull
of the trigger by harnessing the recoil energy of the
semi-automatic firearm to which it is affixed so that
the trigger resets and continues firing without
additional physical manipulation of the trigger by the
shooter.

